<html>
<title> - GULF WAR VETERANS' ILLNESSES: HEALTH OF COALITION FORCES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





        GULF WAR VETERANS' ILLNESSES: HEALTH OF COALITION FORCES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2002

                               __________

                           Serial No. 107-137

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                --------

77-881              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                           Jason Chung, Clerk
                    Sarah Despres, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 24, 2002.................................     1
Statement of:
    George, the Right Honorable Bruce, MP, chairman, Defence 
      Select Committee, House of Commons, London.................    34
    Jamal, Goran A., M.B., Ch.B., M.D., Ph.D., FRCP, Imperial 
      College School of Medicine, London, England; Nicola Cherry, 
      M.D., Ph.D., FRCP, Department of Public Health Sciences, 
      University of Alberta, Edmonton, Alberta, Canada; Dr. 
      Robert W. Haley, M.D., University of Texas Southwestern 
      Medical Center, Dallas, Texas; Lea Steele, Ph.D., Kansas 
      Health Institute; James J. Tuite III, chief operating 
      officer, Chronix BioMedical, Inc.; and Howard B. Urnovitz, 
      Ph.D., scientific director, Chronic Illness Research 
      Foundation.................................................   105
    Kingsbury, Nancy, Director, Applied Research and Methods, 
      General Accounting Office, accompanied by Sushil Sharma, 
      Assistant Director, Applied Research and Methods, General 
      Accounting Office; and Betty Ward-Zuckerman, Assistant 
      Director, General Accounting Office........................    95
    Morris, the Right Honorable the Lord, of Manchester, AO QSO, 
      House of Lords, London, accompanied by Colonel Terry H. 
      English, Controller Welfare, the Royal British Legion; and 
      Malcolm Hooper, Emeritus Professor of Medicinal Chemistry, 
      University of Sunderland...................................    48
    Perot, Ross, chairman, Perot Systems Corp....................    81
    Principi, Anthony, Secretary, Department of Veterans Affairs, 
      accompanied by Dr. John Feussner, Chief Research and 
      Development Officer; Dr. Mark Brown, Director, 
      Environmental Agents Service; and Dr. Han Kang, Director, 
      Environmental Epidemiology Service.........................    11
    Winkenwerder, Dr. William, Assistant Secretary of Defense for 
      Health Affairs, Department of Defense......................    63
Letters, statements, etc., submitted for the record by:
    Cherry, Nicola, M.D., Ph.D., FRCP, Department of Public 
      Health Sciences, University of Alberta, Edmonton, Alberta, 
      Canada, prepared statement of..............................   121
    Feussner, Dr. John, Chief Research and Development Officer, 
      prepared statement of......................................    12
    George, the Right Honorable Bruce, MP, chairman, Defence 
      Select Committee, House of Commons, London, prepared 
      statement of...............................................    38
    Haley, Dr. Robert W., M.D., University of Texas Southwestern 
      Medical Center, Dallas, Texas, prepared statement of.......   129
    Jamal, Goran A., M.B., Ch.B., M.D., Ph.D., FRCP, Imperial 
      College School of Medicine, London, England, prepared 
      statement of...............................................   109
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     8
    Morris, the Right Honorable the Lord, of Manchester, AO QSO, 
      House of Lords, London, prepared statement of..............    50
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Steele, Lea, Ph.D., Kansas Health Institute, prepared 
      statement of...............................................   139
    Tuite, James J., III, chief operating officer, Chronix 
      BioMedical, Inc., prepared statement of....................   151
    Urnovitz, Howard B., Ph.D., scientific director, Chronic 
      Illness Research Foundation, prepared statement of.........   158
    Winkenwerder, Dr. William, Assistant Secretary of Defense for 
      Health Affairs, Department of Defense, prepared statement 
      of.........................................................    66

 
        GULF WAR VETERANS' ILLNESSES: HEALTH OF COALITION FORCES

                              ----------                              


                       THURSDAY, JANUARY 24, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Platts, 
Schrock, Otter, Kucinich, Sanders, Schakowsky and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Kristine McElroy, professional staff member; Jason M. 
Chung, clerk; Sarah Despres, minority counsel; and Jean Gosa 
and Earley Green, minority assistant clerks.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International Relations 
hearing entitled, ``Gulf War Veterans' Illnesses: Health of 
Coalition Forces,'' is called to order.
    We extend a very warm welcome to our distinguished 
colleagues from the United Kingdom. On the right, the Honorable 
Lord Morris of Manchester, a member of the House of Lords and a 
former member of the House of Commons, and the Right Honorable 
Bruce George, a member of Parliament.
    Throughout his public life Lord Morris has been a tireless 
advocate for the disabled. He currently serves as the 
Parliamentary Advisor to the Royal British Legion and is a 
member of the Inter Parliamentary Gulf War Group.
    Mr. George has chaired the Defence Select Committee in the 
House of Commons since 1997. He, too, is a Parliamentary 
Advisor to the Royal British Legion. He has been an invaluable 
ally and friend to this subcommittee in pursuing oversight of 
Gulf war veterans' issues.
    I think I'm stumbling over these words because as I went 
through a passageway in the Capitol I noticed the bullet holes 
from the war of 1812. So I'm just a little uneasy about this.
    We welcome their knowledge, expertise and insight, and we 
look forward to continuing our collaborative efforts on behalf 
of our veterans. I ask unanimous consent they be afforded the 
parliamentary privilege of participating as members of the 
subcommittee hearing. Without objection, so ordered.
    This subcommittee has also been in contact with the 
Honorable Bernard Cazeneuve, a member of the French National 
Assembly and president of the Commission on Gulf War Illnesses. 
Mr. Cazeneuve was unable to attend the hearing today, but his 
office offered to provide material for the record on French 
efforts to determine post-war health effects. I ask unanimous 
consent that the hearing record remain open for 2 days for that 
purpose and that, after consulting with the minority, the 
material provided be included in the record. It's in French. 
So, without objection, so ordered.
    The book and film Blackhawk Down vividly depict the unique 
physical and moral hazards of modern warfare. In the twisted 
streets of Mogadishu, Somalia, elite U.S. Army Rangers fought, 
and died, to redeem their pledge never to leave a fallen 
comrade behind.
    That same debt of honor is owed to the men and women from 
the coalition of nations who fought, and prevailed, in the 
toxic battlefields of the Persian Gulf war, and they came home 
sick. So today we ask again if the delayed casualties of 
Operations Desert Storm and Desert Shield are being left behind 
by a stunted research effort to find the causes and cures of 
their war-related illnesses.
    In our previous hearings on management of the joint 
Department of Defense [DOD], and Department of Veterans Affairs 
[VA], research protocol, witnesses raised troubling questions 
about the reach and rigor of an increasingly expensive, if not 
expansive, research program. These questions persist.
    Why does it appear privately funded studies have yielded 
more tangible results and more promising hypotheses than 
Federal projects? Does the interagency review process ignore or 
actively stifle research that does not conform to preconceived 
notions of a war without lingering toxic aftereffects? Is the 
Federal research agenda skewed toward long-term epidemiological 
studies at the expense of the clinical data needed now by Gulf 
war veterans and their doctors? What is known about the health 
of veterans from other coalition nations? Are different 
approaches by other nations to the use of pesticides, vaccines 
and experimental drugs being studied for clues to explain 
veterans' susceptibilities and symptoms?
    Befitting the importance of the questions under discussion, 
we are joined this morning by an impressive list of witnesses, 
all of whom share a commitment to improving the health of Gulf 
war veterans. VA Secretary Anthony Principi yesterday signaled 
a willingness to accelerate and broaden the research effort by 
appointing an advisory committee bringing new voices and new 
perspectives to these issues. And we sincerely thank you for 
doing that, Mr. Secretary. The DOD Assistant Secretary for 
Health Affairs will discuss health monitoring of Gulf war 
veterans and efforts to translate the medical lessons and 
mistakes of that war into better force health protection in the 
current and future conflicts. We welcome their participation.
    Witnesses from the General Accounting Office will discuss 
their ongoing work, undertaken at the subcommittee's request, 
to assess differences in health monitoring, health outcomes and 
defense strategies among Gulf war coalition members.
    Mr. Ross Perot, who has privately sponsored significant 
studies into Gulf war veterans' illnesses, will speak to the 
need for a renewed focus by VA and DOD on a Federal research 
program that is scientifically, not politically, driven. And a 
panel of researchers will describe sometimes Herculean efforts 
to overcome bureaucratic hurdles in their quest to unravel the 
tangled web of genetic, toxicological, neurological and 
immunological factors at work in causing the illnesses known as 
Gulf war syndrome.
    We look forward to their testimony.
    In closing, let me once again welcome our colleagues from 
the United Kingdom. We appreciate their work on behalf of all 
Gulf war veterans. We look forward to continued international 
cooperation on research and treatment protocols. The coalition 
that prevailed against Saddam Hussein still has men and women 
battling for their lives. We know they can't be left behind.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.001
    
    [GRAPHIC] [TIFF OMITTED] T2953.002
    
    Mr. Shays. Mr. Secretary, you see a number of members who 
are going to speak, but I assure you you will get out of here 
by 10:30.
    At this time I would invite Mr. Kucinich to give a 
statement, the ranking member of the committee.
    Mr. Kucinich. Thank you very much, Mr. Chairman and members 
of the committee. And to our honored colleagues from across the 
pond, welcome. We appreciate your dedication on this issue.
    I want to thank the Chair for making it possible for this 
interparliamentary exchange here and to Mr. Secretary and the 
witnesses, welcome. I want to thank all of you for your 
dedication and concern for our veterans and for our active 
service personnel.
    I want to also thank those who represent the private sector 
for their commitment to the health of those who serve this 
country.
    In particular, Mr. Chairman, before I make my formal 
statement I want to thank Ross Perot. Long before other people 
began to pay attention to these issues, Ross Perot's voice was 
one which raised this issue to a national consciousness. I want 
you to know that it's made a difference; and all of us in the 
Congress salute you for your passion and involvement, Mr. 
Perot. Thank you.
    Mr. Chairman, thank you for your continued attention to 
this important issue of the health of our soldiers, support for 
this country.
    Often in our work on military issues in Congress the human 
element of our defense, the sacrifices of the men and women who 
wear the uniform, their health and welfare, their goals and 
ideas, get lost amid endless discussion over hardware, over 
bombers and their budgets, over artillery and avionics. But as 
the military strategist Colonel John Boyd always stressed, and 
as I firmly believe, machines don't fight wars, people do. And 
it is these individuals, not our planes, tanks and guns, who 
daily place themselves at risk of injury and even death in 
serving our country.
    We thus have an obligation to the men and women who 
continue to suffer illness as a result of their service during 
the Gulf war to discover why they're sick and do all in our 
power to help them. I know, Mr. Chairman, you share this 
commitment. I know that commitment is shared by Mr. Sanders, 
who has made this a part of his important work in the Congress; 
and it's shared by all of our witnesses.
    I would like to draw attention to a few key issues 
surrounding Gulf war illness. The Institute of Medicine has 
looked at possible connections between certain drugs and 
vaccines troops received and Gulf war illness and has concluded 
that further research is necessary to make a final 
determination. If indeed Gulf war illness can be attributed to 
the drugs or vaccines, or some combination, that were issued to 
U.S. soldiers, the question of how the Pentagon evaluates the 
safety of these treatments assumes paramount importance.
    How rigorous are the processes by which the Defense 
Department assesses vaccines and other treatments and whether 
they are appropriate for American military personnel? If our 
soldiers are given unapproved or investigational medication 
such as the drug PB which during the Gulf war was used as a 
pretreatment for exposure to nerve agents, how does the 
Department of Defense assure that these medications are safe? 
To the extent possible, proven, science-based criteria for 
evaluating the safety of these treatments must be utilized; 
and, where such criteria are unavailable, thorough 
consideration must be given before exposing American service 
members to these substances.
    Related to the question of how the Pentagon determines 
medical treatments are safe for soldiers is how the Department 
of Defense decides what prophylactic treatments are necessary. 
The GAO report on Gulf war illness requested by the chairman 
makes plain the lack of consensus between the United States, 
the French and the British regarding the threat of biological 
warfare and of specific chemical agents to allied troops during 
the Gulf war. This begs the question: Why did our assessments 
different from those of our allies? If our military was relying 
on different intelligence than the French and the British 
forces, why weren't efforts made to share information? Clearly, 
decisions to issue prophylactic medical treatments to counter 
potential exposure to chemical and biological agents must be 
based on detailed and credible intelligence. I look forward to 
hearing the account of the Department of Defense about their 
efforts to precisely verify the biological and chemical threats 
to U.S. troops before issuing vaccines during the Gulf war.
    Finally, I'd like to raise an issue that transcends 
questions regarding the health of our troops. There is concern 
that Gulf war illness may be connected to the bombing 
industrial facilities in Iraq and resulting release of toxic 
substances. If this conclusion is borne out, it would seem 
logical that the Iraqi civilian population was also impacted. 
Did the Department of Defense consider that the bombing of 
certain targets may put both American soldiers and Iraqi 
civilians at risk and does the Department of Defense consider 
this possibility now when choosing now targets in the periodic 
air strikes against Iraq?
    I hope our witnesses will shed some light on these 
questions, and I thank the Chair for holding this hearing.
    Mr. Shays. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T2953.003

[GRAPHIC] [TIFF OMITTED] T2953.004

    Mr. Shays. The Chair is getting a little nervous with time. 
I'm just going to recognize Mr. Sanders just for a brief 
comment. We're going to allow you, Mr. Principi, to go. Then 
we're going to come back to the statements because I want to 
hear from the rest of the Members.
    Mr. Sanders. I'll be very brief now.
    Mr. Secretary and staff, thank you all very much for 
coming.
    The bottom line, Mr. Secretary, is that in the recent 
statement from the Department of Defense they say, ``we note 
that similar poorly explained symptoms have been observed among 
veterans after all major wars in the last 130 years,'' etc. My 
understanding of that is that, after all of the evidence, after 
all of the work, after 140,000 veterans reporting themselves 
ill, the DOD today does not believe in Gulf war illness. That 
is their position. There have been similar problems after World 
War I, World War II. They go back to the Civil War. In their 
interpretation there is no Gulf war illness.
    I want to applaud you for recognizing and working with Dr. 
Feussner and the others to get the study about ALS out. That is 
the first time, as I understand it, the government has finally 
acknowledged that service in the Gulf is likely to cause a 
particular--more likely to cause a particular illness than 
nonservice. I believe that is the first of many discoveries 
that you're going to find. I hope that you will not continue 
the unfortunate position of the government in terms of 
radiation illness after World War II, Agent Orange after 
Vietnam. Our veterans deserve more.
    I appreciate your willingness to jump on this issue. It's a 
controversial issue. You have some good people there, but, in 
general, the DOD and the VA have not done a good job, and I am 
hopeful that you will turn that around.
    That's my brief statement.
    Mr. Shays. I thank the gentleman. Mr. Sanders has been the 
most active member on this committee on this issue, and I thank 
him.
    I'm going to announce and welcome our first panel, the 
Honorable Anthony Principi, Secretary of Veterans Affairs; 
accompanied by Dr. Feussner, Chief Research and Development 
Officer; Dr. Mark Brown, Director, Environmental Agents 
Service; Dr. Han Kang, Director of Environmental 
Epidemiological Service; and then testimony as well from Dr. 
William Winkenwerder, Assistant Secretary of Defense for Health 
Affairs, Department of Defense.
    I invite all of you to stand so I can swear you in, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all five have responded 
in the affirmative.
    Mr. Secretary, we're going to have you testify. I want to 
get you out of here so you can go to your other meetings.
    Then we're going to go back to the statements of the 
Members; and then we're going to go to you, Dr. Winkenwerder. 
Then we'll take questions. Thank you.

    STATEMENT OF ANTHONY PRINCIPI, SECRETARY, DEPARTMENT OF 
   VETERANS AFFAIRS, ACCOMPANIED BY DR. JOHN FEUSSNER, CHIEF 
  RESEARCH AND DEVELOPMENT OFFICER; DR. MARK BROWN, DIRECTOR, 
   ENVIRONMENTAL AGENTS SERVICE; AND DR. HAN KANG, DIRECTOR, 
               ENVIRONMENTAL EPIDEMIOLOGY SERVICE

    Secretary Principi. Thank you, Mr. Chairman. Chairman 
Shays, Mr. Kucinich, members of the committee, distinguished 
parliamentarians, thank you for inviting me to appear before 
the subcommittee this morning. I ask that you include in the 
record the formal written statement of Dr. John Feussner, the 
VA Chief Research and Development Officer.
    Mr. Shays. That will be in order.
    [The prepared statement of Dr. Feussner follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.005
    
    [GRAPHIC] [TIFF OMITTED] T2953.006
    
    [GRAPHIC] [TIFF OMITTED] T2953.007
    
    [GRAPHIC] [TIFF OMITTED] T2953.008
    
    [GRAPHIC] [TIFF OMITTED] T2953.009
    
    [GRAPHIC] [TIFF OMITTED] T2953.010
    
    [GRAPHIC] [TIFF OMITTED] T2953.011
    
    [GRAPHIC] [TIFF OMITTED] T2953.012
    
    [GRAPHIC] [TIFF OMITTED] T2953.013
    
    [GRAPHIC] [TIFF OMITTED] T2953.014
    
    [GRAPHIC] [TIFF OMITTED] T2953.015
    
    [GRAPHIC] [TIFF OMITTED] T2953.016
    
    [GRAPHIC] [TIFF OMITTED] T2953.017
    
    [GRAPHIC] [TIFF OMITTED] T2953.018
    
    [GRAPHIC] [TIFF OMITTED] T2953.019
    
    [GRAPHIC] [TIFF OMITTED] T2953.020
    
    [GRAPHIC] [TIFF OMITTED] T2953.021
    
    [GRAPHIC] [TIFF OMITTED] T2953.022
    
    Secretary Principi. I am honored to be included in the 
ranks of committee members, distinguished parliamentarians and 
today's panel of eminent and accomplished witnesses. We are all 
united in the pursuit of an answer to questions surrounding the 
health of members of the coalition forces. We are united in a 
commitment to the health of those men and women who today, more 
than a decade after the war, suffer from illnesses we cannot 
define, from symptoms we all too often cannot alleviate.
    My commitment to these men and women is both professional 
and moral. It springs from the obligations I accepted when I 
was entrusted with the responsibilities of Secretary. It is 
also rooted in my experiences in the Brownwater Navy of Vietnam 
when I and my shipmates were exposed to Agent Orange.
    I understand that the effects of war are not limited to 
those created by bullets and bombs. But no matter how profound 
my desire to ensure a complete and professional response to the 
medical and benefits needs of the veterans I serve, no matter 
how diligently I apply my response to my responsibilities as 
Secretary, no matter how unambiguous my instructions to those 
who work in the Department, no matter how much weight I assign 
to the issue, I can never forget that the resources of time and 
attention I devote to addressing the needs of these veterans 
pale in insignificance compared to the effects of these 
symptoms on the once vigorous men and women who now awaken each 
morning to face another day weighted by a burden no less heavy 
because it remains undefined, no less debilitating because the 
origin remains mired in controversy. That knowledge drives me 
to take every step possible to ensure that our government 
addresses the needs and concerns of Gulf war veterans afflicted 
by symptoms we do not understand.
    My commitment to Gulf war veterans is long-standing. The 
fires were still burning in Kuwait when, as Deputy Secretary, I 
ordered VA to create a registry of Gulf war veterans who 
developed health problems, a clinical data base upon which 
decisions in the future may be made.
    I believe my commitment is reflected in the President's 
commitment to veterans. That is why he signed legislation 
expanding the scope of conditions subject to presumptive 
service connection and extending the deadline before which 
those symptoms must appear.
    My commitment is reflected in the immediate action I took 
when presented with research findings indicating an increased 
incidence of ALS in Gulf war veterans, and that is why I 
insured the VA's Research Advisory Committee on Gulf War 
Veterans' Illnesses include members who will challenge the 
conventional wisdom as well as those who support it.
    The Advisory Committee will review all relevant research 
and investigation as well as the processes for funding 
research. They will assess research methods, results, and 
implications. Their task is to ensure that research's 
fundamental goal is improving the health of ill Gulf war 
veterans, either by increasing understanding through basic 
research or improving treatment through applied research.
    One of my responsibilities as Secretary is to ensure that 
every member of my department shares my focus and my sense of 
urgency. I acknowledge that clear-cut results through 
scientific research and the development of successful medical 
treatment require more than strength of will, depth of desire, 
and clarity of direction. Nature sometimes resists divulging 
her secrets. But I can and will ensure that my department 
attacks the problems of Gulf war veterans with unflagging 
energy and tightly focused commitment.
    Our obligation to the veterans who served in the Gulf is 
not contingent on assigning a name to their problems or 
discovering the origin of their illnesses. It is enough that 
they are ill and that they need our help.
    We will tear away the veils of uncertainty and illuminate 
the darkness now cloaking understanding. And, regardless of the 
results, we have an obligation to provide effective treatment 
and timely compensation.
    I am pleased that I can count on the leadership of members 
of this subcommittee as allies in this cause.
    I also want to recognize and thank a tireless advocate for 
veterans who shares this room with us this morning. Ross Perot 
combines advocacy with direct action in a way that touches the 
lives of veterans of all eras but most of all the lives of 
veterans who served in the Gulf war. He has been generous with 
his advice to me and to other officials of my department; and, 
most importantly, his support for veterans is heartfelt and 
very profound. We are all indebted to Ross Perot. I believe 
that the best way to satisfy that debt is to look to his 
example for inspiration as we meet the responsibilities 
entrusted to us by the American people.
    Thank you very much, Mr. Chairman and members of the 
committee.
    Mr. Shays. Thank you have very much, Mr. Secretary. I 
appreciate you being here.
    We're going to let you get on your way. You have either 
members of your staff who can respond to questions.
    I'm going to at this time to invite Mr. Putnam if he has 
any statement.
    Thank you, Mr. Secretary.
    Mr. Putnam. Thank you, Mr. Chairman; and we thank the 
Secretary for his eloquent opening statement.
    I'd like to echo his remarks about Mr. Perot. Between the 
support of the POWs and his support for Gulf war illness, Mr. 
Perot, your commitment to America's patriots is without equal. 
We appreciate that.
    The researchers who slave away day in and day out to peel 
away the questions to find the answer for our veterans are also 
to be commended, and we appreciate your presence here to help 
us better understand and continue toward that goal.
    The young men and women that we ask to serve our Nation and 
put themselves in harm's way give up an awful lot for the 
freedoms that we take for granted. They leave behind pieces of 
themselves, comrades, buddies, and scarred psyches that never 
heal. But some of those wounds are not as visible, and they 
come back and are in need of additional help and additional 
support from the government even if, as the Secretary said, we 
don't have an easy name to apply to their symptoms.
    So the purpose of this hearing, then, is to continue to 
advance the cause of research and resources toward that 
objective, to give those young men and women who gave so much 
the support they deserve. Mr. Chairman, I appreciate your 
commitment to this and Mr. Kucinich's ongoing commitment by 
this subcommittee to get to the bottom of this issue.
    Mr. Shays. Thank you.
    I appreciate all the Members who were willing to let Mr. 
Principi make his comments.
    Mr. Tierney, do you have an opening statement?
    Mr. Tierney. Mr. Chairman, I'll be happy to just put my 
remarks in the record so we can get to the witnesses. Thank 
you. If we have unanimous consent for that.
    Mr. Shays. Then we have Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I'll try to be brief.
    Mr. Chairman, I want to commend you for holding this 
morning's hearing to examine the current levels of cooperation 
between our Nation, France, and the United Kingdom regarding 
ongoing research and illnesses experienced by our veterans of 
the Persian Gulf war. It's an extremely important issue.
    We're now 11 years removed from that conflict. In that 
intervening time we've seen some considerable progress on the 
issue of the Gulf war syndrome for the veterans of Operation 
Desert Storm. I have a number of veterans in my area who have 
been affected by that.
    Mr. Chairman, your leadership at the helm of this 
subcommittee has been instrumental and served as the driving 
force behind much of our progress. It bears noting, however, 
that the majority of the movement on this issue has come from 
the Congress. While the Department of Defense eventually 
admitted to troop exposure to chemical weapons, they did not 
believe it was necessary to suggest that the VA initiate 
research in the long-term health effects of low-level chemical 
exposure. Both DOD and the VA adopted a position that only 
definitive, proven linkages between toxic exposure and 
illnesses would be accepted as any evidence that military 
personnel were becoming sick as a direct result of their 
service in the Gulf.
    The burden of proof, of course, was then on the veteran, 
not the government. Consequently, more than 90 percent of the 
veterans' claims for Gulf war-related injuries were denied 
prior to 1998.
    The Gulf War Veterans' Claims Act of 1998, which came out 
of numerous hearings by this subcommittee on the subject, 
directed the VA to look for plausible relationships between 
presumed exposures and later ill health. Recent applicability 
of this law came last month when the VA announced that it would 
now treat amyotrophic lateral sclerosis as a Gulf war service-
connected illness.
    Despite all of this, I don't believe that the original 
positions of the VA and DOD have very much changed. Both 
departments have been critical of oversight reports on this 
subject by the General Accounting Office and this subcommittee. 
Moreover, it seems that many in these organizations would 
prefer to see the lack of a single definitive cause of Gulf war 
syndrome to be evidence of a lack of such a disease, rather 
than incentive for more research and greater involvement of the 
scientific community.
    I am, therefore, very much interested to hear how our 
government is cooperating with our allies, with France, with 
the United Kingdom and the overall research. All three 
countries had veterans who became sick after serving in the 
Gulf war, and each co-shared research and intelligence. 
Moreover, since each country approached the issues of chemical 
biological force protection differently and since their troops 
were exposed to a different variety of the more than 30 toxins 
that have been subsequently identified on the battlefield 
environment, shared research and greater cooperation would 
potentially help facilitate increased linkages between 
exposures and illness.
    Accordingly, I want to thank you once again, Mr. Chairman, 
for holding this hearing. We look forward to hearing from our 
expert witnesses who are before us. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I will try to be 
very brief.
    I'd like to thank Chairman Shays and Ranking Member 
Kucinich for giving us yet another opportunity to discuss this 
issue. I'm confident that their leadership will lead to 
progress on this matter.
    I would also like to welcome and thank all of our witnesses 
but especially the Right Honorable Bruce George and Right 
Honorable Lord Morris of Manchester for traveling from the U.K. 
to be here with us.
    As you know, in late 1991, almost immediately after the 
Gulf war, the first reports of symptoms and illnesses flooded 
doctors offices and VA facilities across the country. Veterans 
who before the war were in perfect physical health were 
suffering from debilitating symptoms. In the years following 
the war, the media highlighted stories of the symptoms, ranging 
from chronic fatigue, headaches and muscle pains, coupled with 
reports of the diagnosis of Gulf war veterans with cancer, 
heart and lung problems and Lou Gehrig's disease. This 
committee alone has held four hearings on this issue.
    I am glad that we have a chance to discuss the GAO's 
finding. Their hard work provides further evidence of Gulf war 
service and illness. As studies continue and revelations are 
made, we should give these soldiers the benefit of the doubt 
and provide treatment for those suffering. Individuals exposed 
to illness cannot afford to wait until we establish links 
beyond a reasonable doubt. Lives are at stake now.
    Just over a month ago the VA and DOD released a study that 
found preliminary evidence that veterans who served in Desert 
Shield/Desert Storm are nearly twice as likely as nondeployed 
service personnel to develop Lou Gehrig's disease. As in his 
testimony, Secretary Anthony J. Principi said that the VA would 
immediately begin providing additional benefits and 
compensation to veterans who were deployed in the Gulf and 
develop the disease.
    The startling confirmation of a 10-year suspicion is 
evidence not only for the need to continue and intensify 
research on this issue but the need to emphasize findings and 
answers, finding answers and solutions. I am pleased to see 
that health care providers are helping those suffering from 
diseases. I believe it's necessary and fair. In fact, we should 
do more. It's our responsibility to do whatever we must to 
determine the causes and symptoms and illnesses related to the 
Gulf war immediately.
    America is at war. Our troops are deployed as we speak 
fighting to rid the world of the threat of terrorism. When our 
troops return they should not have to wait 10 years to find 
that they were becoming ill because we didn't protect them. Our 
troops returning from war abroad should not have to fight for 
their lives at home. I hope we are all committed to providing 
answers for veterans through this time of uncertainty.
    I want to thank each of our witnesses, our chairman, and I 
look forward to hearing and learning from the coming testimony.
    Mr. Shays. I thank the gentlelady.
    I would not want to give the impression to any Member that 
we don't welcome your testimony because you all have been 
giants in this effort for years. I appreciate the panel's 
patience, but these have been very hard-working Members who 
have cared about veterans for years.
    Mr. Otter.
    Mr. Otter. I have no statement.
    Mr. Shays. Then I have the distinct pleasure to recognize 
two of our colleagues from Great Britain. The Republican in me 
wants to recognize the Lord, but----
    Mr. Sanders. We put him on our side.
    Mr. Shays [continuing]. But I would point out that both 
members have been members of the Labour Party.
    With that, I would welcome Mr. Bruce George, a member of 
Parliament, to address this Congress.

 STATEMENT OF THE RIGHT HONORABLE BRUCE GEORGE, MP, CHAIRMAN, 
       DEFENCE SELECT COMMITTEE, HOUSE OF COMMONS, LONDON

    Mr. George. Thank you, Mr. Chairman. It's an enormous honor 
being here.
    Frankly, I find it almost beyond belief that a British 
member of Parliament, a member of the House of Lords should be 
sitting in this dignified position.
    Mr. Shays. You honor us, sir.
    Mr. George. Our chairman was incredibly discreet when he 
referred to the bullet holes. I would have liked to have asked 
him, in light of friendly fire, whether they were ours or 
yours. I suspect from history more likely to be yours than 
ours.
    May I say--and I must apologize. I'm Welsh, and brevity is 
not a trait for which the Welsh are renowned--I am glad I have 
not brought members of my committee here. Because if they 
thought I would be as tolerant as you, chairman, in allowing 
personal statements--they know I am not tolerant. There is only 
one person allowed a personal statement on the Defence 
Committee, and you're looking at him.
    Your lax ways--I went into the dining room yesterday, and 
my host discreetly sat me with my back to the painting of the 
British surrender at Yorktown. Therefore, I discreetly did not 
point out our acts of revenge, which were gestures, I must say, 
rather than serious military reprisals.
    But may I say at the outset, our relations as two nations 
have often been rocky and for most of your country's history 
they've either been pretty awful or barely acceptable, 
inadequate. But, since 1940, I can't think of any two nations 
in the history of the world whose relationship has been so very 
close. Time and time again, academics and politicians tell us 
that this good relationship has terminated. I actively took 
part in the debate 6 months on that very subject. And who would 
have imagined, I suppose, that a Republican president would 
enjoy such an excellent relationship with hardly a left wing 
labour Prime Minister. But it is truly exceptional.
    I'm so very proud of the support that we have given to the 
United States, particularly since the atrocities on September 
11th. The conflict which we participated in a secondary but not 
unimportant role was merely one stage in a continuing struggle 
against terrorism, and we are proud to be participating and 
will participate even more in the future.
    Something that has been said--and I apologize for 
inflicting this on witnesses who have heard this a million 
times--fighting a war has always been dangerous. But when I was 
watching a study of my local regiment and its history I reached 
the inescapable conclusion that the chances of being killed by 
disease were infinitely greater than the chances of being 
killed either by your soldiers fighting--playing dirty pool, as 
my wife would say, until we reciprocated or fighting against 
the French. The chances were not high with exceptions for the 
First and Second World Wars. But we lost 100,000 men in the 
Caribbean in the 1780's and 1790's, and Wellington would not 
take any regiment in his peninsula war that had served in the 
Caribbean. Appalling diseases that eventually the causes were 
discovered.
    Even though I am a parliamentarian and we have great fun in 
mocking ministers and all sorts of people, I recognize that we 
are basically on the same side. Maybe we are rather more vocal 
than you are, but we really have to resolve the problem. If, as 
some people say, there is a Gulf war syndrome and if there is 
not, and I have no idea, then how are we going to treat the 
consequences of something that we don't know?
    And let us not forget other side of it, namely the 
financial side. I was amazed when you instructed your witnesses 
to stand up and promise to be honest. It is not something I 
could ever demand of witnesses to my committee, and certainly 
politicians would never leap and affirm that principle, which 
would be an appalling violation of our human rights. One has to 
remember that--I think it is the American expression--the first 
law of politics is never cheat or lie unnecessarily.
    If I might return with your indulgence, Mr. Chairman. 
Briefly, I have submitted a rather lengthy document for your 
consideration. If I might just for 2 or 3 minutes say the 
Defence Committee that I chair has been very, very interested 
and involved along with members of the House of Lords. I must 
say it's truly amazing coming 4,000 miles to share a platform 
with a member of the House of Lords because our relationship is 
as hostile in many ways as it has been with the United States. 
So it's rather ironic that it is in the United States the two 
members of the British Parliament should be sharing a table 
together.
    But we have been very much involved, working with outside 
organizations like the Royal British Legion, in keeping the 
issue of the Gulf war syndrome alive. As each month goes by the 
temptation to allow the subject to drift away and to concede 
defeat becomes enormous. It is very important that members of 
legislature, if they could no more than keep the issue alive 
and, therefore, keep members of the executive and the medical 
profession aware that this is something that really has to be 
resolved.
    We've had some bad relations with the Ministry of Defence. 
If I could just give you a few diplomatic phrases we used. This 
was 7 or 8 years ago with the previous government. We said in 
our report, in dealing with its own service personnel, the 
British public and parliament on the subject of the Gulf war 
syndrome, we do not believe that the Ministry of Defence has 
been dogged in pursuit of the facts. The culture of denial has 
influenced the way the department has handled the whole 
question of Gulf-related illnesses and may have contributed to 
the administrative failings which led to parliament being 
misled.
    We went on to say, in using the same phraseology, Mr. 
Chairman, that you used, the new government believes that we 
have a debt of honor to those who have served their country in 
the armed forces and to be determined that a fresh start will 
be made in dealing with this difficult and complex issue.
    Well, there has been an improvement in research and 
activity by the government, but I'm afraid the veterans remain 
discontented. We produced a number of reports in the last 
parliament, Mr. Chairman. Our very first inquiry, our very 
first public session in the last parliament was on Gulf war 
illnesses; and, ironically, the very last session in the last 
parliament of our committee was on the very same subject.
    So we will continue to work with the United States, with 
your committee, with the medical profession, with our own 
Ministry of Defence in the hope that we will be able to provide 
more than hitherto we have been able to.
    Our committee has announced its intention to examine the 
Ministry of Defence's new proposals for providing pensions and 
compensation for armed forces personnel and an improvement on 
what has gone before. Unfortunately, the events of September 
11th have somewhat delayed that. But even though the committee 
has been preoccupied and will be preoccupied with the 
consequences of September 11th, we are coming over to the 
United States in 10 days. We will never allow the issue of the 
Gulf war syndrome to fade into distant memory.
    Because every war we fight, each one is different. Maybe 
the number of casualties on the battlefield are few, because 
that is what our publics demand, but even if we are entering an 
era of military history where our casualties are very few, we 
are more than aware, as you gentlemen are aware, the casualties 
may not be reflected in wounds but in psychological or other 
physical damage.
    I wish this committee well, and I wish all of those engaged 
in the research to achieve what we are all desperately anxious 
to achieve, and I on behalf of my committee wish you well. 
Because
we have an obligation to our military personnel that must and 
I'm sure will be properly discharged.
    Thank you for your tolerance.
    Mr. Shays. Thank you for your very eloquent statement.
    [The prepared statement of Mr. George follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.023
    
    [GRAPHIC] [TIFF OMITTED] T2953.024
    
    [GRAPHIC] [TIFF OMITTED] T2953.025
    
    [GRAPHIC] [TIFF OMITTED] T2953.026
    
    [GRAPHIC] [TIFF OMITTED] T2953.027
    
    [GRAPHIC] [TIFF OMITTED] T2953.028
    
    [GRAPHIC] [TIFF OMITTED] T2953.029
    
    [GRAPHIC] [TIFF OMITTED] T2953.030
    
    [GRAPHIC] [TIFF OMITTED] T2953.031
    
    [GRAPHIC] [TIFF OMITTED] T2953.032
    
    Mr. Shays. At this time, the Chair recognizes Lord Morris.

STATEMENT OF THE RIGHT HONORABLE THE LORD MORRIS OF MANCHESTER, 
AO QSO, HOUSE OF LORDS, LONDON, ACCOMPANIED BY COLONEL TERRY H. 
  ENGLISH, CONTROLLER WELFARE, THE ROYAL BRITISH LEGION; AND 
  MALCOLM HOOPER, EMERITUS PROFESSOR OF MEDICINAL CHEMISTRY, 
                    UNIVERSITY OF SUNDERLAND

    Lord Morris. As you know, Congressman Shays, I count it an 
honor to be here as a parliamentarian with 38 years service in 
the two houses of parliament at Westminster, 33 of them in the 
House of Commons, to be taking a part in the dias with the 
honorable members of your subcommittee in this oversight 
hearing on Gulf war veterans' illnesses.
    Moreover, I take pride in being here as a representative of 
the Royal British Legion of the U.K. together with Colonel 
English and Professor Malcolm Hooper and in the company, joke 
and company of my very good friend and right honorable 
parliamentary colleague Bruce George.
    I'm grateful to the subcommittee also for asking me to 
contribute a statement for inclusion in the hearing record 
which I hope will be of parliamentary and public interest here 
in the United States and in providing a British perspective on 
the issue your subcommittee is addressing.
    It was 38 years ago that I made my maiden speech to the 
British House of Commons as a member of parliament before my 
home place in Manchester, and this is my maiden speech in 
proceedings held under the aegis of the House of 
Representatives. Indeed, it could well be a maiden speech in 
more ways than one since there can't have been many, if any, 
previous speakers in congressional proceedings from the House 
of Lords.
    Mark Twain, asked for his opinion of Wagner's music, said 
famously that, ``Wagner's music is not as bad as it sounds. 
This occasion for me is even better than my only ever previous 
incursion into congressional proceedings when briefly 
addressing the U.S. Senate as a parliamentary guest of this 
country in my early years in the House of Commons.''
    Congressman Shays, no one here in Washington or in 
Westminster wants to see the afflicted and the bereaved of the 
Gulf conflict made to suffer the added strain and hurtful and 
gratuitous and demeaning indignities that preventable delay in 
dealing with their concerns can impose. Yet in fact many 
veterans feel that such delay has occurred and that public 
representatives must try to help when and wherever they can. 
That is what this subcommittee's proceedings are all about, and 
I wish its members God speed in all their work.
    For it is deeply important not only to gulf veterans and 
their dependents. Learning the lessons of the Gulf war is 
important also in safeguarding the well-being of our troops now 
on active service against those responsible for the hideously 
acts of terrorism perpetrated in New York and here in 
Washington on September 11th.
    The issues my statement addresses include the effects on 
the health of our Gulf war troops of the interactive effects of 
combining NAPS tablets with an immunization station program of 
unprecedented range and severity, of the massive oil pollution 
caused by the Iraq's firing of Kuwait's oil wells, of the 
destruction by coalition forces of Iraqi rockets at Khamisiyah 
containing nerve agents, of the use of organo phosphate 
substances as pesticides, and of the heavy deployment of 
depleted uranium.
    The subcommittee will, I know, constructively address all 
of these issues; and veterans organizations in all the 
coalition countries are most grateful and indebted to you.
    Congressman Shays, of all the duties that falls to 
parliamentarians to discharge, none is of more compelling 
priority than to act justly to citizens who are prepared to lay 
down their lives for their country and the dependents of those 
who do so.
    There was no delay in the response of our troops to the 
call of duty in 1990, 1991, nor should there be any further 
delay now in discharging in full our debt of honor to them. In 
the words of the Magna Carta, let right be done. Let right be 
done to those who served our two countries and the civilized 
world so admirably and with distinction in the Gulf war.
    Thank you again for asking me to be with you today.
    Mr. Shays. Thank you, Lord Morris, for your eloquent 
comments.
    [The prepared statement of Mr. Morris follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.033
    
    [GRAPHIC] [TIFF OMITTED] T2953.034
    
    [GRAPHIC] [TIFF OMITTED] T2953.035
    
    [GRAPHIC] [TIFF OMITTED] T2953.036
    
    [GRAPHIC] [TIFF OMITTED] T2953.037
    
    [GRAPHIC] [TIFF OMITTED] T2953.038
    
    [GRAPHIC] [TIFF OMITTED] T2953.039
    
    [GRAPHIC] [TIFF OMITTED] T2953.040
    
    [GRAPHIC] [TIFF OMITTED] T2953.041
    
    [GRAPHIC] [TIFF OMITTED] T2953.042
    
    [GRAPHIC] [TIFF OMITTED] T2953.043
    
    [GRAPHIC] [TIFF OMITTED] T2953.044
    
    [GRAPHIC] [TIFF OMITTED] T2953.045
    
    Mr. Shays. We have been joined by two other members. We 
want to get right to our panel. We have been joined by Mr. 
Platts from Pennsylvania, Mr. Schrock from Virginia. Do any of 
you have any statements you wish to make?
    Then we are going to proceed, Mr. Winkenwerder, with--
Doctor, I'm sorry.
    I would say that I'm going to be absent for a few moments 
because the Speaker has asked me to see him, but I will come 
back. Our vice chairman, Mr. Putnam, will take the Chair. You 
may begin.

 STATEMENT OF DR. WILLIAM WINKENWERDER, ASSISTANT SECRETARY OF 
       DEFENSE FOR HEALTH AFFAIRS, DEPARTMENT OF DEFENSE

    Mr. Winkenwerder. Thank you, Mr. Chairman, distinguished 
members of the committee. I welcome this opportunity to appear 
before you today to discuss the Department of Defense's 
continuing efforts related to the illnesses and undiagnosed 
clinical and physical symptoms of veterans of the Gulf war. I 
will provide testimony for your record but would like to 
highlight a few key points.
    Today as our soldiers, sailors, airmen, Marines and Coast 
Guardsmen are deployed throughout the world in support of 
Operation Enduring Freedom and other contingencies, we remain 
mindful of their sacrifice and are dedicated to providing the 
health care they deserve. While we continue to learn lessons 
from current deployments, issues and concerns from the Gulf war 
remain. I intend to continue our vigorous efforts to address 
and resolve these issues. Moreover, I plan to broaden the focus 
of those efforts to include current and future deployments.
    To that goal, through my Deputy for Force Health Protection 
and Medical Readiness and through our Office for Gulf War 
Illness and working in cooperation with the joint staff and the 
military services, this will provide me with a critical 
assessment of deployment health-related processes and issues. 
With this information I will closely monitor deployment force 
health protection issues so that the military health system can 
be responsive to the health concerns of our service members, 
veterans, and their families.
    One very important area in which we will continue to 
advocate the health concerns of service members, of veterans is 
through our support of medical research.
    I want to just take a point to note here the scope and 
magnitude of this research and my views about it. We have 
conducted over 193 studies over the past few years, 5 or 6 
years, expending about $175 million. In addition to that, there 
have been 44 separate investigations of incidents conducted by 
the Office of Gulf War Illness that have expended another $160 
million. There's been a total of about $350 million that has 
been spent in this combined effort of research and 
investigation and outreach.
    The Department of Defense has funded about $300 million of 
that $350 million. So the preponderance of the dollars has come 
from the Department of Defense.
    What's important, however, is not how many dollars. It is 
the following point with respect to research as far as I am 
concerned.
    It is, first, that we set the appropriate agenda and to 
that even I support what Secretary Principi has indicated in 
terms of making sure that we cover the waterfront in terms of 
the questions that need to be examined and raised and pursued. 
One. Two, that we fund and conduct excellent research and that 
it is conducted by good researchers. And, three, that we pursue 
answers. That's the objective, is to get answers. Sometimes we 
don't always get the answers we want or we don't get answers. 
But our goal should be to get answers.
    The Department of Defense remains an enthusiastic partner 
in a cooperative, interagency, federally sponsored research 
agenda with the Department of Veterans Affairs and Health and 
Human Services.
    Our recent joint release of the information concerning Gulf 
war veterans and the small but statistically significant risk 
of ALS in this population following their service is an example 
of our effort. I might have you note that at the same time that 
Secretary Principi was presented with this information so was 
I. And, as Dr. Feussner can tell you, because he was the one 
who presented me the information along with the principal 
researchers, upon learning of that information I without 
hesitation made the recommendation that we move forward with 
this information and release it.
    This may have been a turning point for the Department of 
Defense. I cannot and will not make any judgments about how we 
have approached things in the past, but it is pretty clear to 
me that when we have information that indicates that there is a 
problem and that it is statistically valid and well-conducted 
research, we have a high obligation to bring that information 
forward and to take the steps that need to be taken. I am 
committed to investigating the possible causes of illness and 
treatments for medically unexplained physical symptoms that are 
affecting veterans.
    Let me just also add that with respect to the whole notion 
of Gulf war illness, obviously, the information that I have 
seen, and I am--and I would not characterize myself as an 
expert, but that I have seen--indicates that there is a clear 
increased rate of symptoms and illnesses in this population. 
The challenge is tying those symptoms and illnesses to 
underlying physiopathological mechanisms. That's what science 
and research is all about. When we do that, we can give those 
illnesses or symptoms names. And I think that's important for 
people. That's important, in my experience as a physician, for 
people to be able to put a name to what it is their problem is.
    That said, this is difficult research. It's difficult 
research because there are many different possible factors that 
could be involved. We're dealing with environmental exposures. 
We're dealing with information--a situation in which the 
information base underlying may not--it's not ideal for getting 
the answers that we may want. But that said, that does not mean 
that these altered physioclinical pathologic mechanisms don't 
exist. The fact that we don't have evidence doesn't mean 
something doesn't exist; just means we don't have the evidence. 
So our goal should be to pursue that.
    In addition, we continue a close collaboration with the 
Department of Veterans Affairs to improve medical services for 
our veterans. We developed and tested a patient-oriented, 
evidenced-based clinical practice guideline that will aid 
primary care physicians and caregivers in the assessment of 
illnesses that can occur after deployments, and we'll be using 
that in the current situation. Implementation of this guideline 
will begin next month. Among our many other collaborative 
efforts, we also have instituted a common DOD-VA separation 
medical examination, which efficiently serves the needs of 
veterans, the DOD and the VA.
    In conclusion, the Department of Defense is committed to 
ensuring the health of our military forces, and you have my 
commitment that I will aggressively address the challenges that 
lie before us and fully execute my responsibilities to oversee 
the health protection, fitness, casualty prevention and care of 
the men and women who are asked to defend our country.
    Thank you, Mr. Chairman and distinguished committee 
members, for giving me the opportunity to discuss the work of 
the military health system and our efforts at the Department of 
Defense. I would be happy to answer any questions you may have.
    Mr. Putnam. Thank you Dr. Winkenwerder.
    [The prepared statement of Dr. Winkenwerder follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.046
    
    [GRAPHIC] [TIFF OMITTED] T2953.047
    
    [GRAPHIC] [TIFF OMITTED] T2953.048
    
    [GRAPHIC] [TIFF OMITTED] T2953.049
    
    Mr. Putnam [presiding]. At this time the Chair recognizes 
Mr. Sanders for 5 minutes.
    Mr. Sanders. Thank you very much, Mr. Chairman. Frankly I 
am very disappointed by the DOD's comments. 140,000 people are 
ill. A recent study, as you indicated, came out which suggests, 
A, not only is the incident of Lou Gehrig's Disease 
significantly higher for people who serve in the Gulf than for 
military people who did not, but if you understand that ALS is 
an old person's disease and that the persons who served in the 
Gulf are primarily younger people, you're talking about 
substantially a higher rate of incidence.
    After 10 years what you basically have told us is you think 
in spending $300 million there may be an illness. You're not 
quite sure. I don't hold you personally responsible. I know you 
haven't been doing everything for 10 years.
    Let me read what I consider--and I think we got to lay 
these things right on the table--an insulting statement from 
the DOD. This is a letter March 2, 2001, in response to the 
GAO's draft report. I will read the last paragraph. This is 
signed by Dale Vesser, acting special assistant, ``Finally we 
note similarly poorly explained symptoms have been observed 
among veterans after all major wars in the last 130 years, and 
that the British, Australians, Canadians and Americans have 
found similar symptoms among Gulf war veterans despite 
different exposures. These observations argue strongly that 
health problems among Gulf war veterans are the result of 
multiple factors that are not unique to the Gulf War.''
    In other words, what the DOD is saying is there is no Gulf 
war illness. That's what this is saying. And I think we have to 
cut the air right now. If, after $300 million and 10 years of 
research, the DOD does not believe that there is such a thing 
as a Gulf war illness, that 140,000 people are either suffering 
hysterical symptoms or they're lying or they're malingerers, 
then say it and get out of the research.
    You may note that in 1997, this committee said the 
following reluctantly--and I pushed for this statement--finally 
we reluctantly conclude the responsibility for Gulf war 
illnesses, especially the research agenda, must be placed in a 
more responsive agency independent of the DOD and the VA. The 
statements of the DOD tell me today that they should get out of 
the business. I respect your point of view. You don't believe 
in Gulf war illness. That's fine. Let's go to people who do 
believe that there's a Gulf war illness.
    You are going to see today private researchers, some funded 
by Mr. Perot, who are going to come up here today and show us 
pictures of brain damage. They don't have much doubt about the 
issue. And there is other important research going on. So I 
would say, Mr. Chairman, and I know Mr. Shays is not here, that 
there is some important research going on that is not going on 
with the DOD. We respect and thank them for their work. Let's 
get on and deal with people who take this issue seriously.
    In my little State of Vermont where we do not have a huge 
contingency of people in the Gulf war, I personally have met 
with hundreds of people who are suffering. When they go near 
perfume or when they go near detergents, they become ill. They 
cannot work in many instances. Please do not tell me that 
you're still studying whether or not there is a Gulf war 
illness. I want serious people to solve this serious problem, 
and unfortunately I think the DOD is not that agency to do 
that.
    Dr. Winkenwerder. Would you like me to respond? I never 
made the statement that there is no Gulf war illness. And as 
far as I know, I am not--I will check for the record, but I 
am--have no information to suggest that the DOD has never 
indicated that there is no Gulf war illness.
    Furthermore, let me make the point, sir, that we are 
committed to finding answers and to funding research that will 
provide answers. That is what I have given you. That's what 
I've said. That's my pledge.
    Mr. Sanders. But can you explain to me, just explain to me, 
if the statement is, hey, what this is basically saying--I have 
been doing this for 10 years, and the issue is after every war, 
there are symptoms. I suspect that's true from the Civil War on 
today. Ain't nothing new. If that's your position, then there 
is nothing. You are saying people suffer stress in wars. Every 
war, they come home, they get sick. Nothing different about the 
Gulf war. That's what this says to me. Am I missing something?
    Dr. Winkenwerder. That's not what I have said.
    Mr. Sanders. This guy is the Acting Special Assistant for 
the DOD.
    Dr. Winkenwerder. When was the letter dated?
    Mr. Sanders. March 2, 2001, in response to the report done 
by the GAO.
    Dr. Winkenwerder. I'm not sure that what you have just read 
is consistent with the statements I have just made to you.
    Mr. Sanders. Then talk to each other, please.
    Dr. Winkenwerder. I don't know who wrote that statement. 
I'll be glad to look at it and be glad to followup with you. 
But I think my statement today indicates that, No. 1, we 
consider this a serious issue. We are committed to the 
research. I personally am committed to taking the steps that 
are needed to find answers. That is--I just indicated what the 
goal should be. The goal should be--is an agenda that looks 
openly at questions, that pursues excellent research and that 
finds answers.
    Mr. Sanders. But you have spent $300 million, and you have 
not found very many answers. The recent study on ALS is a step 
forward. I acknowledge that.
    Dr. Winkenwerder. We have found that answer. I am going to 
leave it to the other researchers who can probably give you a 
better summary than I can about the various studies and the 
state of the research and what the answers are that we found. I 
don't think it would be accurate to say that we don't have any 
answers to things that have been investigated.
    Mr. Sanders. Thank you.
    Mr. Putnam. Gentleman from the State of Vermont has 
expired. We have a vote ongoing. We have 10 minutes remaining 
in the vote. We will recess and come back as quickly as 
possible. Contrary to the agenda, at the conclusion of the 
questions for this panel, we will be taking up Mr. Perot as the 
next panel. With that, committee stands in recess.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. Before the 
recess, Lord Morris had asked for time, and I think it's 
appropriate that the Chair recognize the gentleman from Great 
Britain.
    Lord Morris. Mr. Chairman, can I put two brief points to 
Dr. Winkenwerder? The first, I understand from a highly 
authoritative source that the clinical neurology immunology 
studies in which Professor Simon Wessely is involved have 
basically confirmed the Ruch Zummler hypothesis. Do you have 
any comments on that? And in regard to the recent statement by 
the Secretary for Veterans Affairs about the increasing 
significance of motor neuron disease among Gulf war veterans, 
how does he respond to the Secretary's obvious concern about 
that finding?
    Dr. Winkenwerder. I'm sorry, the second question had to do 
with the finding of ALS increased rates?
    Lord Morris. I am basing myself, Mr. Chairman, on the 
recent published statement by the Secretary on Veterans Affairs 
about motor neuron disease, the incidence of motor neuron 
disease among Gulf war veterans in the United States. We have 
cases as well, some very deeply concerning cases in the United 
Kingdom.
    Dr. Winkenwerder. And your question is about what are my 
thoughts----
    Lord Morris. How do you react?
    Dr. Winkenwerder. Well, I don't know what research has been 
done in the U.K. in this issue, but I would urge given the 
findings that we have such research be done.
    Lord Morris. And on the first point about the research in 
which Professor Simon Wessely is involved on fatal neurology, 
immunology and the finding that the Ruch Zummler hypothesis is 
basically confirmed, which I think is a very important finding, 
what is the DOD's response?
    Dr. Winkenwerder. To be quite candid, I am not familiar 
with that work, and I am kind of getting the feeling that Dr. 
Feussner is and let him respond.
    Dr. Feussner. Yes, sir. Two issues. We are quite familiar 
with Dr. Simon Wessely's work. Dr. Simon Wessely has 
collaborated with us in regards to the large-scale U.K. 
epidemiological study. The initial parts of that study were 
funded by the Department of Defense, and I think the follow-on 
analyses are going to be funded by the Minister of Health.
    The hypothesis that you are referring to is a scientific 
hypothesis that basically addresses the issue of imbalance in 
the immune system between the several components of the immune 
system, and you're quite correct. Dr. Wessely, I believe, will 
be publishing a paper in the British Medical Journal next month 
which will confirm that there is an immunological imbalance in 
patients who were deployed to the Gulf. I think that will be--I 
haven't read Simon's piece carefully, but I think that will be 
a first observation of a significant immunological 
perturbation. And then the question is going to be what are the 
clinical consequences of that.
    I think with regards to your second question, the--I would 
make two comments. The first is that we are aware of the 
situation with motor neuron disease in the U.K. and that there 
are several U.K. veterans suffering from motor neuron disease. 
I think that, as with the earlier studies that were done in the 
United States by the VA and by DOD, there has not been an 
increased--observed any incidence of such neurological 
diseases.
    This study that the Secretary had commented on and Dr. 
Winkenwerder had commented on is actually the first in a series 
of research projects that has shown a significant increase in 
the rate of ALS, almost a twofold increase. It is a study, in a 
sense, that is a bad news/good news study. The bad news is that 
there's an increased rate of the disease. The good news, 
inasmuch as it is good news, is that the disease is very rare. 
So the absolute rate of the disease is quite low among the 
deployed veterans, about six or seven patients per million.
    But we're going to continue with DOD. The ALS study was a 
joint project between DOD and VA and was a jointly funded 
project between VA and DOD, and we're going to continue to do 
some follow-on research in this area, and then we'll bring in 
the National Institutes of Health as well.
    Mr. Putnam. Followup? Dr. Winkenwerder and Dr. Feussner, as 
the respective heads for VA and DOD's medical system and as 
clinicians, what is your advice to Gulf war veterans who may be 
at risk of having ALS as a result of exposure to 
organophosphates and pesticides and other things such as that? 
What is your advice to them?
    Dr. Winkenwerder. The advice I would have for any veteran 
that has symptoms that give that individual the sense that 
something is not right and that something is going on with me 
that doesn't feel right, that person needs to obviously get to 
a physician and, if needs be, get to a specialist, get to a 
neurologist, someone that can conduct a detailed evaluation of 
those symptoms. I think the fact now that this information is 
out there, is public, should give clinicians across the 
country, at least here in the United States, a heightened 
sensitivity to the possibility of symptoms that could be early 
and may be related to this particular disease.
    Dr. Feussner. Mr. Chairman, if I may respond, I would echo 
Dr. Winkenwerder's comments. I would say, however, that we 
should clarify that the cause of ALS or factors that cause any 
individual patient to develop ALS are not known. And one of the 
additional motivations that we had in doing this study is if 
there was a cluster of ALS developing among Gulf war veterans, 
in addition to knowing that, it could provide us an opportunity 
to do additional basic research to try to look at what factors 
or what exposures may be associated with development of the 
disease.
    About 10 to 12 percent of ALS cases is due to genetic 
mutations, and in the follow-on studies we will conduct jointly 
with DOD, we'll look at both the interview information we have 
on the Gulf war veterans looking at exposure issues, and then 
we'll also do subsequent DNA analyses to see if any of these 
patients have the genetic--the underlying genetic abnormalities 
that could lead to ALS.
    So I'm afraid we can't really tell the veterans what to do 
to avoid the disease because we don't know what causes it, and 
I'm also afraid that the treatments--there is no cure for this 
disease, and the treatments are symptomatic. And I think the 
best we can offer is to offer the patients who have ALS the 
best medical therapy we can give them.
    Mr. Putnam. The GAO's testimony states there is unpublished 
data regarding Gulf war illnesses collected by the Department 
of Veterans Affairs. What were Dr. Kang's findings regarding 
Gulf war illnesses? Dr. Kang.
    Dr. Kang. I'm not sure exactly which research project the 
GAO report you are referring to. Almost all of our completed 
study is published, so perhaps if I know which project that 
statement refered to, I can provide more detailed information.
    Dr. Feussner. The most recent study that Dr. Kang was 
involved with has not been published, and that is the physical 
examination component of the phase 3 or the phase 3 of the 
national survey. Dr. Kang can correct me if I am wrong, but 
those data have not been published because the study has just 
been completed and the data are currently being analyzed. 
Preliminary results from the phase 3 study were presented at 
our research meeting in December. That's a study that includes 
about 2,000 veterans, about a little over 1,000 spouses of the 
veterans, and about 1,600 children. And in addition to the 
previous studies that looked at self-reported symptoms, this 
particular study involves physical examination and neurological 
examinations required of the veterans, the spouses and the 
children looking for array of medical diagnoses among the 
veterans, the spouses and the children. Those data have not 
been published in part because that manuscript has not been 
prepared, and the data analysis is incomplete. I would expect 
that those data or that analysis will be completed in a 
manuscript submitted perhaps this calendar year.
    Does that answer your question, sir?
    Mr. Putnam. Does that include the potential for vaccine--
potential role for, say--the potential role of the anthrax 
vaccine, was that reviewed?
    Dr. Kang. That started. It did not include etiology of any 
adverse health outcomes. So we didn't study cause and effect. 
So that study does not answer the question.
    Mr. Putnam. Thank you.
    At this time, the Chair recognizes the Right Honorable Mr. 
George for 5 minutes.
    Mr. George. One of the few good things that come out of any 
war is that if the politicians and military are smart enough, 
sometimes they are and sometimes they are not, you can learn 
how better to fight the next one, although you must not always 
look backward in projecting the future.
    I want to ask Dr. Winkenwerder and Dr. Feussner if they 
could comment on lessons learned. Dr. Winkenwerder, to what 
extent has the Department of Defense learned from the Gulf war 
experience in terms of how to better protect the health of 
military personnel for subsequent wars, and in particular, what 
do you think you have gained from the Gulf war and maybe other 
deployments in other dangerous areas so that your men and women 
are exposed to less risk?
    And a question to Dr. Feussner, again the lessons of the 
past. We, as I mentioned, or I should have mentioned, in my 
presentation--the British Minister of Defence is undertaking a 
study of compensation for sick or injured Armed Forces 
personnel, and my committee is monitoring that in coming up 
with our own proposals. What has Veterans Affairs, perhaps the 
Department of Defense, learned about the most appropriate 
methods of compensating the sick or injured Armed Forces 
personnel from the experience--the scarring experience I am 
sure you have had over the last decade in dealing with the 
problems of veterans of the Gulf war? Thank you.
    Dr. Winkenwerder. Mr. George, that is an excellent question 
and I think cuts to the heart of what are we doing and what 
have we learned and what we are going to do going forward. I 
would say this is a good news and bad news story, bad news in 
the sense that sometimes our best lessons are our most painful 
lessons. But as those lessons occur, changes can be made, and I 
think in this case have been made. And I will talk just about a 
few of them.
    To try and summarize, I think in order to understand and 
respond to and treat people in the Gulf war situation, it is 
important that we collect the information so there is a 
baseline of information. And that needs to occur both before 
people get deployed on the battlefield even before the fight 
begins, if you will, and then after. And with that kind of 
information, it's much easier to draw a picture of what might 
have happened to any given individual.
    I think that's one of the problems that we face with the 
Gulf war situation. The data base to start with was not 
optimal. So we've learned a lot about that. Currently and just 
in the past 2 to 3 years, we have begun doing pre- and 
postdeployment assessments so that there is a standardized form 
that the medical provider goes through, a checklist of 
information, and that is collected prior to deployment, also 
after deployment.
    Another sort of predeployment activity relates to 
assessment of battlefield risks. The U.S. Army Center for 
Health Promotion and Preventive Medicine [CHPPM] does an 
industrial hazards assessment for base camps and for 
surrounding areas. And it is sort of an on-the-ground sample 
assessment of air, water, other risks. And that has been done 
in the current deployment in Afghanistan.
    There is also the Armed Forces Medical Intelligence Center, 
which gathers information regarding things that might be known 
about various installations or plants or chemicals, and that 
gets incorporated into the medical planning effort.
    In addition to that, it's very important that information 
be collected during the engagement, and we have a reporting 
system that is known as the DNBI, disease non-battle injury, 
surveillance. Weekly reports are generated from the 
battlefield, from the unit level, and are placed into software 
systems for each of the services and then aggregated up to DOD 
wide level again through this CHPPM organization. We have 
future plans to have this more realtime, but even now we 
believe it serves as an early warning system for chemical, 
biological or radiologic weapons. And I can tell you that this 
information is being collected.
    I was just visiting last week with our Central Command 
headquarters with General Franks and Deputy General DeLong and 
the leader of our Special Operations Command--so many of our 
forces are Special Operations right now--and spoke with the 
medical leadership of those commands, and they are collecting 
that information.
    One of the things that we're working on as just an example 
is Palm Pilot sorts of tools. Particularly you can imagine for 
the Special Operations soldier, that kind of soldier could be 
out in the field--who knows where they are for what period of 
time. They are in small units. So it's difficult to collect 
that information, but we're funding a Palm Pilot system for 
that kind of collection of information.
    So the other thing that has changed since the Gulf war is 
immunization tracking. Again, that has been placed on the 
software so that we have that information about who got what 
vaccines at what point in time. And then the final stage is 
really the capability to do the research and analysis, and we 
have done three things there. One is to set up a research 
center, the Naval Research Center in San Diego, and that was 
done just 2 years ago; and second, a clinical center, which is 
at the Walter Reed Army Hospital here locally, that looks at 
things like development of practice guidelines. And then 
finally, the deployment of the Health Surveillance Center, 
which is part of the CHPPM organization that I spoke of 
earlier.
    So I think we're doing a lot more. I feel much better about 
what we're doing today than what we've done in the past. Time 
will tell how effective all these efforts are at getting to 
answers that have been elusive in the past.
    Mr. George. And if--with your permission--there is 
something called an Afghanistan War Syndrome. Although the 
numbers perhaps involved will be rather different, are you 
collecting information or examining multi personnel upon return 
to be able to get off to a swift start should there be any 
psychological or physical injuries or illnesses as a result of 
this current conflict?
    Dr. Winkenwerder. Absolutely. And to that end, there is a 
clinical practice guideline. One of the important things is as 
people come back, they're not all going to come to one place. 
They are going to be seen in multiple places. So the question 
is what sort of a standardized tool that care providers will 
have across all services so the right questions get asked and 
the right information gets collected, and that is this clinical 
practice guideline that is going into implementation just next 
month.
    Dr. Feussner. Might I respond as well, sir? I would only 
add at least three lessons learned. The axiom in clinical 
medicine, the first task for the physician is listen to the 
patient. And I think the first lesson we have to learn from 
this experience is when our patients tell us they are sick and 
how they are sick, we have to pay attention to that and try to 
figure out how and why as quickly as we can.
    I think the second lesson we've learned, and it has 
sometimes caused us difficulty with the Congress, is that there 
can be a long latency time from the time that a soldier may be 
exposed or a patient may be exposed to the time they develop 
the disease. The ALS situation is a case in point. We looked in 
1993, 1994 and 1997 and found nothing. And it's important that 
we kept looking because it took time for this illness to 
develop.
    And then I think the third lesson I would say is we 
sometimes get confused, and we think we have to understand 
something before we can treat it. And this committee has been 
particularly persistent in asking us to think out of the box 
and not be hostage to that paradigm, but rather to try and come 
up with therapeutic strategies that might improve the patients 
simultaneous to doing research and trying to understand the 
disease.
    Mr. Putnam. I'm sorry. We need to come back to Mr. Sanders. 
I apologize. And then we are going to seat the next panel.
    Mr. Sanders, you are recognized for 5 minutes.
    Mr. Sanders. I would like to ask Dr. Feussner a question.
    Dr. Feussner, let me quote from the 1997 report that this 
committee published on Gulf war illness. Dr. Rosker, who worked 
for the DOD, was basically saying back then that the incidents 
of ALS was typical with the general population. And as I 
understand it, about 1 in 100,000 people come down every year 
with ALS. And I am going to quote from the report.
    However, in Dr. Rosker's claim the director of the Cecil B. 
Day Laboratory for Neuromuscular Research at Mass General 
Hospital, Dr. Robert Brown, stated the following: The incidence 
of new cases of ALS is about 1 in 100,000 individuals in our 
overall population. Thus it is true to say that group of 
700,000 individuals might in the aggregate be expected to show 
seven or so new cases of ALS over a year's time. However, these 
statements about aggregate populations must be interpreted 
carefully. In particular, they assume an age spread that 
reflects an entire population. If one looks at the age of onset 
of ALS, the mean onset age is 55. The number of cases showing 
onset below the age of 40 is probably no more than 20 to 25 
percent or so of the total.
    In other words, what he's saying is we assume we have a 
younger population in the Gulf. And your study indicated that 
there was already a fairly--that people who served in the Gulf 
had a significantly higher rate of ALS than those military 
personnel who did not. But what about if we take the age factor 
into consideration? Are we not looking at a substantially 
higher rate of ALS, say, for people below 40 years of age?
    Dr. Feussner. I would like to say three things about that. 
And I think you know that one of the factors that motivated us 
to continue looking at this disease is that the cases of ALS 
that were identified, the soldiers, patients who had ALS were 
much younger than we would have expected. ALS is supposed to be 
quite rare in individuals under 45, and many of our patients 
who have ALS are, in fact, under age 45 so it motivated us to 
continue looking. Is the concern that our patient population, 
while not having a rate greater than the general population, 
did represent a skewing of the development of disease to a 
younger age.
    So you are correct on two counts: One, that was a factor 
that kept us onto this problem; and two, that most of the 
patients that we've identified with ALS are younger, and that 
is in spite of the fact that there is no increased rate of ALS 
among our soldiers when compared to the general population. I 
think that is not a fair comparison, and that's why in this 
study we compared the deployed population to the nondeployed 
population.
    Mr. Sanders. I don't know if you can give me this answer in 
your head, but if you took 700,000 people who are the same age 
as the young people who went over to the Gulf in 1991, how much 
greater would be the incidence for those who went to the Gulf 
than for the general population of young people who did not?
    Dr. Feussner. I don't know if I can do that calculation in 
my head. What I would say is that you're correct. The incidence 
rate is about 1 to 2 per 100,000 of the general population. The 
rate we have observed among the Gulf deployed population is a 
fraction of that. It's about 0.7 per 100,000, or about 7 per 
million. When we did the analysis, we did age-adjust the data 
so that the rate would reflect the age skewness in our patient 
population. So we believe that the rate of approximately 2 is 
an accurate number.
    Mr. Sanders. As you know, I have been very disappointed 
overall by the VA and the DOD's research not only because I 
think it has been unfair to the people who serve, but because 
if there's a silver lining out of the disaster that so many 
people are facing today is that we can learn a lot about 
illness in the general population. For instance, many of the 
symptoms that people in the Gulf have developed are not 
dissimilar from people who have been exposed, for example, to 
chemicals in the general population.
    Specifically with regard to ALS--what is the VA going to do 
in terms of working with the ALS community and the private 
folks. Given the fact that you have done a major 
epidemiological study in terms of genetics, in terms of perhaps 
developing some correlation between exposure to certain types 
of environmental hazards, might we learn something from that in 
terms of better understanding ALS in general and how it 
affected--how it affects people in the civilian population?
    Dr. Feussner. Well, the answer to your question is 
absolutely. And one of the--again, as you say, if there is a 
silver lining in this, if we did identify a cluster of ALS 
patients in the Gulf war, then that would give us an 
opportunity not only to know that fact, but then also to see if 
we could gain some clues about cause, maybe even treatments.
    In the current study, the current study is not done. The 
initial data that we presented in a shared way with VA and DOD 
leadership is just the rate. We have additional information on 
a subset of those patients in the study that had in-home 
interviews that talked about occupational exposures, family's 
history, etc. Those analyses are ongoing and hopefully will be 
finished this calendar year. We did ask the patients to give us 
samples of DNA, and we also asked them to give us urine samples 
to look for heavy metal toxicities. We will contract with the 
CDC to do the heavy metal analyses, and one of the 
investigators, I believe, at the University of Kentucky will 
follow on with a DNA analysis.
    From the beginning, you may recall, Congressman Sanders, 
that we engaged both the ALS Association of America in the 
original discussions about whether to do a study. The ALS 
Association helped us identify patients by putting this study 
information on their Web site and did actively refer veterans 
to us during this study. And we also engaged the help of the 
American Academy of Neurology thinking that almost all patients 
who have ALS would go see a neurologist. The study is still 
open. And the number that the veterans can call to continue to 
identify themselves as having ALS is still open.
    So we are going to continue to collect information on 
additional cases or new cases that we identify, both through 
the ALS, the Neurology Society, from the patients themselves, 
but we've always created a coordinated mechanism with the VBA, 
Veterans Benefits Administration, so that as additional 
patients are identified by VBA, they will notify us.
    One of the things we did to facilitate Secretary Principi's 
action was--as you know, this information is private and 
confidential, and the patients asked us to keep information 
private and confidential. We contacted the--we attempted to 
contact the 40 Gulf war veterans who were deployed with ALS to 
gain their permission to give their personal identifier 
information to VBA, the benefits side, to facilitate patients 
being contacted by the VA and getting compensation.
    Mr. Sanders. Let me conclude, Mr. Chairman, by saying, 
thank you, Dr. Feussner, for your work on this study. To the 
best of my knowledge, correct me if I'm wrong, this is the 
first part acknowledgment on the part of VA or DOD that service 
in the Gulf could result in a higher rate of incidence of a 
particular disease; is that correct?
    Dr. Feussner. Yes, sir.
    Mr. Sanders. For many, many years people up here have been 
saying that there are a lot of folks who are ill because they 
served in the Gulf. This is the first time it has been an 
official acknowledgment.
    This is my prediction, Mr. Chairman: In the years to come 
you are going to hear a lot more acknowledgments. This is the 
tip of the iceberg.
    And I want to thank you, Mr. Feussner, for your work.
    Mr. Putnam. The Chair recognizes the gentleman from New 
York Mr. Gilman for 5 minutes.
    Mr. Gilman. Thank you, Mr. Chairman.
    Gentlemen, I address this to the whole panel. There has 
been a great deal of talk in programming recently about a 
possible U.S. return to Iraq as part of the ongoing war on 
terrorism. Should that occur, it's a safe assumption that 
Saddam Hussein will probably utilize all means and weapons at 
his disposal. If that happens, the battlefield will be as 
toxic, if not more so, than it was in 1991 at the Gulf war. 
What is DOD doing to prepare for this kind of a repeat on 
health problems among the veterans of our military? I address 
that to any of our panelists.
    Dr. Winkenwerder. I will attempt to answer that question 
for you. There are a number of things that we would be doing 
should that eventuality occur, and they range all the way from 
the level and types of protective equipment and clothing that 
we would use and things that we've learned in that regard to 
improved detection devices.
    And as I read the history, and again, I'm coming into this 
with not believing I'm an expert on it, but just trying to 
learn some of the history, that although we had some things in 
place at that time, they were not optimal. I think we are 
further along in that area. In the area of vaccine, a whole 
other subject. I think it would be fair to say that the sort of 
rushed timeframe that the vaccine had been administered to 
troops at that time, we should not be in that position again. 
So I think we're in a better position. If there are more 
specific details that will be useful to offer up to you, we 
would be glad to provide that to you.
    Mr. Gilman. What about the series of vaccinations that we 
undertook at the last--in the Gulf war that we found to be 
debilitating?
    Dr. Winkenwerder. I am going to have to maybe refer that to 
Dr. Feussner. I can't comment on that.
    Dr. Feussner. I think one of the U.K. studies actually done 
by Simon--by Dr. Wessely looked at the issue of the vaccination 
patterns, and there were some differences among the Coalition 
partners this regard. I think one of the lessons we should 
learn from this research effort is the U.K. investigators found 
that when the soldiers got all their vaccinations all updated 
all at once just as they were getting ready to deploy, that 
subset of the soldiers had a higher rate of subsequent symptoms 
and illnesses than when that was not the case. And I think one 
of the things that DOD has worked on specifically is to have 
the base immunizations done in the basic way so that by the 
time deployment might occur, the only additional immunizations 
that might be required would be the ones that are specifically 
related to the perceived threat in that war.
    Mr. Gilman. Besides phasing them out, is there any 
deleterious effect of combining all of them in one big 
mouthful?
    Dr. Feussner. I think that the U.K. study suggests that 
there are some deleterious effects to giving them all at once. 
And it's conceivable that the question that Lord Morris asked 
previously about the imbalance--the immunological imbalance, 
that's an observation that is going to require additional 
follow-on research to see what may be contributing to that 
imbalance.
    Mr. Gilman. Are we prepared to respond to that today? 
Suppose there was an outbreak of hostility with Iraq next week 
or next month? Are we prepared to answer that problem?
    Dr. Winkenwerder. What I can tell you is that for most of 
the sort of base immunizations schedule, that information I am 
familiar with suggests that we're well vaccinated and prepared 
in that regard. With respect to the----
    Mr. Gilman. That's not what I'm asking. I'm asking about 
the deleterious effect of putting them all together in one 
human being.
    Dr. Winkenwerder. I do not believe we would be in that same 
situation today. But what I want to add onto is that because of 
the fact of the limited supply that has occurred recently 
because of the shortage of the anthrax vaccine and for 
protection against that particular biowarfare agent, that 
obviously given the timeframe you asked the question today, 
there would be people who might not be vaccinated at all, and, 
of course, those that are in theater that fall into the group 
that we're protecting right now, they are fully vaccinated, the 
Special Operations forces.
    Mr. Gilman. I submit your response is pretty ambiguous, and 
I hope you can tie this down.
    Mr. Putnam. Mr. Gilman----
    Mr. Gilman. One more question, Mr. Chairman.
    What studies is DOD funding relating to the anthrax vaccine 
and the health effects? This subcommittee conducted numerous 
hearings on the anthrax and its impact upon military personnel. 
Where are we today with regard to your studies?
    Dr. Winkenwerder. First of all, I would just say there has 
been quite an effort over the last 12 to 18 months working with 
the FDA and DOD and BioPort, the manufacturer of the vaccine, 
to look at the manufacturing process to ensure that--in 
particular FDA believes that the vaccine is safe and effective 
and that any concerns that might relate to any effects that the 
vaccine could have are not there, that they feel good about 
that situation.
    Mr. Gilman. Are you satisfied with the quality of the 
anthrax vaccine coming from BioPort?
    Dr. Winkenwerder. I believe it is a good vaccine. Based on 
the information I have seen, I believe it is safe and 
effective. If you're to ask me is it a perfect vaccine, I would 
say no. It is the vintage, if you will, of the technology and 
the timeframe in which it was originally made is not the same 
technology that we would use today. And so, therefore, I think 
there is an opportunity to develop, and we should be investing 
and developing an improved 21st century vaccine.
    Mr. Putnam. Mr. Gilman, your time has expired. We have 
agreed to--Dr. Winkenwerder, I know that Chairman Shays agreed 
to have you out by noon, and we need to seat the second panel. 
With that, we will excuse panel one and allow a few moments for 
the second panel, which will be Mr. Perot, chairman of Perot 
Systems.
    This time we will seat the second panel, Mr. Ross Perot, 
chairman of Perot Systems. Out of deference to your skiing 
accident, we are going to allow you to remain seated for the 
swearing in, and please raise your right hand.
    [Witness sworn.]
    Mr. Putnam. For the record, the witness responded in the 
affirmative.
    We welcome you to this subcommittee, and we look forward to 
your testimony at this time. You are recognized for your 
opening statement.

     STATEMENT OF ROSS PEROT, CHAIRMAN, PEROT SYSTEMS CORP.

    Mr. Perot. Thank you very much. What I would like to do is 
make a very brief opening statement and then have these tough 
questions that have just been asked, just hit them straight on 
with me, and then I will go in for my word-for-word testimony, 
but you have got that already copied.
    But I first want to thank you and your committee for 
staying on top of this problem for all these years while our 
men and women have been suffering. They haven't had a lot of 
advocates, and you have certainly been there. I really got 
excited during the Presidential campaign when President Bush 
and Vice President Cheney promised that they would face this 
problem and deal with it, and I see great progress now being 
made--I don't think there's a minute we have to worry about 
Secretary Principi standing on principal going wherever it 
takes and doing whatever it takes to get it done. But what we 
have is almost 10 years of where these men have been neglected 
and women have been neglected and children have been neglected. 
And I think it's very important that the American people 
understand the whole strategy under the Clinton administration 
was public relations and to denounce this whole thing as 
stress. And if any of you want to get into the stress 
situation, I'd be glad to take that one head-on with you 
because that's history.
    Now, this great doctor who just joined the Defense 
Department who was talking to you, he's new. He's just getting 
his feet on the ground. I've spent enough time with him to feel 
very comfortable that once he understands this, he will do 
things. There are holdovers who were carefully moved around at 
the end of the administration before the last administration 
went out who are still in key positions, and some of them have 
testified today who are part of the stress team.
    Now the captain of the stress team is a man named Bernie 
Rosker. Fortunately he has gone back to the RAND Corp. He 
bounces back and forth. If you wonder was there really a stress 
team, I'm sure you know, but the American people don't know, it 
did exist. I've got the document here that describes their 
strategy written by them. So there's a Forrest Gump somewhere 
in their organization.
    No. 3, they spent a fortune on public relations, and only 
in America would they hire a person who had been a lobbyist for 
the tobacco industry to lead the effort. How would you like to 
be a wounded marine corporal and have to put up with all that? 
How would you like to be a Tiger that flew in the Air Force who 
was Captain America who is in a wheelchair dying and only has 2 
or 3 months? I have his pictures in my office, his two little 
children on each side. I know from listening to you today those 
are the people that you care about.
    Now, the thing that I cannot understand and will never 
understand is that for over 30 years, I have worked with the 
Pentagon on wounded soldiers. You say, well, what were you 
doing? I was getting calls from generals and admirals in the 
middle of the night about privates and corporals and sergeants 
who had some terrible problem that couldn't be fixed in the 
military, and we would get the top doctors in the civilian 
world to do it. And the touching thing in my memory is most of 
those doctors would never send me a bill. They did it from the 
heart. And what they've done was just incredible.
    Now that always existed. And suddenly Desert Storm occurs, 
we have all of these problems, and nobody's doing anything. The 
men came to see me in 1993. They brought pictures of themselves 
going into combat. They looked like Captain America and 
Superman. In my office, they look liked people coming out of 
Dachau. That got my attention.
    So then I enlisted the aid of one of the top medical 
schools in the world, medical school that has more Nobel Prize 
recipients than any other medical school and impeccable 
credentials. They chose a doctor who worked for the CDC for 10 
years, who received its highest award, and on its 50th 
anniversary received an award for one of the five greatest 
contributions in the history of the CDC. Dr. Haley's an 
epidemiologist. You don't want to hear the abuse this great man 
has taken, but he's ignored it and kept working for the troops.
    You get into all these problems like anthrax. You don't 
need a medical degree to understand the problem. BioPort is a 
mess. BioPort should not be able to keep that contract. For 
years they never met any goals or objectives. You heard all 
this squishy stuff this morning. This is plain Texas talk. I am 
not part of the stress team. For years they got bonuses that 
equaled or exceeded their salaries and didn't accomplish their 
goals.
    The damage that was done to our Tigers in the Armed Forces 
is incredible. Hundreds of pilots have left the Air Force 
rather than take the shot. $6 million to train one pilot. 
That's a high price to pay, right? They didn't want to leave 
the Air Force. A lot of them went into the Reserves and 
National Guard, and then they insisted they take the shot 
there. And they had seen what it had done to their buddies, and 
they wouldn't take it. And none of this comes out in this 
squishy stuff you heard this morning, and I know that's what 
you are looking for. It got so bad that the attorney general of 
Connecticut filed a lawsuit against the U.S. Government because 
they were losing all the talent in the Air National Guard.
    And then the kinds of things that have come up, for 
example, when ALS first came up and everybody dismissed it, I 
contacted the government and said, I will fund the research. 
All I need is the names of the people who have it, and it is a 
fairly small number out of 100,000. And they said, we can't 
give you that because it would violate confidentiality. I said, 
OK, write them all, tell them I will do it, and 100 percent of 
them are going to contact me because nobody else is helping 
them, and we'll move forward on the research. Oh, we can't do 
that. So they just let them rot and die. Now that's history.
    I can go on and on and on about specific cases like this. 
Now keep in mind you are going to hear about these numbers, 
about what was spent examining these veterans. What you get 
from a doctor is an annual physical. When Dr. Haley came in, he 
came in with an open but skeptical mind. He studied all this 
very carefully. And then his first theory--now if you're a 
medical researcher, you start with a theory, then you test your 
theory with a limited sample. And then if that confirms your 
theory, you do a broad-scale test. He had the finest, most 
sophisticated brain-scanning equipment available in the world, 
and each of these physicals, if I recall correctly, cost about 
$65,000. We did these physicals on a broad array to get the 
initial theory tested. He can show you--I can't--he can show 
you the brain scans, and you as a lay man can see the damaged 
parts of the brain, and you can ask him, well, what is the 
effect? And you will see a direct correlation between the 
damaged parts of the brains and the problems these men have.
    Now, this is the way it's always been. One of the most 
senior officers in the Pentagon, a military officer, called me 
and said, I have a man who served with me. I have the highest 
regard for him. He's a colonel and has got this problem. Can 
you put him in the study? And we put him in the study, and his 
brain was damaged. The good news is that as he walked out of 
the office, he casually mentioned to Dr. Haley that he had an 
identical twin. That's a researcher's dream. We can show you 
pictures of the identical twin's brain, and it's a clear, 
functioning brain. We can show you the pictures of the officer 
who was damaged, and, you know, his brain has been damaged.
    Now, the points you keep raising, and now that we know this 
goes on, what have we done to prepare if we go into Iraq? We're 
not ready. I am not going to give you the squishy answer. We're 
not ready, and the sooner we start, the sooner we finish. For 
example, on anthrax, which is--you're not going to get it done 
in BioPort. You are going to take care of some of these 
buddies. I said all I want to know is who are the investors. 
Nobody will tell me who are the investors in BioPort. That 
sounds off a big bell in my head.
    Then I said, well, you know, I did start to do some 
research on my own, and it turns out the leading investor and 
the point person is a person from Lebanon. Now, only in America 
would you have someone from Lebanon controlling something this 
sensitive. Oh, he's an American citizen now. Well, he married 
an American girl. That takes care of that.
    But you see, this is the kind of stuff I keep finding 
again, again and again, and there is no pressure on them to 
perform. And no matter how much damage this shot does, and 
believe me, I have talked to all the Tigers that have been 
damaged, there is a group of Air Force officers who have taken 
this as a major mission. They had to get out of the Air Force, 
but, boy oh boy, they are all over it for their friends, and 
the medical data they have pulled together are overwhelming. 
It's the kind of information you keep reaching for. They just 
pull together everything that's been done.
    You can see you can't give this shot. When you guys--when 
the members of this panel started talking about having a lot of 
shots at once and does that cause damage, the answer is an 
absolute yes. And if you look at the preservatives and all the 
things that are in a shot that have nothing to do with a shot, 
and you compound too much of that all at once, that should 
never be done. Now you've got soft answers on what's happening 
there.
    I think as quickly as possible, and I know the new 
administration--I know that Principi and I am certain that 
Rumsfeld wants to do the right thing, but we have got to get 
past--you say, what's our problem with the new administration 
wanting to do that? They have a lot of the old players still in 
place. Some of them have testified here today. They are still 
in place. I understand it's very difficult to get rid of people 
in the government if they are career employees, but you could 
transfer them. Put them on your staff or something, but get 
them away from this.
    I don't have to tell you, it's obvious that everyone is 
committed to the men and women who fight for our country. And 
thank God for you, because this has been--interesting enough 
today, we've got Enron going on, and we've got the Walker trial 
going on, and all the cameras are over there. All the cameras 
should be here with concern about our fighting forces. And we 
understand the press and all that stuff. We've got to switch 
from the stress PR theme and go hard-minded into research.
    But, for example, in anthrax--see, I've offered to do the 
research on ALS, and they wouldn't give me the names. Well, you 
can't do the research. I love having 700 or 800 people you have 
to work with. That's better than a million. Then the Dr. Kang 
that was here a while ago, you see, I don't think you could 
figure out the papers that he had, but he had one paper on the 
damage to the children. I have seen pictures of these damaged 
children. We're not talking about something that is a fantasy. 
This is not something that is buried inside their bodies. We 
need to immediately identify those children because here is a 
great research paper written by a doctor that was here, but it 
was never printed. It was never published because they weren't 
sure that the families weren't lying about the conditions of 
their children. Right away you can see--and I will take care of 
it. Identify the children and get the top doctors in the area 
where these children live, and have the top doctors provide you 
in days in 400 cases, and open or shut we know if it's real or 
not real. But it is real, and you will stop getting all this 
blurred conceptual talk, and you'll get action.
    There is new technology called genetic sorting. Don't ask 
me to explain it. I am not smart enough. But the doctor who is 
the quarterback on this has great credentials, highly regarded 
throughout the medical community. He's done all kind of 
research for many government agencies, including DARPA. He 
believes that he has a new technology that will develop safe 
vaccines that can be FDA-approved in less than a year. That's 
what we need. We don't know all the chemical and biological 
weapons that are out there, but wouldn't it be neat if we had 
something that really could work in that timeframe? I am 
prepared to fund that research. I won't ask the government. I 
will fund that research. I need collaboration from the Centers 
for Disease Control and from the National Institutes of Health, 
and I prefer not to have these other groups involved because 
they still have the holdovers. I want really qualified doctors 
working with this team of geniuses, and within a year they are 
either going to make their goal or they're not. I will ask them 
to come up with an anthrax vaccine now.
    Worst case--and there may be three or four other things 
like that need to be pursued, but this is the type thing we 
need to do, and we need to do it without all of this hazard 
going to look.
    I can sum up everything I have said so far. A very 
prominent Senator that all of you know and respect--former 
Senator now--after all this occurred, I went to see him because 
he has been concerned about the veterans. And when I discussed 
this with him, he said, Ross, don't you know what your problem 
is? And I said, no, sir, I wish I did. He said it's the perfect 
war syndrome.
    This was the perfect 100-hour nonwar. And nobody wants to 
admit that we have all these casualties. Forget that. Let's 
assume that maybe that did exist. Right now if the whole Nation 
would take the position you on this committee are taking, we 
could move in and solve this problem. Now I know your 
questions, I listened to all of you. That's what you want. You 
want action this date. Not talk and not theory and not 
obfuscation about well, you know, maybe this maybe that and so 
on and so forth. You want to get something done. And I thank 
you so much for all you're doing and now, please ask me any 
direct questions. If you think I give you a soft answer, nail 
me.
    Mr. Putnam. Thank you, Mr. Perot, for your typically 
mealymouthed warm, noncommittal remarks that typify your 
personality. I'm going to attempt to make up to the 
distinguished chairman emeritus that I had to cutoff on the 
last panel by allowing him to ask the first questions.
    Mr. Gilman. Thank you very much. It's a real honor to have 
Ross Perot before us today. And we thank you for your precise 
and eloquent testimony. The Pentagon has repeatedly stated that 
the results of many of these private studies were not peer 
review. Your testimony indicates otherwise.
    What standards does DOD and the VA use in determining peer 
review status?
    Mr. Perot. All of Dr. Haley's work, he's written over 10 
publications that I know of that are in our top medical 
journals before they ever print a word of it the top doctors in 
that field, take it through peer review, and that peer review 
is public and you know who those doctors are. In the Pentagon 
when they take something through peer review, it's secret and 
you don't know who did it, if anybody did it.
    I'll stick with the civilian side on that one. Where you 
get the top doctors and nothing that Dr. Haley would have come 
up with would have been allowed to be printed unless the finest 
doctors in the private sector in our country had endorsed it.
    Mr. Gilman. I note that you mentioned that Dr. Haley, after 
being denied appealed to the chiefs of staff and they partially 
funded his work so he could continue. Is he still continuing?
    Mr. Perot. He continues but we don't get collaboration. 
It's like Ft. Detrick. If Ft. Detrick does anything productive, 
I hope someone will tell me. Because all Ft. Detrick does on 
this one is shut things down. I could go on and on. It doesn't 
stop at Ft. Detrick. A lot of this is ``has been.'' I think 
things are going to be much better. The reason I bring things 
like this up is all these are career people. They were doing 
things that were good for their career. These are things now 
that should be bad for their career and they need to be 
transferred out of those jobs and get people in those jobs who 
care about the troops and want solutions and basically are not 
interested in how things look but how things are.
    Mr. Gilman. What can we do to assist Dr. Haley in his 
continued work?
    Mr. Perot. I think the best thing that we can do is right 
now Congress funds his work. I'd like to see his work funded as 
long as it's worth it. He would be the first to see--he could 
be doing 50 things now that are not controversial. On the other 
hand, he is a first--I love to find people of principle and 
people of character and integrity. He's involved with this 
because he has seen the families, he has seen the children. He 
has seen the wives which we haven't talked about yet.
    Some of them are affected too. Many of them I think were 
affected when they washed the clothes that came home before the 
men got home that were covered with chemicals. Then they got 
some of it. But anyhow, they are affected. He's been through 
this with all of them. He works 7 days a week. This is a 
mission for him. He ignores the criticism. He ignores the cheap 
shots and so on and so forth that keep coming from the stress 
team and the hundreds of millions of dollars that are being 
spent on PR. I can show you some of the letters these people 
wrote that are just bizarre.
    Mr. Gilman. What more, then, should we do to help him?
    Mr. Perot. I would say that the work that he's doing that 
you think is worthwhile, Congress should just continue to fund 
it directly. And I know that he would be more than comfortable 
to have the Center of Disease Control or some group that knows 
how to do this overseeing his work. Certainly he would expect 
to have it overseen. But have a group within the CDC or some 
group like that--now Dr. Haley may have a better idea when he 
talks to you, but based upon everything I've seen so far, no 
question about his integrity, no question about standing on 
principle. You know, once he knows something is there, he won't 
back off just because everybody is pressing him to back off.
    What happens again and again when he comes up with the 
theory which is step one, they say, well, we need to replicate 
it. That's step 2. They should fund it and let him do it on a 
much broader base. Then they won't let him do it and they don't 
ask anybody else to do it. Don't you find that interesting?
    Mr. Gilman. Very interesting. Mr. Perot, regarding anthrax, 
why do you suppose the government has relied on a sole source 
production contract in a crude 1950's technology vaccine.
    Mr. Perot. I think it's an Arkansas business deal.
    Mr. Gilman. What should we be doing to correct that?
    Mr. Perot. I'd like to know. I expect to see some names 
we've read about in the paper when we get all the investors. 
That's the first thing I want to see is who's cashing in on 
this thing. But the point is they can't stand scrutiny. But 
here's what you keep hearing from the bureaucrats in the 
Pentagon: It's all we've got. Well, let's assume you've got 
Lysol and you want to give me a shot. That's all you've got, 
I'd rather take the risk, right?
    Mr. Gilman. Ross, we can't thank you enough for your 
eloquent testimony today in pinpointing some of these problems. 
How do we better prepare ourselves to avoid future problems of 
this nature?
    Mr. Perot. I think, first off, we need to understand we're 
in a whole new era. We can be in wars where we don't even know 
who the enemy is. Terrible things can be--let's assume that 
we've got some segments of population, which I don't think we 
do, that don't care about our troops. Our whole population is 
as vulnerable to these chemical weapons as our troops are. They 
can be distributed anywhere. We don't know what to do now when 
that happens. Think of the chaos on the anthrax that came up 
here in Washington. That was fortunately tiny and not so big. 
But we don't know what to do. We've got to be prepared as a 
Nation to know how to deal with this. And that's going to take 
tremendous research from some of our most talented people.
    Now, an interesting problem you'll have, a huge number of 
people in Dr. Haley's category, they're up here in the 
stratosphere, the best of the best, they wouldn't want to touch 
this now because all you do is get beaten up when you find 
something. So we have to have a new environment where the best 
of the best are willing to work on it.
    Mr. Gilman. We can't thank you enough for your time and for 
your great testimony. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman. Before recognizing Mr. 
Sanders, I just would like to explain, Mr. Perot, when you use 
these phrases like an Arkansas business deal, I don't know if 
our Brits understand that. So you may have to translate some of 
that.
    Mr. Perot. Whatever it takes.
    Mr. Shays. I also would like to counsel our two colleagues 
from Great Britain that we invited you to come to participate, 
but not to show us all up, which is what I'm hearing has 
happened so far. And before recognizing Mr. Sanders, I would 
just ask unanimous consent that all members of the subcommittee 
be permitted to place any opening statement in the record and 
that the record remain open for 3 days for that purpose. 
Without objection, so ordered. I ask further unanimous consent 
that all witnesses be permitted to include their written 
statements in the record and without objection, so ordered.
    Mr. Sanders, you have the floor. I'm sorry, Mr. Sanders, if 
you have any documents that you want to submit, you refer to, 
we'd like that for the record. Some of them are----
    Mr. Perot. Here's one I love. Bronze Anvil. Now, you are 
sitting up here totally focused on wounded men and women. This 
is totally focused on PR. This is the stress team strategy. It 
is sick. Now, I'd like you to ask for the Defense Department to 
give it to you. Bronze Anvil. If they don't give it to you, 
tell them I have it.
    Mr. Shays. We will have you to give it to us, if you would, 
since you referred to it. Then we're going to ask to make sure 
that the Defense----
    Mr. Perot. Do it however you want to. This is absolutely 
unacceptable.
    Mr. Shays. We want to make sure they're both the same hire.
    Mr. Perot. Fine. Fine.
    Mr. Shays. Mr. Sanders, thank you for your patience.
    Mr. Sanders. Thank you, Mr. Chairman. And thank you very 
much, Mr. Perot. I want to thank you for funding many important 
aspects of the research that is going on right now. Some of us, 
as you know, have been very frustrated over the years with a 
lack of progress. You heard the DOD talk about $300 million in 
research. And yet the results have not been terribly 
significant. I want to thank you for funding people like Dr. 
Haley and other people. It's been very important for us.
    You talked a moment ago when you said that we're not 
prepared for potential disasters that might befall the United 
States right now. You talked the possibility of a terrorist 
attack. I would agree with you. Take it a step further, though, 
would you or would you not agree that, in fact, one of the 
things that we might learn from Gulf war illness is that many 
of the illnesses being suffered by the people who served there 
are being suffered by people today in the United States of 
America----
    Mr. Perot. Oh.
    Mr. Sanders [continuing]. As a result of chemical exposure. 
In general. Do you see us----
    Mr. Perot. Absolutely. Huge. There's a huge bonus from all 
of this, if we ever crack it, to the civilian population. And 
we do have people who are sensitive to chemicals, who are more 
vulnerable to chemicals and others and so on and so forth. One 
of things that I would like to make sure everybody understands 
is why pesticides kill insects and don't kill us, normally. We 
have blood barriers in the brain that keep the pesticide from 
going into our brain. The insect doesn't have that. But, there 
are some interesting theories, I don't know if they've ever 
been proved or not that some of these things we've given our 
troops tend to damage the blood barriers in the brain.
    Mr. Sanders. That's right. We've heard evidence to that.
    Mr. Perot. That's valuable nationwide. Worldwide.
    Mr. Sanders. Several years ago I met with a number of 
Vermont men and women who were over in the Gulf. What they told 
me, and I will never forget, is that when they're exposed to 
perfume, when they're exposed to detergents they become very 
sick. I don't think it takes a genius to figure out that these 
people are suffering from chemical problems. Obviously there 
are many people in the civilian society who are suffering from 
similar type problems. Would you agree that the issue of 
multiple chemical sensitivity is an important issue that has 
not been fully explored?
    Mr. Perot. Absolutely. I would say going back--absolutely. 
We need to explore it. And going back to wars, we need to never 
forget. See, we're focused on chemical, biological, but as you 
all know, you can carry a nuclear weapon with the destructive 
power that you dropped on Hiroshima in a suitcase and you can 
carry one with half that power in a briefcase. And when you 
think how vulnerable our borders are and how easy it is to get 
in and out of our country and so on and so forth, you realize 
that carefully planned and positioned like we thought bin Laden 
might have been, incredible damage can be done and we don't 
know who the enemy is.
    Now, in all of this, to wait 10 years and do nothing on 
problems that we have faced in a prior war, there is no excuse. 
President Bush said it beautifully. He said when something like 
this comes along, your only response to the military is no 
excuse. But we start now.
    Mr. Sanders. Let me ask you this, Mr. Perot. My time is 
running out. Because this has gone on Republican 
administrations and Democratic administrations. One of the 
saddest aspects of this whole business is, as you know, the 
government denied at the beginning that exposure to nuclear 
radiation for our World War II veterans was a problem. I 
believe it was a lawsuit from the American Legion that brought 
it about. And Agent Orange, as you know, has been a horrible 
example of government in activity. It took lawsuits on the part 
of, again, the veterans' organization, and we're dealing with 
Gulf war illness today. Why do you think the government has, it 
seems, to be always reluctant to acknowledge these illnesses?
    Mr. Perot. It's a pattern. And we need to break--let's 
learn from history and let's not repeat the pattern. Now, for 
example, you mentioned the exposure of our men to radiation, 
then you mentioned Agent Orange is a huge one that for 20 years 
people fought long, lonely battles. My roommate for 4 years at 
the Naval Academy died from Agent Orange, Dick Meadows, a close 
friend of mine, one of the founders of the Delta Team died from 
Agent Orange. These were people that literally dedicated their 
lives to their country and we were in denial the whole time.
    So these are things that we need to move on and just say 
all right, we're going to learn from history. We're going to 
stop living in denial. And every time something like this comes 
up--see, if we had spent a fraction of the money that we had 
spent on PR trying to solve these problems, we would be 
prepared if we had to face Iraq in the future and things like 
that.
    One thing I have to mention to you, you probably already 
know it, the top technologist on the chemical and biological 
weapons and the ones that had all the weapons systems that we 
used were the Czechoslovakians. Don't you find that 
interesting? Those are the people that knew the most about this 
going into Desert Storm. Then a doctor who defected from 
Czechoslovakia who was working on all of this during the cold 
war who worked for the CIA and then worked for the Pentagon, so 
he must not be a total nut case, I heard him speak about how 
they developed this technology.
    They took our men who were POWs out of Vietnam and brought 
them over there and used them as medical guinea pigs. They 
would expose them to these various chemical biological agents 
and then try to develop methods to treat them, then they 
developed the alarm systems that went off and so on and so 
forth. Anybody that survived that, they exposed them to nuclear 
radiation and then tried to figure out how to treat them.
    So the technology we used in Desert Storm is a by-product 
of a number of our POWs who gave their lives as guinea pigs. 
This is not the way to do things. The way to do things is all 
right, here's the problem, let's fix it. Right. Let's just go 
to work and get it done. There are always solutions. It just 
takes dedicated high talent teams totally committed, no 
bureaucracy. Now the teams that always win are the ones that go 
around the clock. They're on fire to do it. It's their life and 
so on and so forth. Whether it's the Wright brothers inventing 
the airplane, Thomas Edison inventing the electric light. You 
know, how could two bicycle repairmen invent the airplane? Dr. 
Langley had all those government grants. I don't want to 
wander, but do you see how things really get done?
    Mr. Sanders. Yeah. OK. Well, thank you very much.
    Mr. Shays. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. Mr. Perot, I just want 
to thank you for your testimony. As a new Member of Congress 
and of this committee, your testimony has given a great deal of 
history of the ongoing struggle that these brave men and women 
of our armed services have faced over the last 11 years, and I 
commend you for your efforts in trying to assist them and keep 
this issue in the forefront. I commend you for your 
involvement, as you reference over 30 years, in responding to 
those calls from generals and admirals. I'm also sad to hear 
that is necessary. That we as a Nation aren't providing the 
assistance as we should to every brave American who served 
their Nation. So as one who is working hard to get more up to 
speed on this issue, your testimony and frankness today has 
been very helpful to me and I thank you for being here. Thank 
you, Mr. Chairman.
    Mr. Perot. Thank you.
    Mr. Shays. I thank the gentleman. At this time we'll 
recognize Lord Morris.
    Mr. Morris. Mr. Chairman, I, too, pay warm tribute to Ross 
Perot for the force and clarity of his testimony to the 
subcommittee. He heard earlier today speakers for the 
administration say that one lesson that had been learned from 
Gulf war experience was that it's dangerous to give as many as 
14 inoculations all at the same time. But how does that help 
reservists? How does it help reservists now being deployed who 
haven't had their immunizations topped up from time to time? 
When you come in as in the case of reservists in the Gulf war, 
in need of a mass immunization program, how does it help them? 
How does it help the reservists? We are calling up reservists 
in the United Kingdom.
    Mr. Perot. I understand. We have got to have good, safe 
vaccines. The time to develop them is when things are quiet. We 
had a 10-year quiet period. Didn't do a thing. Let's start 
today and start developing good, safe vaccines. Once we have 
good safe vaccines, let's assume there were 14 we were going to 
have to give to this young tiger going into the reserves, I 
would suggest that we look at which ones can we give them in 
advance that are the safest and so on and so forth and not wait 
until the last minute. Then he takes--then one of the things 
you have to do when you give a whole lot of ones is look at the 
menu and look at the preservatives and look at the cumulative 
things of hitting the body at once. And at some point you just 
can't do it. Then you say, well, we'll have to keep this man 
out of harm's way until we have time to properly inoculate him, 
or if it an absolute emergency and he has to go anyhow, that's 
the risk you take. And he would take that risk rather than 
being permanently damaged by all these shots at once. No 
question.
    Mr. Morris. I am most grateful.
    Mr. Shays. At this time the Chair recognizes Bruce George. 
Do I need to say you have 5 minutes, sir?
    Mr. George. I shan't take 5 minutes.
    Mr. Shays. You have 5 minutes.
    Mr. George. Thank you, Mr. Perot. The last thing I will do 
is to ask you a hostile question, because clearly, the 
admiration for you on this side and on that side of this room 
is enormously high. I thank Mr. Shays for helping to interpret 
Texan into English, although I did manage to work out what Mr. 
Perot had said. I hope everyone is protected by privilege, 
although I can't imagine anyone is wealthy enough to wish to 
sue Mr. Perot for any indiscreet language he might use.
    What I want----
    Mr. Shays. Mr. Perot, did he understand what he just said?
    Mr. Perot. Did he say someone might sue me? I say come on.
    Mr. George. Absolutely.
    Mr. Perot. Bring their helmets and their teeth guards when 
they come. Then we'll get this dang thing out on the table. If 
they want to get it out on the table, no better way than for 
someone to come whining in like that.
    Mr. George. I think most people are aware of what a 
formidable adversary you are. I want to ask you this: We 
politicians must explain, interpret things for Americans. We 
play soccer which is an international game. And it's becoming 
fairly popular in this country. But when I was a kid and we 
played soccer, wherever the ball went we all ran after it. When 
the ball was kicked up the other end of the pitch we would all 
run after it with no sense of strategy or tactics. Now as a 
politician, I can recall myself and my colleagues whenever the 
media raised the possibilities of the cause of the Gulf war 
syndrome, then parliament was filled with people asking hostile 
questions. I can just recall some of the causes: Bacteria, 
sand, organic chemicals including organophosphates, burning oil 
wells, known illnesses such as post traumatic stress disorder, 
chronic fatigue syndrome and multiple chemical sensitivity, 
exposure to depleted uranium contained in shell tips and tank 
armor, chemical and/or biological attack from the Iraqis, 
medical counter biological chemical warfare measures, etc. And 
all of these were seen to be causes.
    If you were a betting man, and I have no idea if you are, 
what advice would you give a foreigner to perhaps where the 
answer lies? It is in any of these, all of these, others, 
combination.
    Mr. Perot. Everything that anybody brings up that has 
possible validity, I would put a small high talent team of 
medical scientists on it, say check it out. That doesn't cost 
much money. Then you find out is this fact or fiction. One of 
the things that people working on, now let's go back to World 
War II, the real question was did you have flat feet? Remember 
that? The real question in future wars might be what is your 
genetic make up because your genetic make up could make you far 
more vulnerable to all of this.
    Why don't we solve that, know it and know how to offset it? 
I would have everything you brought up, unless the geniuses 
told me, no, these go fit together, I would just have them 
start off testing theories finding out if it has any validity 
and learning quickly. This doesn't take long if you get it away 
from your bureaucracy and you get it into the researchers and 
you put them under tremendous pressure to come up with answers, 
you not take forever. God created the heavens and earth in 6 
days. It doesn't take forever to get great things done.
    Now, we don't have God working on this, but the point is 
good things tend to happen when dedicated teams just hit the 
wall and go do it. If we did that in everything you mentioned 
and any new ideas that come up, that had any validity, but you 
can't have a bureaucracy trying to cover up for their mistakes 
looking at what to do and what not to do. You've got to have 
people dedicated to science and research doing it.
    And based on everything everyone has told me, the Center 
for Disease Control, the National Institutes of Health are the 
ideal places to run this because of the professionalism and the 
quality of those organizations. If they turn out not to be, I 
would turn it over to the highest and best medical schools in 
our country. And just leave the full pressure on them to get it 
done for our whole Nation and not live in denial. We've been in 
denial forever. You know if you're drinking too much the first 
thing to do is admit it, right? Well, that's the problem we've 
had. You heard some of this testimony this morning from old 
members of the stress team. I couldn't even understand what 
they were saying they were so vague. The point being is what we 
need is somebody who goes for the facts and gets you the 
answers, right? Just put the teams on the field and do it. And 
for a fraction. I promise you this: For a fraction of what they 
have spent over the past 10 years accomplishing nothing, it all 
adds up to almost $500 million, you can get it done for a whole 
lot less than that. You'll have answers. You'll have our 
population protected. More importantly anywhere there is 
infectious disease in the world let's assume in Africa or 
India, suddenly millions of people have a new disease, if 
genetic sorting works in a few months we can figure it out and 
have a safe vaccine for them. That's what we ought to be doing. 
That never even comes up in the discussions up here.
    Mr. Shays. Do you want the last word?
    Mr. George. No. I don't think it is physically possible to 
have the last word except--even my wife has taught we that. And 
she's American, so I won't tangle with her.
    Mr. Shays. So you have some humility, Mr. Perot. You're an 
awesome gentleman. I would invite you to make any closing 
comment would you like.
    Mr. Perot. I'll keep it brief. First, I've told you so many 
bad stories. I want to tell you--I have told you that for 
decades I've been called on. I want to tell you one story about 
how the men and women in the Armed Forces take care of one 
another. Desert Storm was just completed. I'm sitting at home 
on a Sunday afternoon. An AT&T operator calls me. He said Mr. 
Perot, your number is unlisted but you have to talk to this 
lady. Suddenly I'm talking to a lady named Gail Campbell. Her 
husband is a sergeant. He was in the barracks that was hit by 
the SCUD missile. She has been talking to his doctor over the 
telephone, a Commander Wallace. When I was in the Navy, No. 1, 
we wouldn't have had the technology to do that. And No. 2, an 
enlisted man's wife probably couldn't talk to a doctor anyhow, 
he's too busy. And Dr. Wallace had told her, Commander Wallace 
had told her that her husband was going to die within 72 hours 
and her purpose in calling me was to ask if I could get tickets 
so that she and her daughters could see her husband before he 
died. I said certainly, they'll be at the Pittsburgh airport 
but tell me what you know about his wounds. She knew all about 
his wounds. Then I asked her how do you know so much? Then she 
told me she had been talking to commander Wallace. I said I 
happen to know the top trauma doctor in the United States. 
Would you allow me to have him call commander Wallace. She gave 
me his telephone number. Dr. Wygelt, the top trauma doctor 
fortunately he was at home, he called across the world--now 
keep in mind let's go back to the American Revolution, we had 
to send messages to France, George Washington sent a message 
and Ben Franklin had to go on a sailing ship. Bing, you're 
talking to the doctor in Bahrain.
    Then the doctor said--here is my kind of doctor. He said I 
can't save him, but the right team of specialists could. That's 
the magic word there. Dr. Wygelt called me, he said my team 
would leave immediately. I hadn't asked him. But he'll be dead 
when I get there. But said Ross, the good news is there are 
three geniuses called up in Desert Storm, big genius doctors. 
You got to get all three of them in the room immediately, but 
they can save him. He gave me their names. I called the 
National Command Center of the Pentagon. There is a General and 
Admiral on duty around the clock. Imagine how busy they were at 
that time.
    I never forget Admiral Roberts, he took the call, the names 
and everything I gave him. Never said a word. The only words he 
said, Don't worry, Ross, I'll take care of it. There's a whole 
lot different from what you've heard over here today. I'll take 
care of it.
    A few hours later, Dr. Wygelt, the genius doctor in the 
country called me laughing. He said, Perot, you're not going to 
believe this, but Commander Wallace just called me. The three 
genius doctors are in the room with the sergeant. The sergeant 
is stabilized and today he is back at work in Greensburg, PA 
because generals--General Neal was a Marine general. I didn't 
know this until several months later. They sent a Marine 
general out to find the three doctors. He found them. And when 
I finally got to meet General Neal and thank him he said--he 
made it clear that's why they called in the Marines because we 
get something done. But to make a long story short, that's all 
I've ever seen. Isn't that wonderful? That's what we need to 
have from this point forward even over here on the civilian 
side of these bureaucracies. When you get out in the field keep 
in mind those generals and colonels and admirals would go out 
to rescue a private or a seaman with shots being fired 
everywhere. And if we had that environment in Congress and in 
the Defense Department, the VA, we'll have state-of-the-art 
medical technology that will benefit people all over the world.
    My last comments I want to quote from the chaplain of the 
U.S. Marine Corps. Put it all in perspective. It is the 
soldier, not the reporter, who has given us freedom of press. 
It is the soldier, not the poet, who has given us freedom of 
speech. It is the soldier, not the campus organizer, who has 
given us the freedom to demonstrate. It is the soldier who 
salutes the flag, who serves beneath the flag, and whose coffin 
is draped by the flag. Think of Sergeant Chapman. Great young 
tiger we just lost who allows the protester to burn the flag.
    Now, I think that puts--I know I'm preaching to the choir. 
But that's why we have to do whatever it takes to make sure 
that our people in the military have everything they need, 
including the proper medical shots and the proper after action 
and so on and so forth. And I know that you will do everything 
you can to see that they get it. If I can ever help you in any 
way, don't hesitate to call me. I'll give you a number where 
you can reach me around the clock.
    Mr. Gilman. Mr. Chairman, before Mr. Perot leaves the panel 
table, we can't thank you enough for your good work over the 
years and particularly with regard to this issue. God bless you 
and Semper Fi.
    Mr. Shays. That comes from kind of the dean of this full 
committee, many years of service here. He speaks for all us. 
Thank you for being here.
    Mr. Perot. Privilege to be here and don't hesitate to call 
if I can help.
    Mr. Shays. The committee is pleased to call Dr. Nancy 
Kingsbury who is Director of Applied Research and Methods, 
General Accounting Office, accompanied by Dr. Sharma, Assistant 
Director of Applied Research and Methods, and Dr. Ward-
Zuckerman, Assistant Director.
    Dr. Kingsbury, I want to personally thank you and 
obviously, on behalf of my committee, for your willingness to 
be panel three and not panel two. And also to thank the General 
Accounting Office for the outstanding work that the people do 
99 percent of the time. It's quite a record of accomplishment. 
We are absolutely dependent upon your work. So you're going to 
deliver your testimony and then all three can be prepared to 
respond to questions.
    Ms. Kingsbury. Do you want to swear us in, sir?
    Mr. Shays. I do need to swear you in. I'm a little out of 
practice here. My vice chairman has been doing all that.
    [Witnesses sworn.]
    Mr. Shays. Note that all three of our witnesses have 
responded in the affirmative. Doctor, you may begin your 
testimony.

 STATEMENT OF NANCY KINGSBURY, DIRECTOR, APPLIED RESEARCH AND 
   METHODS, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY SUSHIL 
   SHARMA, ASSISTANT DIRECTOR, APPLIED RESEARCH AND METHODS, 
GENERAL ACCOUNTING OFFICE; AND BETTY WARD-ZUCKERMAN, ASSISTANT 
              DIRECTOR, GENERAL ACCOUNTING OFFICE

    Ms. Kingsbury. Mr. Chairman, I've had a wonderful career at 
GAO and at GAO I've had a wonderful time working with this 
subcommittee on this issue. I have to say that never in my 
wildest dreams did I think I would have to follow an act like 
that.
    So, that said, you have my full statement for the record. I 
would like to briefly read my oral statement. I'll move it as 
quickly as I can. Then if you have any questions that will be 
fine. I think we're all now very anxious to hear the 
researchers who came to join us. So I look forward to their 
testimony as well.
    First of all, I want to say as much as I'm pleased to be 
here, I have to acknowledge that Dr. Sharma, Dr. Ward-Zuckerman 
have been with this issue since the mid 1970's on behalf of 
this subcommittee and others in the Congress. It gives me a 
great deal of pleasure, and I think it gives our institution a 
great deal of pleasure right now, to have help to bring in 
issue to the day when the sunshine could start showing on it. 
And we look forward to a lot more progress being made in the 
future.
    As you know, starting in 1997, 1998 we reported on the 
status of DOD's and VA's monitoring of veterans with symptoms 
that may have been caused by their service in the Gulf war and 
on the research strategy then underway with funding from DOD, 
VA HHS and notably the private sector. At the time, we observed 
that more could be done to monitor the health status of Gulf 
war veterans and whether that status improved or declined over 
time. What treatments were used or possibly useful and we made 
recommendations accordingly. We also recommended that the 
research into the possible role of low level of exposures to 
chemicals and/or the interactions of medical interventions 
during the war be further expanded. I think what we've heard 
this morning is those recommendations were sorely needed then 
and are still needed now.
    In 2000, we reported further on the government's investment 
in Gulf war illness research and observed that basic questions 
about the causes, course of development and treatment of Gulf 
war veterans' illnesses remained unanswered. While a lot of 
research was underway at the time, some studies were taking 
longer than expected or had not yet been released. We made 
further recommendations to improve the scope and effectiveness 
of research and to address certain coordination and contracting 
problems we identified.
    As epidemiological research on Gulf war illnesses, both 
here and abroad, began to be published in the late 1990's and 
2000, some differences emerged in the health status of veterans 
of coalition countries that warranted further exploration. And 
to that end, you asked us to review the extent to which the 
United States the U K and the French had differing perceptions 
of the threat in the Gulf war, of chemical and biological 
exposure, their respective approaches to chemical and 
biological defense and the extent of illnesses reported by each 
country's veterans.
    We issued our report to you on these matters in April 2001. 
Because of your continued interest in these matters, we 
continue to monitor the research into veterans health status in 
each of these countries through the present time, including 
additional visits to the U.K. and France in the fall and early 
winter of 2001.
    Our statement today summarizes our updated assessment as a 
stimulus for you to bring together the key players for this 
hearing.
    We found that the United States, the U.K., and France 
differed in their assessments of the types of weapons of mass 
destruction that Iraq possessed and the potential for its using 
these weapons in the war. For example, with respect to 
biological agents, both the United States and the U.K. regarded 
anthrax and botulitum toxin as potential threats, but only the 
U.K. thought it likely that Iraq would use plague. France did 
not identify any imminent biological warfare threat.
    All three countries thought Iraq might use some form of 
chemical weapon, but they did not agree about the specific 
agents that might be employed. The three coalition members also 
took different approaches to defense against these weapons of 
mass destruction. The sensitive of the detectors they used 
varied widely and the French forces had greater access to 
collective protection and a greater reliance on individual 
protection than other forces.
    In addition, the three countries varied not only in the 
extent to which they used drugs and vaccines to protect against 
the perceived threats, but also in the drugs and vaccines that 
they used and their policies on consent to use them.
    Finally the forces were deployed in different parts of the 
region and experienced different exposure to other 
environmental protections, for example, pesticides or dangers, 
for example, the oil smoke that has been commented about this 
morning.
    With regard to the health of veterans, we found that 
research indicated that veterans of the conflict from the 
United States and U.K. reported higher rates of post war 
illnesses relative to their compatriots deployed elsewhere.
    To date, there is little, if any, evidence of emerging 
health problems in French Gulf war veterans compared to non 
deployed forces although a new epidemiological study is 
planned. The disparity in the numbers of illnesses reported by 
the three countries' veterans do not point unambiguously to any 
single or multiple causative agents. It is accompanied by 
multiple differences in the veterans' reported experiences and 
exposures. This complexity creates significant methodological 
obstacles to achieving definitive research results. 
Nonetheless, recent population-based studies are suggesting 
that there may be a statistically significant correlation 
between the symptoms of illness in Gulf war veterans and 
reported exposure to chemicals and/or vaccines.
    Research continues to emerge, some of it presented here 
today on a variety of hypotheses about the possible causes for 
the various symptoms that have been identified that are only 
just beginning to be explored. We agree that with Mr. Perot, 
that much more work remains to be done with respect to possible 
causes so that problematic exposures or circumstances can be 
avoided in a future conflict, and equally importantly, on 
workable treatments.
    We hope this hearing helps stimulate that much-needed work. 
I want to return because of the questions on the anthrax 
vaccine issue to the recommendations we made to this committee 
just a couple of months ago, that somebody needs to accept the 
responsibility for better monitoring of adverse reactions to 
vaccines under any circumstances. I want to put that back into 
record for the moment. I think I'll end my statement there, Mr. 
Chairman. I'll be happy to answer questions along with my 
colleagues.
    Mr. Shays. Thank you very much.
    Before asking questions, I would like to ask if Derek Lee 
might be present in this room? Is Derek Lee a member of the 
Canadian parliament? If anyone knows where he might be, I'd 
love to speak with him and actually invite him to participate 
in this hearing if he's here.
    Mr. Gilman, would you like to begin?
    Mr. Gilman. Yes. I appreciate your presentation and Mr. 
Chairman, I appreciate our exploring further the anthrax 
question. You heard Mr. Perot's statement with regard to the 
lack of credibility with regard to what we've done with our 
anthrax investigation. And that the anthrax program is still a 
problem. And I recall when your colleague, who is with you 
today, testified with regard to Dr. Sharma, testified with 
regard to anthrax when we were in this subcommittee, under Mr. 
Shays, was fully exploring this problem. Have those problems 
been cleared up? Are we still concerned about the quality of 
the anthrax vaccine? Has the manufacturer really resolved the 
problem today?
    Ms. Kingsbury. You heard Dr. Winkenwerder express his 
confidence that those problems had been resolved. We have not 
seen the evidence that was presented to FDA to reestablish the 
licensure for that vaccine. Until we see it, we're not going to 
be in a position to comment. I think there are questions 
remaining about whether adequate tests have been done on that 
vaccine to assure its safety and efficacy that we would want to 
look at if we were to continue such work.
    Mr. Gilman. Have you requested that information?
    Ms. Kingsbury. We have not because at the moment, we don't 
currently have a pending request for work on that issue. But 
we've been certainly following the information. I don't think 
we get the information until the license was issued.
    Mr. Gilman. I would like to make a request of General 
Accounting Office to pursue that information for us and to 
present it to our committee.
    Dr. Sharma, are you satisfied with what you've seen so far?
    Mr. Shays. Let me make sure that's a request. Is that a 
doable request?
    Ms. Kingsbury. I believe so, sir, but I'm not sure what the 
timing will be on it. We'll have to look into it for you.
    Mr. Shays. So the committee will just expect that will come 
back to the committee.
    Mr. Gilman. Dr. Sharma, have you examined the status now 
bio report and the qualities of the vaccine?
    Dr. Sharma. No, I have not. Because we do not----
    Mr. Gilman. Would you put that mic a little closer to you.
    Mr. Sharma. We have not examined any data that was 
submitted to FDA in support of relicensure of this vaccine. So 
I am not in a position to make any comment about the quality of 
this vaccine today.
    Mr. Gilman. Has that information been requested of the FDA?
    Mr. Sharma. No, because we do not have any request and as 
you're asking, we will try to obtain that information.
    Mr. Gilman. Thank you. Dr. Zuckerman, do you have any 
thoughts about the anthrax quality?
    Dr. Zuckerman. No, there's not an issue I've worked on. I 
said that's not an issue I've worked on.
    Mr. Gilman. That's not an issue that you work on.
    Ms. Kingsbury. These two folks are responsible for two 
different bodies of work for this subcommittee.
    Mr. Gilman. We're very much concerned about the quality of 
anthrax, its impact on the human body and whether BioPort, an 
appropriate agency to provide this anthrax. We welcome your 
pursuing that further for us and presenting your report to our 
committee. With that, Mr. Chairman, I hope that would be 
recognized as a formal request. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman.
    Mr. Platts. No question. At this time----
    Mr. Platts. No questions. Apologize, I need to run to 
another hearing. But do appreciate the testimony that's been 
provided I can take with me.
    Mr. Shays. I appreciate your participation in this hearing. 
Thank you. I think then what we'll do is we'll go to you, Mr. 
George.
    Mr. George. I thank you. The effusion of praise this 
committee directed to Mr. Perot I would wish to direct to the 
General Accounting Office whose work I view from afar and it is 
of exceptional quality. You made the journey over to the U.K. 
seeking information from the British Ministry of Defence. I'm 
sure you were hospitably received. Did you receive the 
information, did you get access to information from the 
Ministry of Defence that you wished--were you satisfied with 
your meetings and the quality and quantity of information and 
has it helped in any way in your pursuit of the cause of the 
Gulf war syndrome?
    Mr. Sharma. I would like to thank you in this regard. 
Because since you intervened on our behalf, we have been 
getting all the information that we need. We have been quite 
satisfied with the quality of the information. And the team has 
made themselves available to us, but we really want to thank 
you for making this possible.
    Mr. George. Well, thank you. Having helped you get more 
information, I must now turn my talents on getting more 
information from my own committee, maybe Dr. Sharma, you can 
reciprocate by helping me, because our Ministry of Defence are 
a wonderful bunch of people but a little bit on the secretive 
side. And we do have one or two battles with them over the 
information we get. I must say how envious I am of individual 
members and a committee being able to elicit information from 
the GAO, which is not something that we have in the U.K. We 
have an excellent counterpart to your organization, but 
responding to individual requests is something we merely aspire 
to.
    A second question I'd like to ask you is this: It sounds a 
simple question but it's--I'm sure the answers are complicated. 
Although I have a healthy mistrust for bureaucrats, which again 
is reciprocated, I am not convinced they are frauds, crooks, 
malevolent, stupid, they've had 10 years to advance----
    Mr. Shays. I'm tempted of what they think of you, though.
    Mr. George. I'm sure they think far worse of us. With some 
justification I might add, Mr. Chairman. After 10 years of want 
of success, why is it because the causes are too complicated? 
And I do recall my ailment of psoriasis, not cirrhosis, 
psoriasis, which the cause is yet to be found. People die of 
cancer after vast amounts of expenditure, charitable donations. 
Is this too big to be solved? Are the researchers in my country 
and yours not up to the task? Should we be more patient? Have 
they misspent money? Is there any justification in the 
conspiracy theories that one hears? Your organization knows 
where the bodies are buried. You know where there's been 
success and where there has been failure. Can you advance to me 
why you think researchers in my country and yours, 
administrators in my country and yours, politicians in my 
country and yours have not yet come up with the goods? Why?
    Ms. Kingsbury. Whatever answer I give will be puneous. I 
appreciate the starting point which is that bureaucrats--and I 
have considered myself proudly to be a career bureaucrat my 
entire 32-year career with the Federal Government--good 
bureaucrats take leadership and try to follow it. And I think 
that's probably what's going on now. We met this morning with 
the secretary of Veterans' Affairs. I was very encouraged by 
what he was saying. I think the people who work for him who are 
good civil servants will listen to him and move with him in the 
direction he wants to go. That's my hope. That is how it's 
supposed to work. That said, in talking to some of the 
researchers who were here today, and I am not a public health 
researcher myself, but I do have methodological background, I 
am persuaded.
    The other thing that's changing is the nature of the 
research is getting much more sophisticated. I'm not sure we 
could have had the findings that are beginning to emerge today 
in the gene area and others in the brain scan area 5 and 7 
years ago. The difficulty is that 5 and 7 years ago, there was 
a tendency to respond to that fact by denying there was a 
problem. And I think that's unfortunate.
    But I'm very encouraged by both the commitment that we seem 
to be hearing, Mr. Perot's healthy skepticism notwithstanding, 
and the development in the science itself. If we can just now 
get some resources invested with the top people, as Mr. Perot 
suggests, the potential for making some real progress not only 
to help the Gulf war veterans, but to help many other people 
suffering from diseases such as ALS that have no viable 
treatment today, we might find a way to help them. I'm happy to 
be alive while that's possibly happening.
    Mr. George. Thank you.
    Mr. Shays. Thank you. At this time we'll recognize Lord 
Morris.
    Mr. Morris. Briefly, and just one question, Congressman 
Shays, can the witnesses say how compulsory it was for U.S. 
troops deployed to the Gulf to have anthrax vaccine? And how 
compulsory it is now for those now deploying, those U.S. troops 
now on active service?
    Ms. Kingsbury. My understanding was that it was compulsory 
for the previously deployed troops and it is compulsory for the 
special forces that are deployed in Afghanistan. I think they 
have pulled back from the compulsory vaccination program for 
much of the rest of the military in recent months, but that's 
because of the shortage of vaccine, not, I think, yet because 
of a change in their view of whether or not the program should 
be compulsory. I think the debate is going to continue with the 
help of this subcommittee I suspect.
    Mr. Shays. This has been a very long battle for a lot of 
people. One of the things that I'll never forget was in the 
process of our committee working on this years ago, there was a 
question whether our troops were exposed to chemical weapons, 
chemical weapons, not chemicals, chemical weapons. And we began 
to notice that they started to say the Defense Department, they 
weren't exposed to offensive use of chemical weapons. And the 
word ``offensive'' began to be a word we noticed.
    Then we found a witness that actually came before our 
committee who was scheduled to testify the next week on a 
Tuesday, where he actually had the videotape of our blowing up 
Khamisiyah, and he actually had pictures of some of the 
projectiles, some of which were, in fact, chemical weapons. And 
so DOD had a press notice at 12 on Friday there would be a 
press conference at 4 on Friday to disclose that our troops 
have been exposed to defensive chemical weapons, in other 
words, in the sense that we had blown up this chemical 
offensive weapons, but it was defensive.
    And they had that press conference. And then when we had 
our hearing on that Tuesday, they acted like, well, this is an 
old story. Well, it wasn't an old story. It was a stunning 
story. But it told us something about the mentality of the 
challenge that the Department of Defense had dealing with the 
whole issue of Gulf war illnesses. I began to conclude that it 
was almost a sense that we wanted people to think that the only 
cost in the war was the money spent in which we actually made 
money from our allies, and the very sad number of people killed 
and injured, some by friendly fire. But it was a small amount 
and we celebrated as a Nation without having to come to grips 
with the fact that some men and women came back sick and 
injured and 10 died. It was almost like they didn't want there 
to be a bad part to the story.
    Well, in my judgment, the only bad part to the story was 
the failure of men and women to have the acknowledgment on the 
part of their own country that they had been injured and in 
some killed in battle, but it was a deferred death.
    So when I read this letter that you received from Dale 
Vesser, acting special assistant sent to Mr. Chan, I wanted to 
know what your reaction was to all of it. Was this business as 
usual? Tell me your reaction, not particularly on that last 
paragraph, that's been dealt with, but whatever you like, this 
is on your document on appendix 7. But it was a one-page 
document responding to your report on coalition warfare, Gulf 
war allies differed in chemical and biological threats, 
identified and use of defensive measures. So this letter that 
Mr. Sanders rightfully was outraged with, what was your 
reaction?
    Ms. Kingsbury. When we get a letter like that, we often 
respectfully request the Department to either clarify it or 
perhaps revise it because it didn't make a lot of sense to us. 
If they don't and they send it to us anyway, we do respond to 
it in the report. I bring your attention to page 24 of the 
report where we said, finally, DOD asserts that health problems 
among Gulf war veterans are common to veterans of many wars 
over the past 130 years, and the result of multiple factors not 
unique to the Gulf war.
    We note that our report draws no conclusions regarding the 
cause or causes of health problems reported by veterans of the 
Gulf or other conflicts. We were just saying more research 
needed to be done. Nevertheless, we were hesitant to compare 
clinical data across two centuries or to draw a conclusion by 
comparing the illnesses of military populations from different 
historical periods.
    In other words, we answered it routinely, 
straightforwardly, and to some extent, a little bit 
bureaucratically. We didn't think it was, frankly, worth 
arguing about.
    Mr. Sanders. Can I jump in? Let's see if we got it right. 
Mr. Perot urged us to do some straight talking, so let's talk 
about straight talking. They just told us, the DOD told us they 
spent $300 million on research. I interpret what Mr. Shays just 
told you as to say Gulf war illness does not exist, the same 
problems exist after every single war. There is no specific 
problem called Gulf war illness. Is that a fair interpretation 
of that letter?
    Ms. Kingsbury. That's certainly the implication of the 
letter, yes, sir.
    Mr. Sanders. Give us your opinion of an agency that has 
spent $300 million on research who presumably remains in the 
lead in research and basically tells us, we're doing the 
research, we're spending taxpayer money, we don't believe 
there's a problem. Can you tell us why you think the U.S. 
Congress should continue funding such an agency?
    Ms. Kingsbury. There is--thanks for the laughter. It gives 
me a minute to think. I look back on that decade of research 
with every bit as much disappointment, sir, as you do. You 
would have thought we would have gotten further for that amount 
of money. I can only come back to the table and say we can only 
hope that the new initiative that Secretary Principi mentioned 
this morning, the new advisory council revisiting what this 
research ought to be combined with the improved sophistication 
of the research methodologies available would suggest that if 
we continue to invest in this going forward, we will make more 
progress in the next few years. That's the only thing I can 
hope.
    Mr. Sanders. My point is I respect people who say hey look 
we don't believe it. That's OK. But why if they don't believe 
it, why do we continue trying to tell them to do work in areas 
they don't believe and take that money and give it to people--
there are people in this room who very seriously believe that 
there is a thing called Gulf war illness, and the tens of 
thousands of our people are suffering from that. I don't know 
why we would want to continue giving another nickel to people 
who don't believe there's a problem.
    Ms. Kingsbury. I think you have a good point and those 
decisions are Congress's to make.
    Mr. Shays. Now that was a bureaucratic answer.
    Ms. Kingsbury. I know where I am not supposed to go, sir.
    Mr. Shays. Actually, you're totally right. It is our 
decision. You gave a very straightforward answer actually. I 
was just poking fun.
    In the report--in what letter it made reference to French 
veterans and their experience. Why do you believe French 
veterans have not reported as many illnesses since the conflict 
as the U.K. and the United States?
    Ms. Kingsbury. I'm not in a position to talk about single 
causes. It's clear they treated their veterans differently with 
respect to their exposure to medical countermeasures. It's 
clear that the veterans, French veterans were deployed in 
different places and may have had different exposures. It's 
clear that they had better collective and individual 
protections strategies, vis-a-vis medical countermeasures as a 
choice to deal with these threats. Somewhere in that mix of 
differences, some of those answers lie. But we don't have 
enough information to say what it is.
    Mr. Shays. OK. In your testimony, you said according to 
studies in both the U.K. and the U.S. veterans of the Gulf war 
who reported receiving biological warfare inoculations for 
anthrax or other threats were more likely to report a number of 
symptoms than non Gulf war veterans who did not report 
receiving such inoculations. This pattern was observed in data 
collected in the United Kingdom in an unpublished data 
collected by the U.S. Department of Veterans Affairs. Why do 
you think the VA has not published its finding regarding the 
link between advance symptoms and the anthrax vaccination?
    Ms. Kingsbury. I don't know why they didn't publish it. We 
are aware of it. We have asked them. They said to us what they 
said to you this morning, things about the analysis not being 
completed and that sort of thing. I'm not in a position to 
second-guess it. We consider it to be valid, useful information 
that ought to be in the public domain.
    Mr. Shays. Other challenges we have is the Inspector 
General, a few years ago, did a major study on our mask, our 
protective masks in the Army and determined that these new 
masks that only about 40 percent of them actually did not 
function properly. And I was prevented from disclosing that 
information because they kept that information--they said the 
same thing you said, further study was necessary. And about 8 
years later, we had further study and it pretty much affirmed 
what the Inspector General had found that the masks we had our 
soldiers take--excuse me, use, they didn't know how to store it 
well, they didn't know how to maintain it as well as they 
should. And that, but even the new masks did not meet the 
standards that they had been required and under contract to 
provide.
    And so when I hear that kind of response, more study 
needed, I just wonder in the light of our having to depend on 
BioPort for anthrax, if this isn't an effort to just kind of 
put off that dialog until it's more convenient for the military 
to deal with it.
    So at any rate, Dr. Sharma, do you have any sense of it?
    Mr. Sharma. No, I think Nancy has answered just about 
everything you had asked.
    Mr. Shays. Now, do you have any questions you want to ask?
    Lord Morris. Referring to the destruction of Iraqi weapons, 
my understanding is that the agents released were sarin and 
cyclosarin. Do you have any comments on the significance of 
that action?
    Mr. Sharma. In one of our reports--and we'll be happy to 
send you a copy of this report; we did this at the request of 
Chairman Shays--we looked at what does the research show about 
the health effects of low-level exposure to chemical warfare 
agents. We did the study because the committee was told in 
absolute terms that there are no health effects and there is no 
research or data that shows that low-level exposure to chemical 
warfare agents could have any effect.
    But we looked at the published literature, and most of the 
research that we looked at was DOD because this is kind of the 
stuff--you know, you just don't see it on the street--and that 
research showed that low-level exposure, to sarin particularly, 
has adverse health effects, and these effects essentially 
affect different categories of troops.
    For example, pilots who have a very specific function to 
perform and their tasks are very carefully monitored, they 
experience myopia. And because of that, the Air Force concluded 
that these effects are very serious because it will impair 
their ability to land or target.
    So, yes, we did find some evidence to show that sarin does 
have long-term adverse health effects.
    Have I answered your question?
    Lord Morris. Yes.
    Mr. Shays. Before recognizing my colleague from Great 
Britain, Mr. George, most State legislators have great 
experience in the whole issue of low-level exposure to 
chemicals because we pass laws dealing with occupational health 
and safety, protecting the worker in the workplace from low-
level exposure to chemicals.
    And it's almost like there's a different mind-set at the 
military that somehow those same basic concerns that apply to 
the general worker in the work force shouldn't apply to our 
military; and if anything, they should apply even more so 
because the military is ordered to.
    So I think of one of our constituents in Connecticut who 
spent every day for--day in and day out, 8 hours a day, in a 
tent that had no ventilation, spraying Iraqi prisoners with 
chemicals that in the United States of America we would not 
allow them to do--not to spray for 8 hours and certainly not to 
be ventilated.
    And he was under orders, and by the way, he passed away.
    Mr. George.
    Mr. George. Thank you. In your latest report you indicated 
that very, very few French veterans have been subject to this 
debilitating ailment--disease. And the French Government, 
probably because there haven't been many problems, hasn't done 
very much research.
    Would French research on a more significant level give 
American or British researchers greater insights into the 
ailments within--amongst veterans? I had thought that it was 
the French obsession with garlic.
    Garlic was a very useful protection in Romania, as I 
recall. But their lack of proximity to the action might be an 
explanation.
    If somebody else--if Mr. Perot funded French research, 
would that give you more of a chance of understanding what the 
problems are now, to deal with them?
    Ms. Kingsbury. First of all, I think our experience in 
looking at the French situation, while they have not done 
research until recently, their veterans' organizations were 
very public about looking for these kinds of problems, and the 
availability of compensation was well known. So my own best 
guess is the research will not uncover a whole lot more.
    That said, systematic research into what their exposures 
were, what their experiences were, what their medical 
conditions are, by contrast if nothing else, may be helpful in 
further informing the U.K. and U.S. research. I will leave that 
question to the researchers themselves to answer with more 
sophistication than I can, but I can't imagine it wouldn't be 
at least somewhat helpful.
    Mr. George. I would like to have Mr. Perot offer advice to 
our French colleagues.
    One last question, if I may: GAO identified differences 
between the United States, U.K. and France in the use of 
medical countermeasures. Now, in the U.K., the Ministry of 
Defence is conducting a vaccines interaction research program 
at our chemical weapons research establishment at Port Down to 
assess whether the combination of NAPS tablets and vaccines 
might have given rise to adverse health effects. This research 
is not due out until next year.
    Has there been any similar research been undertaken in the 
United States?
    Mr. Sharma. Not to the best of my knowledge.
    Mr. George. And last, very last, is the GAO evaluating care 
and treatment programs for Gulf veterans to assess which ones 
work best to alleviate the symptoms of ill health?
    Mr. Sharma. We made a recommendation to the Department of 
Defense and the Veterans' Administration to monitor patients 
over time to see if they are getting better or worse. Typically 
they are in much better positions because they have the medical 
data bases. They are seeing the patients. And their response 
was that it's a very difficult thing to do to monitor people 
over time.
    We have, you know, not monitored them over time. But we 
have looked at the research, you know, which essentially is 
showing over and over that there seem to be more sicker than 
those who were not deployed.
    Mr. Shays. I thank all of you for your testimony.
    Dr. Kingsbury, any last word before we get to the next 
panel?
    Ms. Kingsbury. Thank you again for the opportunity to 
participate, sir.
    Mr. Shays. We always appreciate your work and thank you 
again, as a government official, for allowing another panelist 
to go ahead of you.
    It's my pleasure now to introduce our final panel and to 
express to each of them their patience in waiting to testify. 
Dr. Goran Jamal, Imperial College School of Medicine, London 
University; Dr. Nicola Cherry, Department of Public Health 
Services, University of Alberta; Dr. Robert Haley, Southwestern 
Medical School, University of Texas; Doctor Lea Steele, Kansas 
Health Institute; Mr. James Tuite III, chief operating officer, 
Chronix Biomedical, Inc.; Dr. Howard Urnovitz, scientific 
director of the chronic illness research foundation.
    This is an outstanding panel. We could have each of you 
testify on your own. I appreciate your willingness to testify 
with each other.
    I need to swear you all in. If you would rise, please.
    [Witnesses sworn.]
    Mr. Shays. For the record, all our witnesses responded in 
the affirmative.
    All of our panels are very important, and this panel is 
equally as important as the preceding ones. You all have an 
advantage in one sense. You have heard testimony that has been 
given to the committee by others, so you know in the course of 
testifying if you want to make reference to anything you have 
heard, or any question. You know, we welcome that; that's 
helpful.
    And I would also say to any panelist who had spoken before, 
if you want to address this committee with any footnote of some 
comment, we welcome that as well. So if you have heard 
something in the other panels that you think you need to make a 
comment on, that helps us do our job better.
    Dr. Jamal, I think you are first. And we are going to try 
to be close to the 5 minutes. And obviously you may run over a 
little bit.

 STATEMENTS OF GORAN A. JAMAL, M.B., Ch.B., M.D., Ph.D., FRCP, 
 IMPERIAL COLLEGE SCHOOL OF MEDICINE, LONDON, ENGLAND; NICOLA 
    CHERRY, M.D., Ph.D., FRCP, DEPARTMENT OF PUBLIC HEALTH 
SCIENCES, UNIVERSITY OF ALBERTA, EDMONTON, ALBERTA, CANADA; DR. 
ROBERT W. HALEY, M.D., UNIVERSITY OF TEXAS SOUTHWESTERN MEDICAL 
    CENTER, DALLAS, TEXAS; LEA STEELE, Ph.D., KANSAS HEALTH 
INSTITUTE; JAMES J. TUITE III, CHIEF OPERATING OFFICER, CHRONIX 
  BioMEDICAL, INC.; AND HOWARD B. URNOVITZ, Ph.D., SCIENTIFIC 
         DIRECTOR, CHRONIC ILLNESS RESEARCH FOUNDATION

    Dr. Jamal. Yes, Mr. Chairman, I will try my best.
    Mr. Chairman, members of the subcommittee, Right Honorable 
Bruce George and Lord Morris, it's a great honor to be here 
today to discuss the involvement of myself and my research team 
on studies of the Gulf war syndrome and related subjects.
    I should perhaps begin by stating something about my 
background. I am a consultant neurologist and senior clinical 
lecturer and London and Glasgow Universities since 1988. My 
qualifications are M.B., Ch.B., M.D., Ph.D., FRCP. I head an 
active research team and have written two theses and more than 
145 original publications.
    Mr. Shays. Let me say this for the advantage of all the 
witnesses. You're here because you are truly experts. So I 
don't want you to take your 5 minutes to document that. And we 
are going to start the clock over, but we really--I can't 
emphasize enough, you are all pros, you are all experts and 
that's why you're here.
    Dr. Jamal. In 1993, we completed some research concerning 
possible long-term effects of organophosphate compounds, and 
these findings were serious to our scientists from three 
British Ministries of MAFF, the Department of Health and Health 
and Safety. Following advice, the government of the day formed 
the medical and scientific panel with representations from the 
three government departments in February 1994, to which I was 
appointed. Soon afterwards, I became concerned about the 
quality of advice given to ministers on the subject.
    In 1995, we were selected from amongst 12 major regional 
neuroscience centers by a joint scientific committee of the 
three government departments to conduct extensive research on 
possible long-term effects of organophosphate compounds. In the 
meantime, my expert advice was sought in some British and 
international British legal courts for organophosphate-related 
neurological damage. The Medical and Scientific Panel committee 
tried to enforce a new code of conduct in late 1996, which 
would have effectively prevented me from providing expert 
advice to the courts.
    As a result, I resigned from the committee in December 
1996. This was accompanied by media publicity highlighting 
faults in the system of provision of impartial and unbiased 
scientific advice to responsible ministers, and the secrecy and 
closed-shop style surrounding such a system. And as a result, I 
was awarded the 1997 award of the Freedom of Information 
Campaign in Britain.
    All attempts by labor ministers after 1997 to reinstate me 
on the committee were unsuccessful. A nomination by the Royal 
College to go on the committee was also turned down.
    In early 1997, largely through my expert evidence in 
courts, two major cases were won in Australia and Hong Kong. 
And I won't go into the details of this, Mr. Chairman, because 
it is in the long version of my submission.
    Our involvement in Gulf war syndrome started around the 
middle of 1994 with a study completed in February 1995 and 
eventually published in March 1996. That was the first study on 
Gulf war syndrome published. We found evidence of neurological 
abnormalities and markers of neurological dysfunction in a 
group of veterans compared with an age-and-sex matched control 
group. We discussed the possible potential causes and called 
for further neurological research.
    We used sound methods, which we used and extensively 
published in peer review journals. We sent a copy of our 
findings to the Minister of Defence in May 1995 and welcomed 
any discussions on the findings. We were visited in August 1995 
by a delegation headed by Wing Commander Bill Cocker, who was 
the head of the medical assessment program in Britain. 
Following the visit, Bill Cocker recommended referrals to our 
department and that our work should be supported. This was 
ignored, and a year later he was transferred to another post 
outside of the U.K., away from the medical assessment program.
    The publication of our paper in March 1996 attracted huge 
national and international media attention and it was followed 
a month later by publication of an important study on 
neurological damage in an experimental animal model from Duke 
University in South Carolina.
    Following this, I was invited to one meeting at the MOD in 
which I was promised supply of pertinent information and 
support, but none of that materialized. At that meeting, I 
raised the question of organophosphate use, which was 
dismissed. I pushed for this information through a 
parliamentary question, and in October 1996, the then-Minister 
of Armed Forces, Nicholas Soames, conceded that the country and 
Parliament were misled about this matter.
    It's ironic that not only before but even after such 
announcement, and while we were heavily involved in research on 
the long-term effect of organophosphates on behalf and through 
funding of three government departments, the MOD has never 
sought our advice about this to date.
    In January 1997, Dr. Haley's works were published. This was 
high-quality research in several papers which confirmed and 
shed favorable light on the nature and extent of the 
neurological damage. Dr. Haley's group have published several 
more high-quality papers since then on the subject.
    In addition to repeated requests on every available 
opportunity for funding, we have made several formal written 
and detailed proposals for research. These included submission 
to the MOD in 1995 and 1996, a joint proposal with the 
Institute of Occupational Medicine in Edinburgh, to the MRC 
committee in 1996, a joint proposal with Oregon University and 
two other U.S. institutions to the U.S. Department of Defense, 
and a joint proposal with 15 other senior academics from five 
British universities to the MOD.
    All proposals have been turned down. No explanations have 
been forthcoming as to the reason, even to questions from 
members of both houses. The MRC has failed even to provide a 
written reason for refusal or even an indication whether the 
proposal was put through the customary referring process. In 
the case of joint U.K.-U.S. proposal of 1995, the MOD did not 
agree to provide us with a satisfactory letter of support.
    We continue to do research with limited resources, the only 
source of this being an income from royalties from equipment 
invented by myself in the late 1980's; and I have donated 
entirely the proceedings of that for the research fund.
    We have published a total of eight papers on the subject 
and related subjects. Our most recent paper is on abnormalities 
of the autonomic nervous system in Gulf war veterans. This is 
part of the nervous system that autonomically, i.e., outside 
the individual's control, regulates the functional conduct of 
all the vital internal organs during rest, exercise, and 
physical as well as mental challenges. Its proper functioning 
is absolutely vital for the well-being of every individual.
    We have found a unique pattern of autonomic lesion in these 
people, which points to a possible underlying neurotoxic cause. 
Our autonomic findings explain many of the incapacitating 
symptoms. We have also jointly examined with the Cyclotron Unit 
of the Hammersmith Unit in London two veterans using a carbon-
11-labeled biomarker of neurotoxicity.
    This is a very expensive technique, Mr. Chairman. Using PET 
scanning and ligand binding, we found a unique pattern of 
neurological damage. We need funding to pursue this further and 
we need to study larger numbers with this expensive technique.
    We think that the underlying cause of Gulf war syndrome is 
multifactorial, as mentioned in our first publication. And 
today, more than 6 years later, this still stands as the most 
plausible explanation. In order to go forward, we need to have 
bi- or multinational studies, combining mechanism and causative 
research, carefully interlaced with proper epidemiological 
surveys. Such has been successfully applied in our studies on 
the long-term effects of organophosphates.
    We would very much welcome the opportunity to put our ideas 
into research and in close collaboration and liaison with Dr. 
Haley and other groups in the United States, both to reproduce 
their valuable work on the U.K. and European scene, as well as 
to proceed further ahead. This is important not just to 
understand the illness of the veterans so that we find best 
ways to treat them but also to help in designing proper medical 
protection programs based on best science against likely 
potential threats on the health of troops in the future and 
similar circumstances.
    Mr. Chairman, that concludes my statement. I will be happy 
to answer any questions.
    Mr. Shays. Thank you. I'm sorry I made you read so quickly. 
You have come all the way from Great Britain, and it's an honor 
to have you before our committee.
    [The prepared statement of Dr. Jamal follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.050
    
    [GRAPHIC] [TIFF OMITTED] T2953.051
    
    [GRAPHIC] [TIFF OMITTED] T2953.052
    
    [GRAPHIC] [TIFF OMITTED] T2953.053
    
    [GRAPHIC] [TIFF OMITTED] T2953.054
    
    [GRAPHIC] [TIFF OMITTED] T2953.055
    
    [GRAPHIC] [TIFF OMITTED] T2953.056
    
    [GRAPHIC] [TIFF OMITTED] T2953.057
    
    [GRAPHIC] [TIFF OMITTED] T2953.058
    
    Mr. Shays. Dr. Cherry.
    Dr. Cherry. First, could I thank the committee for inviting 
me to speak? I am here in my capacity as principal investigator 
of one of the U.K. studies. I am a epidemiologist and a 
physician and have spent most of my working life looking at the 
effects of chemicals on the nervous and reproductive systems.
    Mr. Shays. You have been doing what?
    Dr. Cherry. Principal investigator of one of the key U.K. 
studies of Gulf war.
    Mr. Shays. You have been spending ``most of your life''; 
that's the part I wanted to make sure I heard.
    Dr. Cherry. Most of my working life looking at the effects 
of chemicals on the nervous system and the reproductive system.
    Mr. Shays. That makes you fairly unique in the world. We 
lost so many experts in that area. Thank you.
    Dr. Cherry. With that background in interest, we responded 
to a call from the Medical Research Council to put together a 
proposal to carry out an epidemiological study of Gulf war 
veterans, the same research Dr. Jamal put in his proposal.
    This was in two parts. The first was a large questionnaire 
study of people who went to the Gulf and those who didn't to 
look at the extent to which those who went to the Gulf were in 
good health and see if we could identify exposures that might 
be responsible. And the second part of the study was to look in 
detail at people who have become ill, and to try and identify 
what the illness was and to document as best we could, with the 
help of the MOD or other sources, what the exposures have been.
    At the time we put the proposal in, it was approved and 
both stages were approved. But in practice, the funds didn't 
become available to do the second stage. So I can only talk 
today on the questionnaire study. And as you all be aware 
questionnaire studies, as such, have their limitations. They 
can generate hypotheses. They can identify problems. But they 
are not necessarily the best means of answering those problems. 
What we found--and I will be very brief about this because it 
is in my written testimony and in the published papers--we 
found, indeed as I think probably every other study has done, 
there was an excess of ill health in people who went to the 
Gulf.
    I perhaps should say a word here. I think the 
epidemiological studies that have been done both in the U.K. 
and the United States have been excellent. There have been 
difficult questions. On the whole, the quality of the 
epidemiological logical work has been first rate, including 
people on this panel.
    We found, as I say, from that study that people who have 
been to the Gulf perceive themselves as having health problems 
to a much greater degree than people who haven't. And 14 
percent of those people with ill health, we felt that was 
attributable to their direct experience in the Gulf--14 percent 
had got ill health.
    We also looked at the self-report exposures. And by setting 
up very harsh criteria we were able to produce relationships 
that we felt were defensible in every way except self-report. 
And there we found, as has been referred to here, exactly the 
same pattern which was found by Dr. Wesley in the U.K. troops, 
that with increasing numbers of vaccinations was increase in 
health. And I think that is quite an independent study, and 
that it is fortunate that we are in a position to be able to 
say we are getting exactly the same finding.
    Again, as has been mentioned in the last few minutes, we 
know the vaccines used weren't identical. It is interesting to 
hear that similar data may be existing in the United States, 
but we haven't actually yet seen it.
    The other major result that we reported related to people 
handling pesticides, which is a relatively small group of 
people who went to the Gulf in the U.S. forces, probably about 
6 or 7 percent, not a large number, who 8 hours a day or for 
substantial periods of their time were handling these 
pesticides. And they had neurological symptoms that were 
consistently related to the handling of pesticides. Those were 
the main results of that epidemiological study.
    We also carried out the first stage of the U.K. mortality 
study, which was carried out 8 years after the Gulf. And at 
that point, we weren't able to identify significantly great 
number of deaths in those who had been to the Gulf. But 8 years 
is too soon to have found the sorts of illnesses, such as ALS 
and cancers, we have been looking at.
    The second part of the proposal wasn't funded, eventually; 
and in that, one of the many good things we wanted to do was to 
assess whether we could find objective signs of neurological 
damage to work with the MOD and elsewhere to get information on 
exposures that might help us look at the strength of that 
relationship. Since we couldn't, at that point, take that 
forward, we did--in fact, were able to look at another group 
which has lessons for the Gulf war, I think. And this was 
initially put actually to the MRC-MOD panel who was possibly 
funding this work that wasn't funded.
    I responded to the Chair's comment about protecting the 
health of workers, because it was the U.K. health and safety 
executive who was prepared to fund the work that we are now 
reporting, which was looking at the effects of organophosphates 
on people who were exposed to sheep dips, which is a big issue 
in the U.K.
    Mr. Shays. Exposed to what?
    Dr. Cherry. In sheep dipping. You dip the sheep so they 
don't have skin problems. This is a study which is now 
completed.
    Mr. Shays. I have been wondering if my two colleagues from 
Great Britain have had trouble understanding your accent.
    Dr. Cherry. The colleagues from Great Britain have?
    To cut a long story short, the sheep dippers who have 
become ill after handling the organophosphates do have a 
different genetic makeup. They don't simply express the gene. 
The genetic polymorphises are different than those who become 
ill. I would hope that it would appear by today, but it will be 
appearing in an answer in the next 2 weeks.
    That's all I want to say in terms of our research.
    Could I just say one thing about why I think it is perhaps 
difficult to get research funded? The epidemiology has been 
good, and so there is a question about why it has been 
difficult for, I think, everybody who has been here today, 
difficulty to get the funding to followup the hypotheses that 
have been generated by the research. And I think there are 
obviously three possible reasons.
    One is the one, and I like the phrase ``the stress team'' 
being against it. I think part of the problem is that many of 
the hypotheses go into areas of basic research where the people 
who are asked to advise on the research aren't really aware of 
the background to the Gulf war. To do research on the Gulf war 
we had to be very open-minded. There may be things that are 
happening--maybe something new is happening; we have all made 
that commitment, to have an open mind--the review doesn't 
necessarily come from that position--and second, though we have 
to be very open-minded about the hypotheses, we're going to 
test. We mustn't throw out science at the same time.
    So there is a dilemma. You have got to have studies that 
can test the hypotheses. There's no point in doing the studies 
if, in the end, you've got no answers. So you somehow have to 
get people who are sufficiently open-minded about the 
hypotheses, but good in the science and also able to review the 
research and give it credibility in the scientific community.
    I am sitting here today feeling very privileged to have 
been appointed yesterday to the Research Advisory Committee on 
Gulf War Illness, as I think the next two witnesses have been. 
And perhaps in that position we'll be able to affect both the 
open-mindedness in testing the hypotheses and the quality of 
the research.
    Thank you.
    Mr. Shays. Thank you very much, Dr. Cherry.
    [The prepared statement of Dr. Cherry follows:]
    [GRAPHIC] [TIFF OMITTED] T2953.059
    
    [GRAPHIC] [TIFF OMITTED] T2953.060
    
    [GRAPHIC] [TIFF OMITTED] T2953.061
    
    [GRAPHIC] [TIFF OMITTED] T2953.062
    
    Mr. Shays. And, Dr. Haley, good to have you here. And you 
have the floor.
    Dr. Haley. Well, what I want to do is very briefly describe 
some of the main findings that we have come up with, 
emphasizing the key finding in science, which is the ability 
for others to replicate your work. That is the key thing.
    I would submit that--in fact, I am going to disagree very 
dramatically with Dr. Feussner's comment. I read these this 
morning, and I was dismayed and shocked with what I see as a 
piece of scientific fraud, and I am really, really upset. This 
is a white paper.
    I don't know if Dr. Feussner intended this as some sloppy 
staff work, but basically they have minimized our work, the 
work of physical scientists and emphasized their work in very 
dramatic ways, including complete inaccuracies of what we have 
done, leaving out key aspects, suppressing published data. And 
I just think that you should be shocked by this; and I would 
like the opportunity to reply to this in a detailed manner 
later.
    But let me----
    Mr. Shays. Let me say that would be very helpful to us, and 
you might have an opportunity to come back to publicly talk 
about that.
    Dr. Haley. I would love to, because part of the problem 
that we have holdovers from the last administration is during 
the stress era that Mr. Perot referred to, and these people are 
selectively quoting literature. They are masking findings. They 
are withholding their own findings that would bear importantly 
on these issues if they don't agree with the stress policy. And 
I am just fed up with it.
    I think it is scientifically dishonest. In fact, in 
academia we would call this scientific misconduct, and they 
would be eliminated from the faculty if they did stuff like 
this.
    Let me show you some findings. This was the main finding 
from our initial study. We collected symptoms of 249 members of 
the Seabees battalion. We applied a well-known technique called 
factor analysis that attempts to see if there is a structure to 
the data, if there are actual Gulf war syndromes that would be 
structured that would reflect those.
    This shows the factor analysis, and you see there are three 
very high points on this graph. I won't go into all the 
details, but this is a result of the factor analysis showing 
there appear to be three clinical entities, three unusual 
clusterings of symptoms that could well be--three possible Gulf 
war syndromes.
    In this document they say on page 13 that there are no Gulf 
war syndromes, no evidence of Gulf war syndromes.
    In fact, aspects of this have been replicated by the CDC 
study that found the first and third syndromes. The British 
study found the first and third syndrome, and those two studies 
didn't ask the questions that would have found the second 
syndrome.
    Dr. Kang at the VA previewed a study 3 years ago at the 
Conference on federally Sponsored Research in which his factor 
analysis of 10,000 Gulf war veterans and 10,000 nondeployed 
veterans replicated the same thing, exactly the way we had it. 
And the identities of those three--the symptom characteristics 
of these three were almost identical to what we found.
    Moreover, he found No. 2, the second syndrome, which in our 
study was the most serious. And people who were exposed to 
nerve gas, had nerve gas exposures around where the alarms went 
off were seven times more likely to have this syndrome 2 in our 
study. Dr. Kang's study showed that; in his study, this was the 
most serious also.
    It was a neurological-type syndrome, and it was 6.9 times 
more likely in people who were exposed to nerve gas. He found 
the identical thing we had; and yet 3 years later, that study's 
not published. It has been withheld from publication.
    This study says there is no evidence that there is a Gulf 
war syndrome. Well, in fact, there's evidence there are three 
Gulf war syndromes at least; and the second one--there's two 
studies, including their own study, that Dr. Feussner and his 
staff are aware of, that shows the second one is highly 
associated with nerve gas exposure. So I take complete issue 
with this.
    Now, the second point is, we looked at the possible genetic 
predispositions to this problem. There is an enzyme called 
paraoxynase, the PON enzyme that you have heard of, 
particularly the Q form of this enzyme. This enzyme's only 
purpose in the toxicological area is protecting your brain from 
nerve gas. It doesn't help you much against common pesticides. 
It's very, very specific.
    Our theory was that the reason people, some people got sick 
and others didn't is that some people were born with low levels 
of this body enzyme. So when the nerve gas cloud came over, 
they would be the ones who would be damaged.
    Here's the results that suggest that. These are our 
controls, syndrome 1, 2 and 3, those same three big dots. Here 
is the level of that enzyme in the blood. And that level of 
enzyme--whatever you have today what is you have all your life. 
It doesn't change day to day.
    What we see is, the controls are distributed primarily here 
above about 70 on this scale, as you can see. And the syndrome 
2, the most severe ones, the ones where there is a strong 
association both in our study and Dr. Kang's unpublished study 
associated with nerve gas, these guys have very low levels of 
PON. This means that these were the ones who were unprotected 
by their own body enzymes.
    So this not only explains why some people got sick while 
others working right next to them didn't, but it also links the 
disease to the cause. This suggests that sarin is the cause 
because that's all this enzyme does, protects you from sarin.
    So if it wasn't sarin, why would this relationship be true? 
This work has been addressed by Dr. MacNess and others at the 
University of Manchester. They have a similar finding, but not 
exactly. There are differences that we are still working out. 
But this is a promising research that was not mentioned by Dr. 
Feussner's commentary. He just left this out, which is one of 
the most important findings of the entire investigation.
    Third, as to the nature of the brain injury, what causes 
the symptoms in Gulf war syndrome and what we hypothesize by 
knowing the symptoms--the neurologist will look at the symptoms 
a person has and they will ask, now what part in the brain or 
what part of the body, if you had an injury there, would 
explain these symptoms?
    Well, if you have difficulty in concentrating, you have 
pain that isn't related to the body, if you have chemical 
sensitivities, if you have all of these symptoms of the Gulf 
war syndrome, what is the one organ, if you could injure it, 
that would produce all of those symptoms? It's the brain. In 
fact, it's not just any part of the brain, it's the deep brain 
structures, specifically--here is a side view of the brain--
specifically, these deep brain structures down in here, the 
brain stem and the basil ganglia. These are the areas that if 
they are damaged, they will produce the symptoms of the Gulf 
war syndrome.
    We also know that sarin and other organophosphates have a 
selective effect on these areas. They are most likely to affect 
this area of the brain.
    What we did is, we did the standard brain imaging called 
Magnetic Resonance Spectroscopy. It is like an MRI scan, but 
it's an MRS scan that measures the chemical composition of a 
specific area like this. And we put a box right there in the 
brain stem. We put another one in the basil ganglia and we did 
the scan and found the chemical signature.
    Now, here's what you find when you do such a scan. You see 
these squiggly lines; each one of these peaks tells you the 
concentration of a certain chemical in that part of the brain 
that you're studying. And this big peak here is called NAA. 
What happens is in diseases like multiple sclerosis, strokes, 
Alzheimer's disease and areas where the brain is sick, those 
brain cells show a reduction in NAA. And if that disease is 
cured and those cells recover, NAA goes back up. So it is a 
good barometer of the health of those neurons.
    This is a typical scan of one of our controls, one of the 
well veterans who does not have Gulf war syndrome, and you see 
a very large healthy peak of NAA. Here is the peak in a veteran 
with our syndrome 2, the Gulf war syndrome that both our study 
and Dr. Kang's study show is 6 to 7 times more common in people 
who were exposed to nerve gas.
    What we see is a dramatic reduction, and this is true 
throughout the group with syndrome 2. They all have this 
reduction indicating those brain cells in these deep brain 
structures are injured and sick. And that is just the area that 
would account for the symptoms.
    Now, in here, Dr. Feussner says without even mentioning who 
did this study, that there is some little pilot study including 
only 12 veterans and they found something having to do with 
brain chemistry. In fact, this had about 40 patients in it, not 
12 patients. It has a very, very strong finding.
    And then he says we have funded another study at the 
University of California San Francisco to try and see if this 
is true. That is a complete fabrication. When we published this 
study--actually presented it to scientific meetings, the 
Radiological Society of America about 1\1/2\ years ago, Dr. 
Michael Weiner of the University of California at San 
Francisco, who is the No. 1 magnetic resonance spectroscopy 
brain imaging expert in the world--he has written most of the 
literature on this, using this technique in the brain--he 
called me up and said, Dr. Haley, I doubt your findings; I want 
to disprove you. And as we do in science I said, That's great; 
what can I do to help?
    I flew out about 3 days later and showed him how to pick 
our syndrome 2 patients, the ones with the nerve gas exposure 
profile. I showed him how to pick the patients so he would pick 
them exactly right--went to his clinic and picked 11 Gulf war 
veterans with syndrome 2; and he picked 11 controls, and we 
shared our exact brain scanning protocol with him so he would 
do it exactly the way we did it. He put one of these little 
boxes right in the basil ganglia like this, used MR 
spectroscopy and got the same thing we did. That is a direct 
replication of our findings.
    In science that is extremely important. We have letters 
going back and forth from Senator Rudman's Presidential 
oversight board saying, Don't fund Haley's work until someone 
replicates it. This has been directly replicated, and we are 
still in the hold-out mode; and they are still saying that this 
isn't replicated, we're going to replicate it maybe within 5 
years. This study can be done in 3 months.
    There's a lot more to this, but what I'm saying is, this is 
what we're putting up with. The reason you don't have the real 
scientific world working on this is because this is the kind of 
stuff you get. You get these bureaucrats in here basically 
minimizing your work, lying, saying the things that have been 
done have not been done and trying to give a completely skewed 
picture.
    By the way, most recently, unpublished yet, we have 
recently completed two studies that directly replicate Dr. 
Jamal's work, his original study using quantitative sensory 
testing. We have shown that there is exactly the same pattern 
he found in Gulf war veterans in the U.K. versus controls. We 
found the same thing in American veterans. And also his 
autonomic findings he just published, we have a study ongoing 
that shows exactly the same thing, that the brain areas injured 
by chemical exposures, or whatever else, in these deep brain 
structures have affected primarily the autonomic nervous 
system, the sympathetic and parasympathetic nervous system. And 
we've now got very strong evidence that is now functioning in 
these veterans, so we now have replication.
    I would love the opportunity to respond in detail and show 
you what an unfortunate----
    Mr. Shays. You have that commitment. Done. If you come 
before the committee, you have that commitment as well.
    I have totally lost control of this panel and I guess I 
asked you to do the impossible. So I am going to concede that 
better judgment told me I should allow you to go beyond 5 
minutes.
    [The prepared statement of Dr. Haley follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.063
    
    [GRAPHIC] [TIFF OMITTED] T2953.064
    
    [GRAPHIC] [TIFF OMITTED] T2953.065
    
    [GRAPHIC] [TIFF OMITTED] T2953.066
    
    [GRAPHIC] [TIFF OMITTED] T2953.067
    
    [GRAPHIC] [TIFF OMITTED] T2953.068
    
    [GRAPHIC] [TIFF OMITTED] T2953.069
    
    Mr. Shays. And now we are with--thank you--I think Dr. 
Steele.
    Ms. Steele. I timed it for 5 minutes.
    Mr. Shays. This is a wonderful panel and thank you all for 
being here.
    Ms. Steele. My name is Dr. Lea Steele, and I am also a 
epidemiologist and senior health researcher at the Kansas 
Health Institute. Since 1997, I have conducted studies on the 
health of Gulf war veterans for the State of Kansas.
    Like veterans from other States and countries, Kansas 
veterans have reported enormous health problems since returning 
from Desert Storm. In 1997, the Kansas legislature funded a 
State program to look into these concerns. Our first objective 
was to find out if Gulf veterans had more or different health 
problems than veterans who did not serve in the war.
    In 1998, we launched a population-based study of over 2,000 
Kansas Gulf war-era veterans. Our study results were published 
about a year ago in the American Journal of Epidemiology. 
Briefly, the key findings from our research are as follows:
    First, we identified a pattern of symptoms that 
distinguishes Gulf war veterans from veterans who did not serve 
in the Gulf war. Overall, about one-third of Kansas Gulf war 
veterans reported a pattern of chronic symptoms that include 
joint pain, respiratory problems, neurocognitive difficulties, 
diarrhea----
    Mr. Shays. Move the mike. You are getting the puff sound.
    Ms. Steele. These symptoms that I have described 
individually can happen in anyone from time to time, but what 
we see uniquely in Gulf war veterans is a pattern of several 
symptom types together that can persist for years. These 
conditions range in severity from relatively mild to severe and 
quite disabling.
    Our second major finding is that Gulf war illness occurs in 
clearly identifiable patterns. For example, Army veterans are 
affected at much higher rates than Air Force veterans, and 
enlisted personnel, more than officers. Most importantly, 
illness rates differ by where and when veterans served in the 
Persian Gulf area. Veterans who served primarily on board ship 
during the war had a relatively low rate of illness. The 
highest rate, about 42 percent, was seen in veterans who 
entered either Iraq or Kuwait, countries where the ground war 
and coalition air strikes took place.
    To be clear, what I am saying is that overall more than 40 
percent of veterans who entered Iraq or Kuwait had this pattern 
of chronic symptoms that we're calling Gulf war illness. But 
more than half of the Gulf war veterans in our study were never 
in Iraq or Kuwait. They remained in support areas during their 
deployment.
    We found another striking pattern in this group. Veterans 
who were in theater only during Desert Shield, but left before 
the air strikes began had a very low rate of illness, only 
about 9 percent. There was a somewhat higher rate for those 
present during Desert Storm, but who left by March 1991, just 
after the cease-fire. The highest rates of illness were found 
in veterans who stayed in the region for at least 4 or 5 months 
after the war ended; and I am talking about veterans who served 
in support areas and were never in battlefield areas.
    Just related to this and relevant to some earlier comments 
about whether looking at veterans in different countries might 
be instructive to us, I can tell you that American veterans, 
groups of American veterans, can be identified who have high 
rates of illness and low rates of illness. I will tell you 
specifically in Kansas we have groups of veterans who were 
stationed in some areas, for example, eastern Saudi Arabia, who 
have moderately high rates of illness. People by the Red Sea 
and western Saudi Arabia have low, low rates of illness. I 
think it would be very instructive to compare the experiences 
and exposures of different groups of veterans who are clearly 
defined and have clearly different illness experiences.
    Let me touch on my third major point and that is that 
veterans who did not deploy to the Persian Gulf, but said they 
received vaccines from the military during the war may have 
some of the same health problems as Gulf veterans. Preliminary 
data from our study indicates that about 12 percent of Kansas 
veterans who did not serve in the Gulf, but said they received 
vaccines during that time had symptoms of Gulf war illness. By 
comparison, less than 4 percent of Gulf era veterans who did 
not receive vaccines had these symptoms. In veterans who never 
served in the Gulf region, the rate of Gulf war illness 
symptoms was three times higher for those who said they got 
vaccines during the war, compared to those who did not.
    All right, so what does all of this mean? It means, first, 
that Gulf veterans are affected by excess health problems and 
that these conditions are connected to their experiences during 
the war. The patterns we described cannot be explained by 
chance, by a veteran overreporting or by stress.
    Second, it suggests that veterans are affected by a number 
of different problems caused by a number of different 
exposures. Veterans who were in a position to experience more 
exposures had the highest rates of illness.
    Gulf veterans may be dealing with a number of pathologies, 
illnesses that may have been caused by different combinations 
of different things in different people. In turn, these 
problems show up as different combinations of overlapping 
symptoms in different people. From the health scientist's 
perspective, the scenario is quite complex.
    I believe the take-home message from our research is that 
these complexities are not insurmountable, that questions about 
these health problems can be answered. We should not accept the 
view that methodologic difficulties mean we can never really 
know if or why these men and women are ill. Our major finding 
may actually be that we had clear findings.
    In the context of the many millions of dollars in Federal 
research expenditures, our Kansas study consumed relatively 
little time and few resources, 2 years, about $150,000, and yet 
we were able to make significant progress. As I said, these 
questions are complex but not unanswerable.
    And one final comment: Let me say that the majority of Gulf 
veterans in our study only reported specific symptoms because 
we asked about them. Most have never come forward to the VA to 
request medical care or disability compensation. Among the 
thousands of veterans I have met or interviewed many are 
suspicious of the government and many tell me they don't want 
benefits. They want their health back and they want answers. It 
should go without saying that their service demands that we 
exert our best effort in finding those answers.
    [The prepared statement of Ms. Steele follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.070
    
    [GRAPHIC] [TIFF OMITTED] T2953.071
    
    [GRAPHIC] [TIFF OMITTED] T2953.072
    
    [GRAPHIC] [TIFF OMITTED] T2953.073
    
    [GRAPHIC] [TIFF OMITTED] T2953.074
    
    [GRAPHIC] [TIFF OMITTED] T2953.075
    
    [GRAPHIC] [TIFF OMITTED] T2953.076
    
    [GRAPHIC] [TIFF OMITTED] T2953.077
    
    Mr. Shays. Mr. Sanders has to leave, and I want to give him 
an opportunity to make a closing comment.
    Mr. Sanders. I have another meeting.
    I want to pick up on a point that Dr. Haley made. What 
often happens--and you and I have spent dozens of hours at 
hearings like this, hearing from some of the best people. What 
often happens, we hear presentations like this and hear 
presentations from the government.
    What I would respectfully suggest is that we do something 
different, perhaps, the next time; and that is, we allocate 5, 
6 hours, however long it takes, and we have on one panel--Dr. 
Haley made some very serious allegations, correct--I want the 
government to be able to respond or not be able to respond. I 
want the panel to be here in full and I want the reward, so to 
speak. I want to know what is at stake, the huge amounts of 
money this government spends in research. I want that debate to 
take place face to face.
    And I think for too long--is the DOD here anymore? I think 
we have some people here in the back. But the people who spoke 
are not here, and we keep going around in a circle. Let's have 
it out.
    You made some charges, let's have that debate and let the 
result of that debate be where we continue to spend our 
research dollars.
    Thank you for an excellent hearing. I apologize for having 
to step out.
    Mr. Shays. What we found in the beginning was, the 
government witnesses would testify; then we would have the sick 
veterans testify, but the government officials would have left. 
So what we did is we had our veterans speak first so they would 
stop denying at least one thing--they would deny that they were 
even sick--first, saying they were sick, and the next thing was 
to connect the sickness to their service in the Gulf.
    But in the beginning they were even denying that people had 
rashes. They were denying that people were literally sick when 
they were sick.
    So I think your suggestion is an excellent one, and I think 
that's what we'll do. We will have a real dialog and mature 
debate about all the different information and have it on the 
same panel.
    Mr. Tuite, you have the floor.
    Mr. Tuite. Is that better?
    Chairman Shays, members of the subcommittee, Lord Morris 
and Mr. George, thank you for your invitation to present 
testimony today. I provided the subcommittee with a written 
statement which I will summarize here.
    Having previously testified on some of the scientific 
findings made by myself and others, today I would like to 
address issues affecting the scope and pace of the scientific 
research on Gulf war illnesses and then suggest four 
initiatives to address the problems. I commend you for our 
ongoing interest in the health of Gulf war coalition veterans.
    Continuing oversight will be necessary to ensure the 
provision of appropriate care to these veterans. As you know, 
the 1998 Gulf War Veterans Act established a time line for 
reviewing the science to determine what illnesses might have 
been connected to wartime exposures, to assist the Secretary of 
the Department of Veterans' Affairs in making determinations of 
service connection for veterans who are suffering from often 
debilitating chronic and degenerative diseases. However, the 
time lines outlined in that legislation have been waved aside 
by the implementing agencies.
    Millions of dollars spent on this issue have been wasted, 
in my opinion, on badly designed internal studies and ongoing 
reviews of the literature. Literature reviews are a basic 
fundamental step for any researcher. Stand-alone literature 
reviews reduce the funding available for basic research and 
treatment and delays caused by the bureaucracies' technical and 
policy reviews of the reviews waste precious time in providing 
health care to suffering veterans.
    Continuing oversight is also necessary to ensure that 
scientific findings are not suppressed or delayed by 
bureaucratic concerns over political fallout or embarrassment. 
Inadvertent or even intentional bias can be imposed on a 
scientific study design or methodology as a result of the 
government's control of research conducted using government's 
funds.
    Study design and research results should not be stifled. 
Rather, the open, independent, scientific peer review process 
should be allowed to evaluate the scientific validity and 
importance of the study and its results. Research and the 
unconstrained dissemination of research results can only 
further the effort to assist Gulf war veterans.
    In addition to government research, increased efforts need 
to be made to encourage greater private sector participation in 
these research efforts. There are a number of indirect 
deterrents to private partnerships with the government in 
addressing some of the public health and other issues.
    For example, in some cases, the U.S. Government will retain 
a nonexclusive, nontransferable, irrevocable and paid-up 
license to practice inventions developed in cooperative 
research. If the discovery in question will be used primarily 
for government purposes, rather than confront this obstacle, 
private companies often opt to avoid these types of 
arrangements.
    In some cases, the royalties being paid to the Federal 
Government add to health care costs; in other instances, they 
are affecting the health of the biotechnology industry, 
particularly in the case of low-margin diagnostics. When profit 
margins are tight and under pressure, paying a several-
percentage-point royalty to the Federal Government may push a 
diagnostic out of the realm of good business sense. This 
practice can discourage private-sector firms from working with 
the government agencies in tackling even high-priority public 
health issues. In cases such as this and other important 
veterans' issues, public health issues and food safety issues, 
waivers to some of these financial deterrents need to be 
encouraged.
    A further deterrent and perhaps a more important deterrent 
to private sector involvement in Gulf war illness issues is the 
official stigma that has been attached to this issue. Denials 
by the government that any problem existed and the government's 
efforts to debunk or undermine scientific medical research 
conducted outside of the government agencies or outside 
government control may have resulted in a reluctance on the 
part of many researchers and the pharmaceutical and 
biotechnology industries to become involved in efforts to 
identify treatments for these soldiers. When the government 
would be the primary market for such diagnostics or therapies 
and the government insists that the illnesses are psychological 
and not physiological, few researchers and fewer companies will 
risk their reputations or capital.
    Our understanding of the nature of the health consequences 
of many of these exposures may not only help us in treating 
these veterans, but also may be of great value in our current 
war against terrorism.
    We must look forward to innovative solutions to these 
problems if we are to move forward. We are all here today to 
assist in accomplishing that goal. To that end, I encourage the 
committee, the Department of Defense and Veterans' Affairs and 
the White House to demonstrate leadership and support of our 
veterans by promoting private-public partnerships with the 
pharmaceutical and biotechnology industries for the purpose of 
identifying treatments for Gulf war veterans and removing 
deterrents to such partnerships. This could be accomplished by 
establishing programs similar to those used with the so-called 
``orphan diseases.''
    Attempting to return to the time line cited in existing 
legislation to expedite the determination of illnesses that are 
presumed associated with many of the varied exposures suffered 
by these veterans.
    Focusing research increasingly on treatment and looking for 
success stories in veterans who have received treatments that 
have improved the qualities of their life.
    And establishing an appropriate mandatory diagnosis-based 
data collection system within the VA and DOD to be published 
and updated annually of all Gulf war veterans receiving care in 
the government health system, listing specific diagnoses and 
categories of illnesses. Annual mailings to all veterans who 
served in the Southwest Asia theater of operations; would 
solicit their health information for inclusion.
    We must keep in mind that many Gulf war veterans were in 
Reserve components and are now receiving health care outside of 
these systems. This information would allow the Secretary of 
Veterans Affairs to identify statistically significant 
increases in the incidence of illnesses and make determinations 
of service connection. The information system should be capable 
of distinguishing who served during what phase of the 
operation, before, during and after the war, to determine if 
there is a significant difference in the illness rates between 
these populations.
    Old technology treatment protocols are not providing us 
with the answers we need in part because of the varied and 
multiple exposures experienced by the veterans affect different 
individuals in different ways. A one-size-fits-all treatment 
protocol will fail. Unconventional or outside-the-box thinking 
that takes advantage of the newest advances in genomics 
research is also needed.
    The success of such an initiative will require the kind of 
public-private cooperation that I have suggested. If this can 
be done, the Gulf war soldiers can be aided, and we will have a 
much better understanding of the health of the Coalition forces 
and the conditions that led to their illnesses. With the 
information that is developed, we may also be able to aid 
millions of other Americans with similar chronic illnesses.
    More real progress has been made by the Department of 
Veterans Affairs in recognizing the problems of Gulf war 
veterans in the last few months than was made in the proceeding 
years. More remains to be done. I hope that I have provided 
some suggestions for alternative approaches to be taken that 
might prove useful, and I thank the committee for the 
opportunity to testify and ask that the full text of my 
statement be included in the record.
    Mr. Shays. Your testimony will be part of the record. Thank 
you so much.
    [The prepared statement of Mr. Tuite follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.078
    
    [GRAPHIC] [TIFF OMITTED] T2953.079
    
    [GRAPHIC] [TIFF OMITTED] T2953.080
    
    [GRAPHIC] [TIFF OMITTED] T2953.081
    
    [GRAPHIC] [TIFF OMITTED] T2953.082
    
    Mr. Shays. Now we will hear from Mr. Urnovitz. Doctor. 
Sorry.
    Mr. Urnovitz. Thank you. Thank you, Chairman Shays. I'm 
grateful to your subcommittee for allowing me to present my 
views on the status of Gulf war syndrome research. And my 
entire response is also submitted in the written testimony.
    So what is the status of Gulf war syndrome research? It's a 
stalemate. My purpose today is to explain why. It's my opinion 
that cluster diseases like Gulf war syndrome are genomic in 
nature. Government-funded doctors take the position that 
cluster diseases are caused by germs. In the late 1800's, Louis 
Pasteur hypothesized that bacteria might be a cause of human 
disease, starting a major revolution in medicine, the germ 
theory. However, the theory that germs cause most, if not all, 
human disease fell apart immediately in the early 1900's when 
doctors investigated the transmissible agent in polio.
    The conceptual failure to see that a single germ does not 
always cause diseases is why we have not cured or prevented all 
of the so-called viral diseases. In fact, the common perception 
that vaccines can stop all diseases is just plain wrong.
    This book I hold in my hand, this remarkable book I hold in 
my hand, is the 1957 final report of the polio virus vaccine 
field trial. It contains no evidence to support the claim that 
it was the antibodies to the polio virus that prevented some 
cases of childhood paralysis. This report and the medical 
literature I have read so far calls into question the use of 
antibodies as surrogate markers for a protective response to 
germs like polio and certainly anthrax. In fact, it's my 
opinion that the strategy of anthrax protection through 
vaccines is based on very weak science.
    I applaud the work of the early polio virus researchers who 
were true pioneers. I believe we should view the early polio 
vaccine efforts as we view Columbus' voyage. Columbus did not 
discover America. He found a new world that allowed his 
successors to discover the Americas. Doctors Salk and Sabin did 
not prevent all cases of childhood paralysis, but they did show 
us the way to do it and perhaps how to prevent many chronic 
diseases through postexposure treatment.
    So why haven't we eliminated diseases like Gulf war 
syndrome, AIDS childhood paralysis, mad cow disease? Why don't 
we have a foolproof way to prevent illness from chemical and 
biological terrorism? I blame this genome versus germs 
stalemate on the largest, most powerful medical research entity 
in the world, the U.S. Department of Health and Human Services, 
HHS.
    In my opinion the most recent request of HHS to control all 
inquiries from Congress and the media on medically related 
issues is an another sign that HHS is completely out of 
control. Over the last year and before September 11 events, I 
have repeatedly asked that HHS officials explain why the agency 
allowed 93 employees to abuse the power of their positions by 
signing a public document calling for the end of a scientific 
debate on the role of viruses in human diseases. This flagrant 
violation of medical ethics can be documented on my Website, 
chronicillnet.org, under government relations, clearly 
establishes a government sanction against important independent 
medical discovery.
    All right. So how do we break the stalemate? Let me share 
with you some of my thoughts. First, if science and government 
wish to continue any kind of responsible partnership, a new 
paradigm must be developed that allows for scientific and 
public discourse on fresh research ideas. Second, the Federal 
structure must resolve to end the de facto government sanctions 
that exist as a result of an inherent bias against innovative 
research.
    Third, we must leave behind a dim decade of ``denying 
clues'' that has deprived Gulf war veterans of a possible 
pathway out of illness. We must not continue to allow stale 
dogma to trash true science.
    I am certain we will overcome this stalemate. Scientific 
discovery and new treatment modalities will prevail. For 
example, German scientists asked me if my Gulf war syndrome 
research could be used as a basis for a mad cow disease test in 
which the animals did not have to be killed to make the 
diagnosis. It only took 2 months, one other scientist, to 
generate the data to file a new patent for a new testing 
method. We begin validation studies next month, and we hope to 
be saving the German beef industry and protecting the food 
supply by this summer.
    I see no reason why we cannot design a similar program for 
Gulf war syndrome research; that is, to identify new diagnostic 
markers and start a discovery program to produce antigenomic 
drugs to dampen down the Gulf war syndrome veterans' ailments. 
These same antigenomic medications would better protect our 
troops against biological and chemical weapons than still 
unproven vaccines.
    The role of Congress should be to do what it does best, 
keep the pressure on. As you are all too aware, we are engaged 
in a long-term war that involved hideous brands of terrorism 
and a life-and-death necessity to realize we don't have years 
to change the way we protect our troops and our people against 
chemical and biological warfare. At best we have months. You 
will never be able to protect the citizens of this country, if 
HHS is not held accountable for its actions that continue to 
discourage scientific discovery in the ways I've described.
    In conclusion, I want to thank the subcommittee for its 
leadership in trying to understand the complexities surrounding 
the treatment of Gulf war syndrome. I also want to thank the 
staff of the GAO for its first class reports on Gulf war 
syndrome-related issues as well as calling them as they see 
them. I also thank the subcommittee for recognizing my 
contributions that I made to the medical literature and for my 
modest attempt at trying to keep the scientific debate open.
    I would ask that my full text and both my oral and written 
statements be submitted for inclusion in the record of the 
hearing. Thank you.
    [The prepared statement of Mr. Urnovitz follows:]

    [GRAPHIC] [TIFF OMITTED] T2953.083
    
    [GRAPHIC] [TIFF OMITTED] T2953.084
    
    [GRAPHIC] [TIFF OMITTED] T2953.085
    
    [GRAPHIC] [TIFF OMITTED] T2953.086
    
    [GRAPHIC] [TIFF OMITTED] T2953.087
    
    [GRAPHIC] [TIFF OMITTED] T2953.088
    
    Mr. Shays. What excellent testimony we've received from all 
of you. I am going to call on my colleague Mr. George to ask 
the first round of questions, but I have a number of questions. 
I am going to inject myself, though, into a comment that you 
made in regards to, Mr. Urnovitz, Doctor, as it relates to what 
HHS is doing. They're doing this as the result of the war on 
terrorism. We are a committee that has in this full committee 
jurisdiction over the terrorist issue. As you know we spent--
we've probably had close to 30 hearings on this issue. And we 
intend to look at just your concern because the implications 
are gigantic. They're gigantic. A number of you have raised 
other concerns as well that I'll share with you in the course 
of our questioning.
    You're on.
    Mr. George. Thank you.
    What has emerged this morning and this afternoon is how the 
Americans beat the Brits in the American War of Independence. 
It was clearly the Brits have got more staying power than the 
Americans, but that is something that I won't push too far. I 
shan't make any party political speeches, but things are 
getting slightly better with the British Government. Maybe our 
British witnesses will object. The government seems to be more 
prepared to disseminate information, more money spent on 
research, although minuscule compared to the United States. 
They seem rather less dogmatic than their predecessors. Despite 
that, the problems remain.
    And where I am truly perplexed is this: I have said for 
years and years there is a Gulf war syndrome. Not enough 
research has been done in the United Kingdom. And more research 
has been done, but when that research is published by very 
distinguished academics and very distinguished universities, 
are published in very distinguished journals, then I am less 
certain I even understand the problems.
    And what I ask, and, please, I ask those who are responding 
and those in the audience not to shoot the messenger, but I 
would like your views on a number of reports published in the 
U.K. and say whether this is bad research, whether it is part 
of a conspiracy by the government, which I doubt, to undermine 
the whole case of the concept of the Gulf war syndrome that I 
believe exists. So I don't ask any individual specifically, but 
perhaps you would comment.
    There was some research done by a team from Guys, Kings and 
St. Thomas' School of Medicine entitled, ``Ten Years On: What 
Do We Know About the Gulf War Syndrome?'' And this was 
published in the Royal Journal, the Journal of the Royal 
College of Physicians. And it coincided with the 10th 
anniversary of the ending of the Gulf conflict. It said this, 
The paper noted that a syndrome implies a unique constellation 
or sign or symptoms, and that, this is the contentious part, 
``the balance of evidence is against there being a distinct 
Gulf war syndrome.'' It said in its report that, ``no evidence 
has emerged to date of either distinct biomedical abnormalities 
nor premature mortality.'' But it goes on to say that it noted, 
``Gulf service has affected the symptomatic health of large 
numbers of those who took part in the campaign.''
    The team speculated, says our Ministry of Defence, that the 
most plausible causes were exposures that affected the majority 
of those in theater such as medical countermeasures or psycho 
or social factors.
    The question I wish to ask is is it that there's a dispute 
over the definition of what a syndrome is, or is this research 
an aberration? Is there such a thing as the Gulf war syndrome? 
It's an elementary question that I as a politician have been 
asking, simply have no idea from scientific evidence if there 
is an answer.
    Mr. Shays. Why don't we go right down. That's a wonderful 
way to start the panel. So thank you for asking.
    Dr. Haley. This was one of the major conclusions of what I 
said a moment ago is that a syndrome is defined, as you said, a 
group of symptoms that hang together. Many people have the same 
symptoms. Well, the people coming back from the Gulf war, large 
numbers complain of the same constellation of symptoms. And 
factor analysis, which is just a mathematical way of showing 
that, demonstrates that. It's been seen in almost every study 
that's been done. The unpublished, the withheld study from Dr. 
Kang and his work shows that the Syndrome II, which is the most 
severe, is found only in Gulf war veterans. At the end of that 
abstract that he previewed at the meeting 3 years ago, he said 
this could be seen as a unique Gulf war syndrome. And now the 
VA people continue to say, well, there is no unique Gulf war 
syndrome, when, in fact, their very study says that there is. 
There is a Gulf war syndrome. You're right. It's been shown, it 
just hasn't been published, and they won't talk about it.
    Mr. Shays. Anyone else?
    Dr. Jamal. If I may comment. I think the point I would make 
is that in any epidemiological cross-sectional study that you 
do, the first and the most important step you have to do is to 
define what you are looking for. If you can't define the end 
target, then you may actually miss it. The epidemiological 
cross-sectional study may confuse the picture. And that is what 
we've done in the case of the long-term low-level exposure to 
organophosphate.
    I think that is one of the problems. And the U.K. 
authorities, up until even now, they're not interested in 
funding mechanismal causative research. I give you a small 
example. The autonomic study that we did, we found that there 
are--this is very elusive to clinical examination. Even the 
best neurologists will not detect abnormalities. It's just what 
the patient tells you. Until you go and do very detailed high-
cost studies, you will not detect what is wrong with the 
patient.
    Now, if you do cross-sectional question survey study, and 
you're unaware about that, you do not look for that, you will 
not find the answer.
    Dr. Cherry. I am probably going to fall out with the rest 
of the panel for what I say now. We did try very hard to find a 
unique syndrome. We didn't find one. What we did find was that 
the clusters of symptoms that the people from the Gulf war had 
were not different or unique, but there were just a great deal 
many more of them who fell into the clusters that were sick.
    So though we tried and spent a lot of ingenuity in trying 
to get the right methodology to find a unique syndrome, we 
didn't. I don't think that means that people who went to the 
Gulf war aren't sick. I'm sure that from our findings and from 
everybody else's findings on this panel that there are 
neurological problems much more frequently in people who went 
to the Gulf war than people who didn't. But statistically we 
were unable to find that there was a unique syndrome that 
wasn't found in the rest of the population.
    Mr. Shays. Dr. Steele, Mr. Tuite.
    Ms. Steele. I think when you ask if there's a unique Gulf 
war syndrome, you're actually asking two questions. One, is 
there a single unique syndrome. I think just from the data that 
we've heard today it sounds like no, there are several things 
going on, different things in different people. So if some 
official person says there is no single unique Gulf war 
syndrome, are they saying there's nothing wrong or are they 
just saying there's not a unique new syndrome.
    So when you make conclusions you have to distinguish if 
you're really saying is there really anything wrong with Gulf 
war veterans or are you just saying no, there's no single 
unique syndrome.
    The second point is that when you look at the symptoms that 
Gulf war veterans have, these are symptoms that you would find 
in the general population. If you ask anyone, any group of 
people, what symptoms you're experiencing, some people in those 
groups will have symptoms. So similarly, when you ask people 
who are veterans who didn't go to the Gulf war if they have 
symptoms, some of them will have symptoms. Then if you compare 
their symptoms to people who did go to the Gulf war, you'll see 
there are some similarities in the symptoms.
    Many of the studies that are cited for that report that 
you're describing have emphasized the similarities in the 
symptoms without really trying to see if there are differences 
in the patterns in which the symptoms occur. And I think Dr. 
Cherry and Dr. Haley both have pointed out you really need to 
look at the quantity of symptoms that these folks are 
experiencing. They're experiencing lots of symptoms at the same 
time, and the symptoms persist. It's really quite different 
than the kinds of symptoms we see in the nondeployed 
population.
    So my conclusion would be that there are Gulf war-related 
illnesses, perhaps not a single syndrome.
    Mr. Tuite. Again, you know, I think a lot of this has to do 
with what Dr. Urnovitz talked about earlier. We're mixing two 
different issues. We've got the environment, and we've got the 
host. The hosts will respond differently to the environment. As 
Dr. Haley found, certain patients who responded in a certain 
way to certain exposure events had more serious manifestations 
and represented one cluster of symptoms.
    So we may see multiple symptoms, some of which may be 
dominant and others may be lesser, and you are going to see 
some of those in the general populations because you have 
people that may have more severe susceptibilities and maybe 
less severe exposures so that it's not going to be unique to 
the Gulf war. But the fact remains that we have a cluster of 
people from the Gulf war who should not be experiencing these 
illnesses or this collection of syndromes, if you will, to the 
extent that they are. They're far in excess of what you should 
see in the general population.
    Mr. Shays. Dr. Urnovitz.
    Mr. Urnovitz. You know, the absolute beauty in history, 
years from now when they look back, they're going to say the 
Gulf war syndrome took us to the 21st century for one reason, 
they couldn't find a germ that caused this disease. They had to 
look closer. So, you know, I don't normally wear ties, so since 
I got one on, I'm going to give you my philosophy of life in 
less than 30 seconds. You know what we're looking at here? I 
believe Gulf war syndrome, we learned that the body can repair 
itself and heal fantastically. It's a really amazing mechanism. 
You know how it does it? It does it in order of billions and 
billions of instructions that have to be followed. One gene 
gives one protein, goes to cells, this and that; it's a 
fantastic system, truly something worth studying. You throw a 
monkey wrench at any one of those billion pathways, and you can 
get any kind of syndrome you want.
    Gulf war syndrome is an example of mean age young people 
28-ish years old being exposed to one of the filthiest wars 
we've ever been, and then you throw in some things to throw off 
these mechanisms, whether they're vaccines, which are genes, or 
squalene, or anything of those other things. You've got now a 
double hit. What I just outlined in my testimony is--and the 
Brits are not free of guilt here because they also signed this 
petition.
    Mr. Shays. Go for it.
    Dr. Urnovitz. And not only did Columbus not discover 
America, you taxed us without representation. I want to point 
that out, too.
    Mr. Shays. Don't get carried away.
    Dr. Urnovitz. We're doing a very good job of taxing 
ourselves.
    Mr. George. We didn't do very well, I might say.
    Dr. Urnovitz. What I'm showing you here is we have never 
had a better opportunity to nail cancer, nail AIDS and 
everything else, because throw the germ theory out. It's the 
genome. And now we got to get complicated, which means we can 
do it. We have the tools to do it. Where in the pathway did it 
get thrown out and how do you get the people back on track 
again. That's the deal.
    Mr. Shays. I've got to ask this question, if I could. Dr. 
Haley, you were nodding your head when Dr. Jamal spoke, when 
Dr. Cherry spoke, Dr. Steele. When Mr. Tuite spoke, you started 
to squint, and you had no reaction with the good doctor here. 
So I'm curious.
    Dr. Haley. I simply ran out of nods.
    Mr. Shays. Fair enough. Will the record please show that 
Dr. Haley nodded after all witnesses followed, and when he 
didn't nod, he meant to, but didn't have the energy.
    Do you have a followup question?
    Mr. George. Yes. Thank you. Perhaps you can see why 
politicians are a little bit confused; how politicians actually 
are generally people of goodwill, but the signals we're getting 
are very varied. And it's very difficult to make policy when 
the advice that is being proffered lacks consistency. It's not 
to attribute any blame to those who are proffering it, but it's 
an indication of the immense complexities that none of us can 
truly understand.
    And I've seen so many of these people coming before the 
Defence Committee in their wheelchairs looking appallingly 
sick, and some have died. And it's very emotional seeing people 
who have suffered, people who have gone off to fight on your 
behalf. We're desperate to find the answers, and so far we have 
failed miserably. But we have these misconceptions in the early 
days--Mr. Chairman, oh, please don't go. We'll be inquorate. 
No, I was told it was two for a quorum. It's three in the U.K.
    I anticipated in the very early days that these men and 
women would be dying like flies. They looked seriously ill when 
they came to see us, but, again, another study, a British 
study, pointed out that amongst the Brits the mortality levels 
were statistically almost identical between a group selected 
that didn't go and the group that did go. Now, is it because 
our people are pretty hearty and resilient eating their 
different fatty foods? Is there any difference between the 
statistics in the United States? So does the Gulf war syndrome 
merely debilitate but not kill people off? Or is the research 
being done, in fact, done by another very, very distinguished 
university, and the Medical Research Council appears to endorse 
it--yes, Manchester University.
    Dr. Cherry. We did it.
    Mr. George. I'm sorry to keep pointing the finger at you. 
The statistics presented to us by our Ministry of Defence were 
as of the 31st of December 2000, 477 military personnel died as 
opposed to 466 of a similar sample group of veterans who did 
not attend. How do we answer those questions? Perhaps Dr. 
Cherry, as you were involved in that research.
    Dr. Cherry. It is the case that up 'til now neither in the 
United States or the U.K. has there been an excess in the 
overall mortality.
    Mr. George. But I think you said earlier it may happen in 
due course. It means that over a 10-year period there hasn't 
been----
    Dr. Cherry. If you looked how long it took for people to be 
exposed to asbestos. I'm taking a wider point here. Asbestos, 
it takes people 40 years to die after they have been exposed to 
asbestos. I'm not suggesting there is asbestos in the Gulf. But 
with chronic disease you may have a latency of up to 40 years 
before you see a very serious epidemic. I'm not saying we're 
going to see it, but the fact that you haven't seen it at 8 
years, 9 years doesn't mean there's not something later on.
    Mr. George. Right.
    May I ask one final question again directed at Dr. Cherry--
I'm sorry, but perhaps any others who would wish to join in, 
with your approval, chairman--the findings that you led at 
Manchester University that Gulf veterans suffer more ill health 
than service personnel who do not go to the Gulf, and your 
accumulated findings and research have been published.
    Now, the question to you and others--our distinguished, our 
very eloquent witness is here with his checkbook at the ready--
what kinds of research should now focus on what subjects? Given 
we've had 10 years' experience of research, much of which had 
use, much of which was of no consequence whatsoever, what now 
should the British Government, the DOD, the Veterans' 
Administration, private benefactors, in the light of what we 
have learned so far, where should now the focus be?
    And second, and it is a difficult question, is it better--
and I hope you will say no--is it better to say should the 
energies be put on if not researching the causes, at least 
delivering better services to those who have survived, or 
should there be the same balance as there has been between 
research into causes, symptoms and indeed services provided to 
our military personnel?
    Thank you, Mr. Chairman.
    Mr. Shays. Let me say that I'm intending to have this panel 
end by about 7 of or basically about 10 of. I invite Mr. Perot 
and any other panelists to spend about 4 minutes with any 
comments they want. Then I intend to close this by 3. So just 
so we know--yes. So if we could have the question answered. Is 
there a response? I haven't given you a lot of time.
    Dr. Cherry. There are three or four reasons for doing 
research at this point. The most pressing is if you can find 
causes that would help us treat the people who are sick at the 
moment, if we can understand why they're sick, we're much 
closer to being able to treat it. So that's one good reason.
    The second is a very obvious one. We don't want to expose 
people in the future to things that have made people sick now. 
And that really, again, is causal research.
    The third--and again, we're looking for causal research--is 
where the Gulf war may help us understand basic disease 
mechanisms. For example, in ALS, if we can understand why 
people who went to the Gulf get ALS, we may, in fact, be able 
to prevent ALS in the much larger population.
    And the fourth area of research is even if we don't know 
the cause, can we actually make people function less badly? And 
you may need research for that, too. That's not simply sitting 
down and making recommendations. You may need to do clinical 
trials and so on to see what works and what doesn't. But the 
first three are all causal research.
    Mr. Shays. I'm going to go to you, Mr. George--I mean, 
excuse me, Mr. Lord Morris. Then I will ask a few questions. 
Then we will try to finish up here.
    Mr. Morris. Congressman Shays, we meet under your 
chairmanship in a subcommittee of the House Government Reform 
Committee, and we heard this morning Ross Perot's refreshingly 
forthright views on government institutions and personnel. What 
changes in those institutions did Dr. Haley or perhaps Dr. 
Steele, Mr. Tuite or Dr. Urnovitz think would or might have 
made life better for veterans with Gulf war-related incidents? 
If the interactive effects of NAPS tablets and up to 14 
inoculations could have had adverse effects on Gulf war 
veterans with undiagnosed illnesses, what about interactive 
effects of having so many government departments involved in 
addressing their problems?
    In other words, do we have here not only medical issues to 
consider, but crucially also that of defects in government 
machinery?
    Mr. Tuite. Can I address that early on? Because I was 
really--in the early days when we were actually trying to get 
something done about this issue, I was pretty heavily involved. 
And I can say that initially we didn't know what happened, and 
we spent a lot of time trying to find out what had happened. 
And the agencies that are now doing the research were the 
keepers of that information.
    And so as we went forward and the layers of the onion 
started to peel away, we found out that they were exposed to 
this and they were exposed to that, and I think that the number 
of different exposures now is up to more than 30 that we're 
looking at, including the time-compressed administration of 
multiple vaccines. Those agencies had become entrenched in the 
process, both in the process of Congress going to those 
agencies to try and get information, in the--I guess in the 
battle over what was right and what was wrong so that as we 
went forward, I think that we were maybe wrong in using those 
agencies to lead us out of the problem as well.
    And perhaps we should have taken a more open-minded 
approach to how you solve a problem, because it was very clear 
at that point that we had agencies that had a vested interest 
in outcomes leading a process that was supposedly open and 
peer-reviewed. That was just not happening. That's one of the 
reasons why here we are 10 years later, and we're still asking 
what is wrong with these soldiers.
    Ms. Steele. I concur with Mr. Tuite. That's really the core 
issue. It's manifested itself in different ways to make 
problems and the research not turning out, but the core thing 
is what he said.
    Dr. Haley. Can I make a parallel?
    Dr. Urnovitz. Seniority, please.
    Mr. Shays. No, I'm going to let you go first. You always 
get the last word. I'm curious what he'll say if he gets the 
last word.
    Dr. Urnovitz. Someday you're going to learn how to 
pronounce my name right.
    Listen, it's really quite straightforward. I wrote this is 
a complete heresy. I'm telling you there was no polio virus 
epidemic. None of you guys flinched. Well, you know, nobody 
nodded either. I wrote this in Santa Maria Sopra Minerva in 
Rome in the room that Galileo was excommunicated in. The reason 
being is that's where we are today is many of our government 
doctors say that the Earth is in the middle and the sun goes 
around it, and we're not funding anything else, and we're not 
going to communicate, and that's the end of it.
    If I could ask one thing from this committee, we have laws 
in place that you can't lie to Congress, but now we find out 
you can't fire them either. So we're in a really interesting 
position of some interesting jobs program here, and I might 
apply.
    Back to Mr. George's question. You know, we've got it right 
now, and we can do it right now is the GAO came up with a 
report that tells you where to look. And I wouldn't do just a 
British study and I wouldn't do just an American study or 
French. I would do a French-British-American study. I would 
also do the Czechs and everybody else that was involved, and I 
would also do the Balkan War syndrome that went on, and I would 
also do the current guys so we can look at a current war right 
now.
    Where's their blood? You've got the markers. Do I need to 
point them out to you? You've got brain scans, you've got OP 
tests, you've got antisqualene antibodies, you've got genetics 
tests. We've given you the markers to go out and do something 
with it. GAO told you what study needs to be done. This is not 
difficult. It would take about a year. I'm sorry Mr. Sanders 
left, but this is my comment to him is he is right. We gave you 
guys $300 million. Give us 30-, we'll blow the world away and 
cure diseases in the meantime. By the way, I said it under 
oath.
    Mr. Shays. You know what's crazy? I believe you.
    Dr. Haley. I think it would be very instructive to answer 
this question to look at the parallel in the research programs 
that have virtually solved the AIDS problem, HIV/AIDS versus 
the Gulf war syndrome. 15 years ago the AIDS problem was in the 
same type of mess that we have been in for 10 years in the Gulf 
war issue. There was back-biting, there was denial, there was 
conflict of interest in the research. And then through the 
activism of the AIDS victims to the point of almost violence, 
the Congress gave NIH a very strong mandate: Solve this 
problem. So they started a classic NIH research program with 
peer review done by study sections where the names of the peer 
reviewers are published so it's fair and above board, and you 
get thorough scientific peer review.
    The word went out--with hundreds of millions of dollars 
available, the word went out to every university all over the 
world there's money, it's a fair process. If you make 
discoveries, you're going to be celebrated, and you'll get more 
grant money.
    What we have here is 10 years, we have the word is out, it 
has been out for many years, that if you apply for a grant in 
the DOD through our peer review process in Gulf war syndrome, 
and if you don't find the findings that the policy wants, then 
you are going to be crucified. You will never get more money. 
You will be berated. You will be maligned. You will be lied 
about.
    And so, I mean, when I--I was meeting with some Harvard 
doctors the other night. Just before I came they were giving a 
course down at our university. We are having dinner, and they 
said, what do you do? I said, well, I research the Gulf war 
syndrome. They said, are you kidding? What are you doing? 
You're going to ruin your career. This is dangerous. We would 
never do that.
    And that's the word all over the major universities. The 
good researchers would never get into this. That's one of the 
problems our Veterans Research Advisory Committee that we're 
going to be on--that's one of the major things we're going to 
face, that no reputable researcher who doesn't already believe 
in the stress theory is going to get involved in this.
    Mr. Shays. Let me tell you the other thing that concerns 
me. When I was at the press conference, those of you who are on 
the advisory panel are being now told you won't get the money 
because you are on the advisory panel, it's a conflict of 
interest, which could really make me suspect.
    You all have been an extraordinary panel. The two bookends, 
though, are basically going more than just saying misinformed, 
but you're saying lying. And, you know, I've always viewed it 
this way: That when we look at the thousands of doctors who 
work for the Department of Veterans Affairs, they don't have 
any of the expertise you have. Their whole line of work is 
different. They didn't notice it. They didn't think about it. 
It didn't fit into any of their studies.
    When we questioned them, how many people had any ability 
and background in, say, chemical exposure, in the course of 
thousands and thousands of thousands they could think of two 
doctors, and so then we thought it was unfair. We said, get 
back to us. They still came back two doctors. So I basically 
began to view it as kind of like at the universities, the 
scholars teach what they taught, not what the students need to 
learn. And I thought it was more like that, that was more the 
problem. Now I get the sense if that was the problem, there's 
been more a defensive mechanism that now gets into discrediting 
everyone, which is a really deadly way for them to head.
    So, in one sense I feel a little depressed because the 
opposition seems to have gotten hardened in some ways, but in 
another sense I feel that you all have not been intimidated. 
You all are out there. Your work is becoming known. It is 
becoming respected. And you know what? Galileo went through the 
same thing, didn't he? So I don't feel sorry for any of you. I 
am just grateful as hell that you're doing your work. The one 
thing I note was Copernicus the one who was threatened to be 
beheaded--or Galileo. But none of you have had those kind of 
threats. And anyway, you have Ross Perot to protect you.
    I will allow our previous panel to use 2 or 3 minutes if 
they want any closing comments. Anybody in any of the previous 
panels who want to make a comment? Do you have any comments 
from the GAO?
    Ross, if you have comments, I would like you to move 
yourself up while she's speaking.
    Ms. Kingsbury. I want to say I am thrilled with the outcome 
of this panel. We haven't solved the problems here yet, guys, 
but we've at least opened the door. I'm very proud we were able 
to be a part of it. I appreciate your support of us in that 
respect. I hope we can continue to help you in going forward.
    Mr. Shays. It has to be fairly brief, Ross.
    Mr. Perot. Yes, sir. I just want to commend all of you on 
this last panel. I think you've done an outstanding job. 
Several things I intended to bring up they've explained. The 
one thing that's still on my mind is the gas mask and the 
chemical suits that our troops are using now. I think we should 
have somebody make sure they're the best of the best, because 
there's a whole range of gas masks. Some are pretty good, some 
are bad. Up at the upper end there are some that really give 
great protection. Our troops deserve the finest protection.
    So someone should look into that quickly and make sure that 
because of procurement policy or what have you the quality of 
the equipment they have to wear when they're exposed to these 
things is the best that money can buy. It would be an easy 
thing to check. Thank you.
    Mr. Shays. I thank you very much. I thank the panel. And I 
will draw this hearing to a conclusion. Thank you all so much. 
And I have a feeling, and certainly if I have anything to do 
with it, we will all be back.
    [Whereupon, at 2:56 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2953.089

[GRAPHIC] [TIFF OMITTED] T2953.090

[GRAPHIC] [TIFF OMITTED] T2953.091

[GRAPHIC] [TIFF OMITTED] T2953.092

[GRAPHIC] [TIFF OMITTED] T2953.093

[GRAPHIC] [TIFF OMITTED] T2953.094

[GRAPHIC] [TIFF OMITTED] T2953.095

[GRAPHIC] [TIFF OMITTED] T2953.096

[GRAPHIC] [TIFF OMITTED] T2953.097

[GRAPHIC] [TIFF OMITTED] T2953.098

[GRAPHIC] [TIFF OMITTED] T2953.099

[GRAPHIC] [TIFF OMITTED] T2953.100

[GRAPHIC] [TIFF OMITTED] T2953.101

[GRAPHIC] [TIFF OMITTED] T2953.102

[GRAPHIC] [TIFF OMITTED] T2953.103

[GRAPHIC] [TIFF OMITTED] T2953.104

[GRAPHIC] [TIFF OMITTED] T2953.105

[GRAPHIC] [TIFF OMITTED] T2953.106

[GRAPHIC] [TIFF OMITTED] T2953.107

[GRAPHIC] [TIFF OMITTED] T2953.108

[GRAPHIC] [TIFF OMITTED] T2953.109

[GRAPHIC] [TIFF OMITTED] T2953.110

[GRAPHIC] [TIFF OMITTED] T2953.111

[GRAPHIC] [TIFF OMITTED] T2953.112

[GRAPHIC] [TIFF OMITTED] T2953.113

[GRAPHIC] [TIFF OMITTED] T2953.114

[GRAPHIC] [TIFF OMITTED] T2953.115

[GRAPHIC] [TIFF OMITTED] T2953.116

[GRAPHIC] [TIFF OMITTED] T2953.117

[GRAPHIC] [TIFF OMITTED] T2953.118


</pre></body></html>
